<html>
<title> - CURRENT NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 111-645]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-645

                      CURRENT NATIONAL PARKS BILLS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                           S. 349                                S. 2976                           S. 1596                               S. 3159                           S. 1651                               S. 3168                           S. 1750                               S. 3303                           S. 1801                               H.R. 685                           S. 1802                               H.R. 3388                           S. 2953                               H.R. 4395 

                                     

                               __________

                              MAY 19, 2010


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
61-612 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          SAM BROWNBACK, Kansas
BLANCHE L. LINCOLN, Arkansas         JOHN McCAIN, Arizona
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   BOB CORKER, Tennessee
DEBBIE STABENOW, Michigan

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bennet, Hon. Michael F., U.S. Senator From Colorado..............    26
Burr, Hon. Richard, U.S. Senator From North Carolina.............     4
Burris, Hon. Roland W., U.S. Senator From Illinois...............     5
Carper, Hon. Thomas R., U.S. Senator From Delaware...............     9
Clay, Hon. William Lacy, U.S. Representative From Missouri.......     8
Holtrop, Joel, Forest Service, Department of Agriculture.........    28
Moomaw, Robert, County Commissioner, Archuleta County, CO........    35
Platts, Mark N., President, Susquehanna Heritage Corporation, 
  Wrightsville, PA...............................................    41
Slavin, Timothy, Director, Division of Historical and Cultural 
  Affairs, State of Delaware.....................................    38
Udall, Hon. Mark, U.S. Senator From Colorado.....................     1
Whitesell, Stephen E., Associate Director, Park Planning, 
  Facilities, and Lands, National Park Service, Department of the 
  Interior.......................................................    12

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    53

                              Appendix II

Additional material submitted for the record.....................    87

 
                      CURRENT NATIONAL PARKS BILLS

                              ----------                              


                        WEDNESDAY, MAY 19, 2010

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:34 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. I call the subcommittee to order, and I'll 
turn on the mike so you can even better hear me. We have a host 
of bills this afternoon. We have a number of Senators scheduled 
to testify about their particular bills, but what I'd like to 
do is make my opening statement. We'll then start with the 
administration witnesses. As Senators are able to arrive, we'll 
fit them in, if that works for everybody here.
    So this afternoon the Subcommittee on National Parks has a 
lengthy list of bills to consider, reflecting a variety of 
conservation proposals on the National Park Service, Forest 
Service, and Bureau of Land Management lands throughout the 
country. The bills on today's agenda include:
    S. 349, which would establish the Susequehanna Gateway 
National Heritage Area in Pennsylvania;
    S. 1596, to authorize the Secretary of the Interior to 
acquire the Gold Hill Ranch in California;
    S. 1651, to modify a land grant patent in Michigan issued 
by the Secretary of Interior;
    S. 1750, to authorize the Secretary of Interior to conduct 
a special resource study of the George C. Marshall Home in 
Leesburg, Virginia;
    S. 1801, to establish the First State National Historical 
Park in Delaware, and I'd add I'm a co-sponsor of that 
particular legislative vehicle;
    S. 1802 and H.R. 685, to require a study of the feasibility 
of establishing a United States Civil Rights Trail System;
    S. 2953 and H.R. 3388, to modify the boundary of Petersburg 
National Battlefield in Virginia;
    S. 2976, to designate as wilderness certain land within the 
Sleeping Bear Dunes National Lakeshore in Michigan;
    S. 3159 and H.R. 4395, to revise the boundaries of the 
Gettysburg National Military Park to include the Gettysburg 
Train Station;
    S. 3168, to authorize the Secretary of the Interior to 
acquire certain land in Pennsylvania for inclusion in the Fort 
Necessity National Battlefield; and
    Last but not least, S. 3303, a bill Senator Bennet of 
Colorado and I introduced, to establish the Chimney Rock 
National Monument in Colorado. The Chimney Rock bill will help 
protect a very unique Chacoan archaeological site in our home 
State. The Chimney Rock site includes 2 spectacular rock 
spires, as well as the remains of a great house and other 
buildings built by the ancestors of the Pueblo Indians over a 
thousand years ago.
    One of the many interesting facts about Chimney Rock is 
that every 18 years the moon is in a position that it appears 
to rise between the spires when viewed from the great house. 
Much remains unknown about the Chacoan people and the site 
itself, but clearly it was a site of astronomical and religious 
significance, and it's certainly a very important 
archaeological site.
    I wanted to note that I hope Senator Bennet will be able to 
be here. He'll speak in greater detail on his bill when he 
does. But I am very pleased to join him as a co-sponsor of the 
bill and I look forward to working with him to see that it's 
enacted into law.
    Let me now move to recognize the ranking member, my friend 
and a great North Carolinian, Senator Richard Burr.
    [The prepared statements of Senators Boxer and Levin 
follow:]
Prepared Statement of Hon. Barbara Boxer, U.S. Senator From California, 
                               on S. 1596
    Mr. Chairman, thank you for holding this hearing to discuss S. 
1596, the Gold Hill-Wakamatsu Preservation Act.
    I am pleased to have worked with Representative Tom McClintock on 
this bill, which would authorize the Bureau of Land Management to 
acquire the Gold Hill Ranch in western El Dorado County--the location 
of the first Japanese settlement in the United States.
    In 1869, 22 Japanese expatriates fled the turmoil of Japan's Meiji 
restoration and made their way across the Pacific Ocean to California. 
There, they purchased land in the heart of gold rush country, and began 
producing traditional Japanese crops such as mulberry trees for silk, 
bamboo roots, tea seeds, grape seedlings, and short-grain rice.
    The Wakamatsu Tea and Silk Colony, as it was called, played an 
important role in bridging Japanese and American cultures. The 
colonists and surrounding community learned about each others' customs 
and agricultural techniques, and stories of the colony were reported in 
newspapers such as the San Francisco Chronicle and New York Times. 
Unfortunately, drought and financial problems forced the colonists to 
disperse and settle throughout California beginning in 1871, and the 
272-acre property was purchased by the neighboring Veerkamp family.
    Despite the colony's short history, its contributions to American 
history have endured. The significance of this site for Japanese 
Americans has been compared to that of Plymouth Rock for European 
Americans. The successful migration and assimilation of these first 
Wakamatsu colonists established California as the gateway for waves of 
Japanese immigrants entering our nation in the late 19th and early 20th 
centuries. The new agricultural products they introduced contributed to 
California's eventual preeminence as an agricultural and economic 
leader.
    Many of the original structures on the site remain intact, 
including a farmhouse, the grave of a young girl named Okei, artifacts, 
and agricultural plantings. Japanese-Americans and other visitors come 
to see the site and place offerings on Okei's grave. Governor Reagan 
recognized the property as a state historic site in 1969, and the site 
was recently listed on the National Register of Historic Places at the 
national level of significance.
    Mr. Chairman, I have received numerous letters of support for this 
legislation and would like to ask that they be entered into the record. 
These supporters include the Japanese American Citizens League, the 
National Japanese American Historical Society, People-to-People 
International, the Consulate General of Japan, the American River 
Conservancy, the California Rice Commission, the El Dorado County Board 
of Supervisors, the El Dorado County Chamber of Commerce, and many 
local elected officials, businesses, and constituents.
    The remarkable history of the Wakamatsu colonists, and their 
lasting impact on the State of California and our nation of immigrants, 
is a story that must carry on for future generations. I look forward to 
working with my Senate colleagues to pass this legislation so that we 
can preserve this site for future visitors.
                                 ______
                                 
   Prepared Statements of Hon. Carl Levin, U.S. Senator From Michigan
                                s. 1651
    Thank you, Chairman Udall and Ranking Member Burr for holding this 
hearing regarding the land patent modification bill for the Great Lakes 
Shipwreck Historical Society, a not-for-profit organization. A land 
patent involving about eight acres of land was originally issued in 
1998 to the Great Lakes Shipwreck Historical Society for the 
interpretation and preservation of maritime history at the United 
States Coast Guard Whitefish Point Light Station in the Upper Peninsula 
of Michigan. At that location, the Great Lakes Shipwreck Museum was 
established, where about 60,000 people visit each year. The museum 
tells the story of the sailors who braved the treacherous waters of 
Lake Superior and those in the U.S. Life Saving Service, the 
predecessor to the U.S. Coast Guard, who risked their own lives to save 
others.
    The current land patent allows for development consistent with the 
Whitefish Point Comprehensive Plan of 1992 or for a gift shop. Pursuant 
to a court-ordered settlement agreement, a new plan, the Human Use/
Natural Resource Management Plan for Whitefish Point of December 2002, 
was prepared for the land. The 2002 plan was developed by consensus of 
the parties to the litigation: the Great Lakes Shipwreck Historical 
Society, Michigan Audubon Society, and the U.S. Fish and Wildlife 
Service. While the 2002 plan should guide development at the site, the 
land patent still references the 1992 plan. The bill under 
consideration by this committee would modify the land patent such that 
development of new facilities and the expansion of existing facilities 
and infrastructure would be consistent with the 2002 plan instead of 
the obsolete 1992 plan.
    In addition to the historic assets of Whitefish Point, the area is 
also an important birding area and a stopover for migratory birds. The 
2002 plan includes restrictions during bird migration as well as other 
restrictions on humans to protect sensitive shoreline habitats, 
including for the endangered piping plover. Recommended management 
practices are also included in the 2002 plan to protect environmentally 
sensitive habitat. The 2002 plan also specifies that implementation of 
the plan would be led by a ``Joint Committee,'' comprised of 
representatives from the U.S. Fish and Wildlife Service, the Great 
Lakes Shipwreck Historical Society, and the Michigan Audubon Society. 
By having all of these entities involved with the plan implementation, 
protection of natural resources and management of human uses can be 
better ensured.
    I urge you to favorably report this bill so that hopefully the full 
Senate could promptly consider it and Michigan's rich maritime history 
at Whitefish Point can be preserved and interpreted for the public.
                                s. 2976
    Thank you, Chairman Udall and Ranking Member Burr for holding this 
hearing on the Sleeping Bear Dunes Conservation and Recreation Act, 
which would designate 32,557 acres as wilderness, permanently 
protecting this land from harmful development and other impacts. I also 
want to thank Senator Stabenow for co-sponsoring this bill and for 
supporting this bill as a member of this subcommittee.
    This legislation reflects years of public outreach and input, and I 
am pleased there is broad public support for this bill, including by a 
local organization, Citizens for Access to the Lakeshore (CAL), that 
had initially organized to oppose a wilderness designation. Today CAL 
is submitting testimony in enthusiastic support of this bill.
    Sleeping Bear Dunes National Lakeshore is located in the Northwest 
corner of Michigan's Lower Peninsula on Lake Michigan, and encompasses 
over 70,000 acres. The Lakeshore, as reflected by its name, features 
ancient sand dunes that are the products of wind, wave, and ice action 
over thousands of years, and are truly one of nature's great 
masterworks. Nature lovers and photographers, serious hikers and 
children eager to roll down the sandy dunes, all enjoy this natural 
wonder. The Lakeshore also protects and interprets an extraordinary 
history of Native Americans, early pioneers, farmsteads, and maritime 
activities.
    This wilderness designation would allow the area's immense 
recreational opportunities and historic preservation efforts to 
continue to thrive, while providing important protections for natural 
areas. This wilderness designation would also revise the requirement 
included in a 1982 law (P.L. 97-361) that directed the National Park 
Service to manage areas included in a 1981 ``Wilderness 
Recommendation'' as wilderness, even though no official Wilderness 
designation had been made by Congress. The 1981 recommendation included 
county roads and other areas the local community did not believe should 
be managed as wilderness, and in fact, could endanger the preservation 
and interpretation of many historic assets in the Lakeshore. Our 
legislation excludes these features from the wilderness designation for 
Sleeping Bear Dunes to ensure that access, recreation, and historic 
preservation are provided at the Lakeshore, which reflects community 
input. The 1982 law specified that its directive apply ``until Congress 
determines otherwise.'' This bill provides the Congressional input the 
1982 law envisioned.
    The wilderness designation before you reflects a lengthy public 
process, and better identifies areas that should be managed as 
wilderness, which are undeveloped and possess significant and valuable 
natural characteristics. Developed county roads and state highways, 
boat launches and many historical structures have all been excluded 
from the wilderness designation to ensure that access and recreational 
opportunities are maintained, and preservation and interpretation of 
historical resources are ensured. Hunting and fishing, trail use, and 
camping at Sleeping Bear Dunes National Lakeshore would continue. 
Importantly, motor boats would still be allowed offshore of the dunes, 
and allowed to beach in areas adjacent to the wilderness area.
    This Lakeshore epitomizes the rich natural and cultural history of 
Michigan. I ask the Committee to approve this legislation to protect 
these resources for current and future generations, and to enable 
thousands more to enjoy the scenic beauty and appreciate the 
generations of farmers, trappers, hunters, and mariners who came 
before.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Thank you, Mr. Chairman. Mr. Chairman, we 
convene this hearing today before the National Parks 
Subcommittee hearing under unusual and unfortunate 
circumstances, with 11 Senate Democrat bills and zero 
Republican bills being considered. I understand that this 
hearing was scheduled despite the continued objections of the 
Republican staff, who lodged this objection as a result of no 
GOP bills being included in the hearing consideration today.
    Additionally, a separate hearing that was requested by the 
Republican staff on the remaining Republican bills was also 
refused. So unfortunately, we're left with no Republican bills 
in the hearing today and no separate hearing for bills which 
were left out.
    I might say, in my time as ranking member of the 
subcommittee never has a hearing been scheduled despite the 
objections of one side or the other, and I hope this 
regrettable incident does not set a precedent for the actions 
of this subcommittee or the committee as a whole. I certainly 
have great affection for my colleague and the chairman, 
Chairman Udall, and believe that we can work together.
    It's difficult for me at this time to imagine that it bodes 
well for these particular bills in front of us today making it 
through the committee process on any type of expedited basis. 
Mr. Chairman, I look forward to continuing to work with you on 
the multitude of important issues that come before this 
Subcommittee on National Parks and I truly believe and hope 
that we can continue to work toward scheduling a separate 
hearing on the remaining Republican bills and move forward in a 
bipartisan way.
    I thank the chair.
    Senator Udall. I thank the ranking member. If I might, I'd 
like to share a response to Senator Burr's comments. There were 
hearing requests from the Republican side for 3 bills. One is a 
House-passed bill involving a park in Washington State. Both of 
our colleagues from Washington told us that they weren't ready 
for a hearing on the bill at this time. The other 2 bills would 
have provided for essentially limited repeal of the Antiquities 
Act in the States of Nevada and Utah. Chairman Bingaman--the 
full committee did not view Antiquities Act bills, which have 
national policy implications that would be and are extremely 
controversial, to be in the same category as the type of 
locally focused bills that are on today's agenda. He did tell 
me and I will underline to the ranking member that he's happy 
to talk more about these bills with the sponsors if they 
desire. I know I'll continue to work with the ranking member to 
meet his concerns in the future.
    I know we both are proud to serve on this subcommittee and 
know how important it is to our public lands and to our 
economies and all of our country.
    I would note before I call the administration witness, I 
think Congressman Clay is here. I appreciate you coming over. I 
don't know if you wanted to say anything, if you had a 
statement, Lacey. We'd be honored if you'd join us there at the 
dais.
    Senator Burris has arrived. Senator Burris, if you'd like 
to join one of my former House colleagues, Congressman Clay, 
who is a good friend. If you want to catch your breath for a 
minute, we're happy to have you here.

 STATEMENT OF HON. ROLAND W. BURRIS, U.S. SENATOR FROM ILLINOIS

    Senator Burris. Thank you, Mr. Chairman.
    Senator Udall. We're happy to have you here. We look 
forward to your testimony.
    Senator Burris. We were in--as you know, I found out from 
the chairman that there was a meeting, so I had to run from the 
caucus to come over here.
    Senator Udall. You have my proxy in the caucus when you go 
back, but not Senator Burr's.
    Senator Burris. Thank you, Mr. Chairman, Ranking Member 
Burr, the members of the subcommittee. Thank you for the 
opportunity to appear today to discuss my legislation, the 
United States Civil Rights Trail Special Resource Study Act. 
This bill would direct the Secretary of the Interior to 
identify the places, resources, and historic themes associated 
with the struggle to secure equal rights for all African 
Americans and consider their addition into the National Trails 
System.
    The study will focus on the years of 1954 through 1968. 
Now, this is a time to identify and protect the memory of the 
people and places that chronicle the civil rights movement's 
watershed role in American history. Establishing this trail 
system will link sites with common signage, maps, and 
educational material to improve public awareness and amplify 
the study of their importance in history.
    Action on this bill this year will begin the process of 
deciding how we set apart the places where men and women fought 
and some gave their lives to provide future generations of 
African Americans and all Americans more freedom to achieve the 
American dream.
    This, Mr. Chairman, is our chance to remember and honor 
that sacrifice given so freely. I need to repeat that: This is 
an opportunity, Mr. Chairman, a chance to remember and to honor 
that sacrifice given so freely. This legislation joins its 
bipartisan companion measure, House Bill 685, sponsored by the 
distinguished Representative Clay from Missouri and 
Representative Wamp, which passed unanimously in the House of 
Representatives in September 2009. I want to especially thank 
our distinguished colleague, Representative Clay, for his 
vision and dedication to this legislation.
    Also the National Trust for Historic Preservation 
considered this bill, and I quote, ``of great importance'' in 
its legislative priorities for this year. The Trust Editor, 
Richard Moe, whom you know very well, has written a letter in 
support of the bill. Mr. Chairman, I ask unanimous consent that 
this letter will be included in the record.
    Senator Udall. Without objection.
    Senator Burris. Thank you, Mr. Chairman.
    During the 1950s and 1960s, this country saw the 
development of a powerful nonviolent movement for civil rights 
under the rule of law, creating one of the most significant 
social and cultural changes in our Nation's history. Because 
hundreds of thousands of ordinary people with extraordinary 
vision participated in the civil rights movement, we've 
witnessed a revolution of values and ideas that changed this 
Nation forever.
    We must make certain that the next generation and the 
current generation learn and do not forget the story of the 
civil rights movement and the ideas that it strove to achieve. 
It is important that we highlight a period of common purpose 
that brought us together despite our differences in age, race, 
and positions in life, and that many here today are too young 
to remember.
    I want to thank you, Mr. Chairman Udall and Ranking Member 
Burr, for your commitment to our National Park System and 
second for moving this legislation as quickly as possible. I 
know that, working together, we can add to the witness of the 
history for all Americans to see and understand the remarkable 
accomplishments of those whose struggle for equal rights still 
rings true today.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Burris follows:]
    Prepared Statement of Hon. Roland W. Burris, U.S. Senator From 
                          Illinois, on S. 1802
    Mr. Chairman, Ranking Member Burr, and Members of the Subcommittee, 
thank you for the opportunity to appear here today to discuss my 
legislation, The United States Civil Rights Trail Special Resource 
Study Act. This bill would direct the Secretary of the Interior to 
identify the places, resources, and historic themes associated with the 
struggle to secure equal rights for African-Americans, and consider 
their addition into the National Trails System. The Study will focus on 
the years 1954 through 1968.
    Now is the time to identify and protect the memory of the people 
and places that chronicle the Civil Rights Movement's watershed role in 
the American story. Establishing this trail system will link sites with 
common signage, maps, and educational materials to improve public 
awareness and amplify the study of their importance in history.
    Action on the bill this year will begin the process of deciding how 
we set apart the places where men and women fought, and some gave their 
lives, to provide future generations of African-Americans, and all 
Americans, more freedom to achieve the American dream. This is our 
chance to remember and honor that sacrifice given so freely.
    This legislation joins its bipartisan companion measure, H.R. 685, 
sponsored by Representatives Clay and Wamp, which passed unanimously in 
the House of Representatives in September 2009, and I want to 
especially thank my distinguished colleague Representative William 
Lacey Clay for his vision and dedication to this legislation. Also, The 
National Trust for Historic Preservation considers this bill ``of great 
importance'' and a legislative priority for this year. The Trust's 
director, Richard Moe, whom you know well, has written a letter in 
support of my bill. Mr. Chairman, I would request their letter be 
included in the record.
    During the 1950's and 1960's this country saw the development of a 
powerful nonviolent movement for civil rights, under the rule of law, 
creating one of the most significant social and cultural changes in our 
nation's history. Because of the hundreds and thousands of ordinary 
people with extraordinary vision who participated in the Civil Rights 
Movement, we witnessed a revolution of values and ideas that changed 
this nation forever. We must make certain that the next generation, and 
the current generation, learn and do not forget the story of the Civil 
Rights Movement and the ideals that it strove to achieve. It is 
important that we highlight a period of common purpose, that brought us 
together despite our differences in age, race, and position in life, 
and that many here today are too young to remember.
    I want to thank Chairman Udall and Ranking Member Burr for their 
commitment to our National Parks system, and secondly for moving this 
legislation as quickly as possible. I know that, working together, we 
can add to the witness of history for all Americans to see and 
understand the remarkable accomplishments of those whose struggle for 
equal rights still rings true today.
                          attachment.--summary
    (1) The Secretary of the Interior will identify the resources and 
historic themes associated with the movement to secure racial equality 
in the United States which challenged the practice of racial 
segregation, focusing on the period from 1954 through 1968.
    (2) The Study will look at the feasibility of protecting 
historically significant landscapes, districts, sites, and structures, 
and evaluate a range of alternatives for protecting and interpreting 
sites associated with the struggle for civil rights in the United 
States, including alternatives for potential addition of some or all of 
the sites to the National Trails System.
    (3) The Secretary will make a review of existing studies and 
reports, such as the Civil Rights Framework Study, to complement and 
not duplicate other studies of the historical importance of the civil 
rights movements that may be underway or undertaken.
    (4) The Secretary will establish connections with agencies, 
organizations, and partnerships already engaged in the preservation and 
interpretation of various trails and sites dealing with the civil 
rights movement.
    (5) The Study will identifying alternatives for preservation and 
interpretation of the sites by the National Park Service, other 
Federal, State, or local governmental entities, or private and 
nonprofit organizations, resulting in the potential inclusion of some 
or all of the sites in a National Civil Rights Trail.
    (6) The Secretary will identify cost estimates for any acquisition, 
development, interpretation, operation, and maintenance associated with 
the alternatives developed under the special resource study.
    (7) National historic trails can only be authorized by Congress and 
are assigned to either the secretary of the interior or the secretary 
of agriculture with most of the same administrative authorities as for 
national scenic trails. To qualify as a national historic trail, a 
route must have been established by historic use. It must be nationally 
significant as a result of that use, i.e., it must have had a far-
reaching effect on broad patterns of American culture. It must also 
have significant potential for public recreational use or historic 
interest based on historic interpretation and appreciation.
    (8) The Secretary shall conduct the study required under subsection 
(a) in accordance with section 8(c) of Public Law 91-383 (16 U.S.C. 1a-
5(c)) and section 5(b) of the National Trails System Act (16U.S.C. 
1244(b)), as appropriate.

    Senator Udall. Congressman Clay, if you'd like to make a 
statement that would be greatly appreciated. I want to 
apologize that we don't have a placard for you, but it's been 
said that when you're known far and wide you don't need a 
placard. I know you are known far and wide in your home 
district. Congressman Burr and I both served in the House. 
We're proud of that service, as did Senator Carper, who just 
joined us. We're always happy to have a member of the House 
come visit us.

 STATEMENT OF HON. WILLIAM LACY CLAY, U.S. REPRESENTATIVE FROM 
                            MISSOURI

    Mr. Clay. Thank you so much, Mr. Chair, and it's so good to 
see you, as well as my former colleague from North Carolina, 
Senator Burr. I also want to thank my distinguished Senator 
from Illinois for sponsoring the companion legislation.
    Also, I heard Senator Burr's comments in the beginning and 
I wanted to publicly thank my colleague Zach Wamp from 
Tennessee, who we all know, for sponsoring this bill with me. 
He thought it was important enough to be a main sponsor of the 
legislation, and I truly appreciate it.
    Throughout history many individuals have played a 
courageous role in strengthening racial equality in our Nation. 
It is important to honor these individuals and historic events 
by preserving their stories for future generations. H.R. 685 as 
well as S. 1802, the U.S. Civil Rights Trail System Act of 
2009, would recognize those individuals who fought for the 
creed, in the American Constitution every man is created equal.
    This bill would authorize a study by the Secretary of the 
Interior to determine the feasibility of establishing a 
National Trail System marking the geographic locations in the 
U.S. of historically significant events related to struggles 
for civil rights. The struggle for freedom and equality is one 
of the truly magnificent and heroic episodes in American and 
world history, from the institution of slavery that dominated 
the country's early years until a deadly Civil War that opened 
the door for the possibility of a new racial relationship 
between black and white people.
    In 1954 when the Supreme Court in the Brown v. Board of 
Education decision eliminated the constitutional justification 
for segregation, the battle was not won. Several more decades 
of struggle were required to achieve even minimal integration. 
Over the past 20 years, notable progress has been made in some 
areas of American race relations, which offers hope that the 
worst is behind us and that better days lie ahead. For example, 
today the President of the United States is an African 
American, and African Americans can be found not merely working 
at the highest levels of government, business, entertainment, 
and the professions, but excelling in those positions. At the 
same time, devastating setbacks have occurred in other areas, 
revealing that much remains to be done to make this country 
truly a land of liberty and justice for all people.
    The generation now coming of age has only scant knowledge 
of the history of the civil rights struggle. Young Americans 
find it difficult to believe that racial segregation was once 
considered normal and necessary in some parts of the United 
States. Ignorance of past racial tragedy, sadly, retards 
continued progress in race relations.
    These bills would educate current and future generations of 
the struggles for racial equality in America. I look forward to 
hearing from today's witnesses on this bill and getting the 
best suggestions to improve upon the legislation. So, Mr. 
Chairman, thank you for the opportunity to testify before the 
committee.
    Senator Udall. Thank you, Congressman Clay.
    Senator Burris, did you have any additional comments?
    Senator Burris. Thank you, Mr. Chairman. I'd just like to 
comment on one point that Representative Clay made mention of. 
That is that America has done something that I dreamed I would 
never see, and I'm 72 years old. On my next birthday I will be 
73. But for America to elect an African American President of 
these United States, it means that we have come a mighty long 
way. I am proud for my home State on top of that. It even makes 
me extra proud. But it brings tears to my eyes when I even talk 
about this.
    So I just want all Americans to know that there's a 
milestone, that little black kids now can say that: I can grow 
up to be President of the United States. That means so much to 
all of us. Recording this history, Mr. Chairman, is something 
for my grandchildren, my great-grandchildren to be able to see.
    Thank you very much.
    Senator Udall. Thank you, Senator Burris. No one can 
improve on your words. What's so wonderful is that those tears 
are tears of joy. Thank you.
    I know Senator Carper has joined us. Senator, if you wanted 
to take a seat at the table, we're eager to hear about your 
legislative initiative, which I know is near and dear to your 
heart, and I'm proud to be a co-sponsor of it.
    Senator Carper is also a former member of the House, former 
Governor of Delaware, and now one of the real movers and 
shakers in the U.S. Senate. Senator, thank you.

         STATEMENT OF HON. THOMAS CARPER, U.S. SENATOR 
                         FROM DELAWARE

    Senator Carper. Mr. Chairman, thank you to you. To Senator 
Burris, thanks very much. Thanks for holding the hearing today 
on a number of proposals, including S. 1801, the First State 
National Historical Park Act. I want to thank you especially, 
Mr. Chairman, for your willingness to co-sponsor the 
legislation and for allowing me to appear before your 
subcommittee here today with both of you.
    As you know, if this legislation is adopted--my hope is 
that it will--it would establish for the first time a national 
park in the State of Delaware. We're the only State in the 
Union, as you know, which is home to neither a national park or 
even a unit of a national park.
    Some of you may recall a series on public television last 
year which drew a lot of viewers. The name of the series was 
``America's Best Idea: The National Parks.'' It was a 
documentary series of films that were told to a national 
television audience by a documentary film maker, quite a famous 
one, a fellow named Ken Burns, who coincidentally grew up in 
Delaware as a kid.
    Along with Ken Burns and many of the millions of people who 
viewed that documentary, I share the belief that our national 
parks are indeed one of America's very best ideas. National 
parks are invaluable resources for understanding our State's 
historical and our cultural heritage, as well as our natural 
environment.
    Every year millions of Americans plan their vacations 
around our Nation's National Park System. This may cause you to 
remember some adventures of your own with your own family, but 
I have a very fond memory of my family several summers ago when 
our boys were in high school, planning a trip to Denali 
National Park. I know our chairman is a mountain climber. 
Senator, I'm not. I don't know, maybe some of you are as well. 
But Denali, big mountain, big park up in Alaska.
    Our 2 sons will never forget, more recently, their cross-
country road trip from Boston to San Francisco last summer, 
where they stopped along the way at places like Mount Rushmore 
and Yellowstone and Yosemite in an adventure neither they nor 
their parents will soon forget.
    In planning our family's summer vacation several years ago 
up to Alaska, we actually logged onto the National Park Service 
web site and we searched State by State for ideas, starting 
with I think Alabama all the way through I think Wyoming. We 
came to our own State as we went along, Delaware. We came up 
empty-handed because there really wasn't anything to offer in 
terms of a national park or a unit of the National Park System.
    You think about it, Delaware was the first State to 
ratify--we're all proud of our States, and justifiably so. But 
our State was the first State to ratify the Constitution. For 1 
whole week, Delaware was the entire United States of America. 
Then they kind of opened up and let Pennsylvania in and some 
others. I think it turned out pretty well, but we're the first 
State in the Union. We're the first State in which the Swedes 
and Finns came ashore in what is now known as Wilmington, 
Delaware, established the colony of New Sweden. We're the State 
where the Dutch came in, oh, gosh, over 400 years ago and built 
an ill-fated settlement down in the southern part of our State 
on the ocean, a place called Lewes. Yet Delaware remains the 
only State to have no national park.
    For almost a decade, hundreds of Delawareans have joined me 
in working to change that. One of those people is Tim Slavin, 
who's going to be testifying here I think in a little bit. I 
thank him for his presence today and for his great advocacy and 
terrific work on this project with us.
    But after 4 years of research and planning that involved 
Delaware State officials, community leaders, and citizen 
activists, we unveiled a proposal for a Delaware National Park 
6 years ago in 2004. In 2006, thanks in part to the work of the 
citizens committee, Congress authorized the National Park 
Service to study, to study, 4 years ago, the need for a park in 
our State. The National Park Service used our 2004 proposal as 
a starting point for their study.
    Then last year, in January of last year, 2009, the National 
Park Service finalized its study and agreed that, at long last, 
a park should be created in Delaware. In its study, the 
National Park Service recommended a national park that 
celebrated Delaware's early Dutch, early Swedish and English 
settlements and the events leading up to our State's role in 
founding our Nation.
    All that, Mr. Chairman and Senator Burr, that brings us to 
today's hearing and to the First State National Park Historic 
Act, which I'm pleased to report has been co-sponsored by each 
member of our State's tiny Congressional delegation.
    I'm also pleased to report that the First State National 
Historical Park Act uses a majority of suggestions from the 
2009 national park study to authorize a national park to be 
created within Delaware. So all that work that went in in terms 
of the study and the work by our citizens, we just really built 
on each of those in creating this legislation.
    If approved, our State's national park will be comprised of 
sites associated with early settlement and with the people and 
events leading up to Delaware's role as the first State to 
ratify the U.S. Constitution on December 7, 1787, a day that we 
treasure, called ``Delaware Day'' in our State. The park will 
tell the story of the birth of our Nation in a unique way, a 
way not found in any other national park.
    The park's central headquarters will be located along the 
Delaware River in the beautiful historic town of Newcastle, 
just a stone's throw from a statue of William Penn, who deeded 
that land to the inhabitants of the town of Newcastle in 1701. 
Once a national park unit is established in Delaware, families 
from throughout America and really all over the world will have 
the opportunity to learn from our National Park Service web 
site of the rich historical heritage of our State. Who knows, 
they just might decide to pack up and come and pay us a visit, 
much like my own family did when we spent close to 2 weeks 
visiting Denali and other parts of Alaska.
    In closing, I would note that the word ``Denali'' 
translates loosely to mean ``the great one.'' For those who've 
seen that mountain, we know what it means. But that enormous 
park is several times the size of my State. In fact, it's 
several times the size of a number of States. While visitors to 
Delaware are not likely to remember us in future years as ``the 
great one,'' they may well end up returning to their own homes 
with lasting memories, I hope fond memories, of the Small 
Wonder along the eastern seaboard of our Nation that helped to 
launch the most enduring experiment in democracy that our world 
has ever known, the United States of America.
    Mr. Chairman, I thank you for this opportunity and your 
support.
    Senator Udall. Thank you, Senator Carper. That was 
illuminating and enjoyable to hear.
    Senator Burr, do you have any questions or comments?
    Senator Burr. I might add one comment to what Senator 
Carper said. As his sons made their trek to that final park to 
visit, if you added together the annual visitor numbers for all 
the parks they visited, it would not equal the annual 
visitation of the Great Smokies National Park. So I hope 
they'll come to North Carolina.
    Senator Udall. As you can tell, Senator Burr has the spirit 
and the fortitude of a mountain climber, and he's also very 
proud of his home State of North Carolina.
    Senator Carper. I can tell, and justifiably so. So does my 
wife. She's from there, too.
    Senator Udall. As is mine. It's old home week.
    I like the contrast, the Great One and the Small Wonder. 
They're both important to what we have now seen and lived, 
which is America's best idea, and that's our National Park 
System.
    I look forward to working with you, Senator, as we move 
this through the process. Thanks for coming over.
    Senator Carper. Mr. Chairman, thank you so much.
    Senator Udall. Thank you.
    Senator Carper. Senator Burr, thank you as well.
    Senator Udall. The administration witnesses, if you'd be 
willing to join us here at the table. I know we still have a 
couple of additional, actually 3, Senators who thought they 
might like to make an appearance. If one of them is able to 
troop over from the Capitol, we'll, with your understanding, 
quickly insert them in the queue here.
    We've been joined by 2 men who are not strangers to this 
subcommittee. Steve Whitesell is here. He's the Associate 
Director of Park Planning, Facilities, and Lands, at the 
National Park Service; and then Joel Holtrop, Deputy Chief, 
National Forest System.
    Mr. Whitesell, if you want to start with your testimony. 
You are familiar with the general rules of the committee. If 
you can keep your testimony to 5 minutes, we'd appreciate it. 
The floor is yours.

  STATEMENT OF STEPHEN E. WHITESELL, ASSOCIATE DIRECTOR, PARK 
    PLANNING, FACILITIES, AND LANDS, NATIONAL PARK SERVICE, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Whitesell. Mr. Chairman, thank you for the opportunity 
to appear before this subcommittee to present the Department of 
the Interior's views on ten of the bills on today's agenda, 
eight related to the National Park Service and 2 related to the 
Bureau of Land Management. Tim Spisak, Deputy Assistant 
Director for Minerals and Realty Management for the Bureau of 
Land Management, is accompanying me today and will be happy to 
answer any questions that you may have regarding S. 1596 and S. 
1651, the 2 BLM bills on the agenda.
    I would like to submit our full statements on each of these 
subjects for the record and summarize the Department's 
positions on these bills.
    Senator Udall. Without objection.
    Mr. Whitesell. S. 349 would establish the Susquehanna 
Gateway National Heritage Area in an 1869 square mile area of 
Pennsylvania's Lancaster and York Counties. In 2008 the 
National Park Service found that the area meets our interim 
criteria for potential designation as a national heritage area. 
The Department recognizes the appropriateness of designating 
the Susquehanna Gateway National Heritage Area, but asks that 
the committee defer action on the bill until legislation is 
enacted that establishes criteria to evaluate potential 
qualified national heritage areas and a process for the 
designation and administration of these areas.
    Mr. Whitesell. On S. 1596, the Gold Hill-Wakamatsu 
Preservation Act, would authorize the Secretary, acting through 
the BLM, to acquire the 272-acre site of the 1869 Wakamatsu Tea 
and Silk Farm Colony. The Wakamatsu Colony is believed to have 
been the first Japanese-American colony in North America. The 
Department supports the goals of this bill and would like to 
work with its sponsors and the committee to clarify provisions 
of the legislation.
    Mr. Whitesell. S. 1651, a bill to modify the patent of the 
Whitefish Point Lighthouse Station, would direct the Secretary, 
acting through the BLM, to modify the subject patent to require 
compliance with a new management plan. The Department supports 
this legislation.
    Mr. Whitesell. S. 1750 would authorize a special resource 
study for General George C. Marshall's home, Dodona Manor. One 
of the options the study would consider is making the site an 
affiliated area of the National Park System. The bill would 
also consider other alternatives for preservation and 
protection of the home. The Department supports the enactment 
of S. 1750 with a minor amendment.
    Mr. Whitesell. S. 1801 would establish the First State 
National Historical Park in the State of Delaware. The National 
Park Service's 2008 special resource study of the coastal area 
of Delaware identified a number of resources of national 
significance that were determined suitable and feasible to 
administer as a unit of the National Park System. These include 
historic resources that were instrumental in early Swedish, 
Dutch, and English settlement in the United States and other 
resources associated with Delaware's role as the Nation's first 
State.
    The Department strongly supports the establishment of a 
unit of the National Park System in Delaware as proposed by S. 
1801, but is concerned about the addition of certain resources 
in the bill that were not found to meet Congressionally 
established criteria for unit designation and the terms of the 
park-specific grant authorization. We would like to work with 
the committee on amendments to the bill.
    Mr. Whitesell. S. 1802 and its companion, H.R. 685, would 
authorize the Secretary to conduct a special resource study in 
order to evaluate a range of alternatives for protecting and 
interpreting sites associated with the movement to secure 
racial equality for African Americans in the United States in 
the 1950s and 1960s, including alternatives for potential 
addition to the National Trail System. In 2009 the National 
Park Service completed a Congressionally authorized study of 
civil rights sites that identified both broad themes and sites 
within the civil rights story, but did not assess the 
feasibility or suitability of inclusion of particular sites in 
the National Trail System or the National Park System.
    The bills would allow the National Park Service to assess 
sites specifically for such designation, building upon existing 
studies and reports. The Department supports this legislation.
    Mr. Whitesell. S. 2953 and its companion, H.R. 3388, would 
modify the boundary of Petersburg National Battlefield. The 
bills would expand the current authorized boundaries by an 
additional 7,238 acres to protect more core battlefield land, 
an expansion that is consistent with the park's 2002 general 
management plan. The bills also would authorize a transfer of 
administrative jurisdiction between the Secretary of the 
Interior and the Secretary of the Army of a 1.7 acre parcel of 
land to accommodate a security perimeter fence at Fort Lee 
Military Reservation.
    The Department supports this legislation.
    Mr. Whitesell. S. 2976 would designate 32,557 acres, or 46 
percent, of Sleeping Bear Dunes National Lakeshore in 
Michigan's Lower Peninsula as federally protected wilderness. 
The Department strongly supports the legislation, but 
recommends that the area be designated as the ``Sleeping Bear 
Wilderness'' to be consistent with the names of the majority of 
wilderness areas in units of National Park System.
    Mr. Whitesell. S. 3159 and its companion, H.R. 4395, would 
add the historic Lincoln Train Station in the Borough of 
Gettysburg and 45 acres at the base of Big Roundtop to 
Gettysburg National Military Park. The Lincoln Train Station, 
where President Abraham Lincoln disembarked to give the 
Gettysburg Address, would serve as a downtown visitor's center 
and information and orientation center. The Big Roundtop tract 
at the southern end of the battlefield includes historical 
resources from the battle and critical wetlands and wildlife 
habitat related to Plum Run. The Department supports enactment 
of this legislation with the minor amendment that was made to 
H.R. 4395 by the House.
    Mr. Whitesell. S. 3168 would authorize the acquisition of 
approximately 157 acres in Farmington, Pennsylvania, for 
addition to Fort Necessity National Battlefield, the site of 
the first battle of the French and Indian War in July 1754. The 
parcels contain both historical and landscape resources 
relating to the purpose of the park and would include 
approximately 500 feet of the historic Braddock Road Trace. The 
Department supports this legislation with amendments that would 
provide a more precise identification of the land that would be 
authorized for acquisition and would make some minor technical 
changes.
    Mr. Chairman, that concludes my statement, albeit a bit 
longer than I know was required. But we would be pleased to 
answer any questions that you have.
    [The prepared statements of Mr. Whitesell follow:]

 Prepared Statement of Stephen E. Whitesell, Associate Director, Park 
 Planning, Facilities, and Lands, National Park Service, Department of 
                              the Interior
                                 s. 349
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 349, a bill to establish the 
Susquehanna Gateway National Heritage Area in Pennsylvania.
    The Department recognizes the appropriateness of designating the 
Susquehanna Gateway National Heritage Area, but recommends deferring 
action on S. 349 until program legislation is enacted that establishes 
criteria to evaluate potentially qualified national heritage areas and 
a process for the designation and administration of these areas. The 
Administration anticipates submitting such a legislative proposal to 
you in the near future, and we recommend that Congress enact national 
heritage area program legislation in this Congress.
    There are currently 49 designated national heritage areas, yet 
there is no authority in law that guides the designation and 
administration of these areas. Program legislation would provide a 
much-needed framework for evaluating proposed national heritage areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas. Program legislation was 
introduced in the 109th and 110th Congresses, and we look forward to 
continuing to work with Congress on this very important issue.
    Flowing for 441 miles, the Susquehanna River is the longest river 
on the East Coast and the largest contributor of fresh water to 
Chesapeake Bay. The portions of the river flowing through Lancaster and 
York Counties in Pennsylvania exhibit exceptional natural and 
recreational value and traverse landscapes of historical importance to 
our nation.
    The region of the proposed Susquehanna Gateway National Heritage 
Area was first inhabited by Native Americans who left evidence of their 
occupation in a myriad of archeological sites, as well as rock art at 
several petroglyph sites. When Captain John Smith journeyed up the 
Susquehanna River in the summer of 1608, he sent emissaries to the 
Susquehannock town located on the east side of the river near present 
day Washington Boro in Lancaster County. Tribal leaders there entered a 
trade alliance, opening to the English a trade network extending 
hundreds of miles.
    In 1668, William Penn set the tone for religious tolerance in 
Pennsylvania and brought colonists who settled the great fertile valley 
of the Susquehanna Gateway region, beginning its long history as an 
abundant agricultural center. Serving as an important transportation 
corridor, the river provided opportunities for commerce and invention. 
It was here that John Elgar constructed the first iron steamboat in 
America. The birthplace of Robert Fulton, the original inventor of 
steam powered boats, is a National Historic Landmark in Lancaster 
County. Here, too, Phineas Davis designed and built the first practical 
coal burning steam locomotive, thereby revolutionizing railroad 
transportation.
    The region is the home ground of the ``Plain People''--the Amish 
and Mennonites. Their religious values, simple way of life, and well-
tended farms speak to the deepest feelings that Americans have about 
ourselves and our national experience.
    In this region, visitors also find evidence of our Revolutionary 
War past. Lancaster and York Counties served as venues for the 
Continental Congress when it left Philadelphia upon the British 
occupation of that city. In the courthouse in York, the Congress 
approved the Articles of Confederation and Perpetual Union, the 
nation's ``first constitution,'' and sent it forth to the states for 
ratification. In the summer of 1781, Continental Army General James 
Wood established Camp Security, housing more than a thousand British 
soldiers from General John Burgoyne's army, which had surrendered at 
Saratoga.
    The region also has an abundance of natural resources including 
migratory bird nesting sites, remnants of old growth forests, and areas 
of both ecological diversity and scenic quality. Ferncliff, known for 
its wildflowers, and the Susquehanna Gorge are both designated National 
Natural Landmarks. Recreational resources abound in the region, 
including the Kelly's Run and Susquehanna River Water Trails, both 
National Recreation Trails.
    S. 349 designates the Lancaster-York Heritage Region, a non-profit 
organization, as the proposed management entity for the Susquehanna 
Gateway National Heritage Area. The area, designated as a state 
heritage area in 2001, recently changed its name from the Lancaster-
York Heritage Region to the Susquehanna Gateway Heritage Area, to 
reflect the area's expanded focus, which includes the cultural and 
economic value of the Susquehanna River. The management entity, now 
known as Susquehanna Heritage Corporation, has demonstrated success in 
coordinating among diverse partners in Lancaster and York counties. 
Over the past nine years, Susquehanna Heritage Corporation has been 
effective in facilitating preservation, interpretative, and educational 
projects and in leveraging community participation and funding. The 
heritage area has strong support from the public and from a myriad of 
state, local, federal, and non-governmental partners throughout the 
area. In 2008, this entity prepared a national heritage area 
feasibility study that was reviewed by the National Park Service and 
found to meet the interim criteria for potential designation.
    The bill, as introduced, contains provisions that have become 
standard for designating national heritage areas. However, if the 
Committee decides to act on this bill, we would request the opportunity 
to work with the Committee to amend the language in Section 5(a), 
designating the management entity, due to the management entity 
changing its name and to discuss some other provisions where 
clarifications or technical corrections may be needed.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions from members of the Committee.
                                s. 1596
    Thank you for the invitation to present testimony on S. 1596, the 
Gold Hill-Wakamatsu Preservation Act, which would authorize the 
Secretary of the Interior to acquire the Gold Hill Ranch from willing 
sellers using non-federal contributions and appropriated funds to 
preserve it as a site of historical and cultural value. Preservation of 
cultural and historical resources is a priority for the Department of 
the Interior and the Bureau of Land Management (BLM). We support the 
goals but note that BLM can make this acquisition under its existing 
authorities, and we would like to work with the sponsor and the 
Committee to clarify S. 1596.
Background
    The Wakamatsu Colony is an early settlement site of great cultural 
significance to the Japanese-American community. It is the oldest known 
cultural site in North America associated with Japanese immigration. 
The colony was founded in 1869 by 20 immigrants from Aizu-Wakamatsu, 
Japan. These colonists fled Japan during the political upheaval that 
accompanied the Meiji Restoration. The colonists purchased land at Gold 
Hill in western El Dorado County, California, and established a tea and 
silk plantation. The colony operated for two years, after which the 
land--known as the Gold Hill Ranch--was acquired by its current owners, 
the Veerkamp family. The Veerkamps now desire to sell the property; 
however, they recognize its historic and cultural significance and hope 
to sell it to a governmental entity.
    The 272-acre site includes a home from the 1860s that was occupied 
by the colonists, the mulberry trees they planted, and the grave of 
Okei Ito. Her grave is thought to be the oldest Japanese immigrant 
grave in North America. Adjacent to the site is the Gold Trail 
Elementary School, which since 1980 has maintained a sister-school 
relationship with Higashiyama Elementary School in Aizu Wakamatsu. The 
school property hosts a monument dedicated by then-Governor Ronald 
Reagan that established the Wakamatsu Tea and Silk Farm Colony as 
California Registered Historical Landmark Number 815.
    Several Japanese-American civic and cultural groups and others have 
written to the BLM to express their support for preservation and 
restoration of the Wakamatsu Colony site. The Gold Hill region is an 
historic California gold rush landscape that is urbanizing rapidly, so 
preservation would prevent the loss of an important pioneering site. 
Members of that community, including the Japanese American Citizens 
League, Representative Doris Matsui and California State Assemblyman 
Alan Nakanishi, are working with the American River Conservancy (a 
local land trust) to raise the funds needed to purchase the site. Their 
goal is to establish an endowment that would fund future restoration, 
interpretive operations, and maintenance of the site. Citing the BLM's 
highly successful management of other nearby acquired lands, local 
Japanese-American community organizations and the American River 
Conservancy are advocating that the BLM take title to the property.
    Acquisition of the Gold Hill Ranch would be consistent with the 
goals of the BLM's Sierra Resource Management Plan. The BLM's nearby 
Mother Lode Field Office already manages several acquired properties 
for their historical and conservation values, including the historic 
Chung Wah Chinese cemetery about 15 miles to the west of the Ranch, 
which was donated to BLM by the Chinese-American community in 2007, and 
the Pine Hill Preserve, a rare plant preserve totaling 4,000 acres 
across dozens of parcels about 5 miles southwest of the Ranch.
S. 1596
    S. 1596 would authorize the Secretary of the Interior, acting 
through the BLM, to acquire the Gold Hill Ranch from willing sellers 
using non-federal contributions and appropriated funds to preserve it 
as a site of historical and cultural value. The BLM supports the goals 
of the bill, and acknowledges the efforts to date by the private sector 
to raise funds for the acquisition. BLM notes that it can make the 
acquisition under its existing authorities, subject to budget 
priorities and the availability of appropriations. However, this 
project did not rank high enough in the BLM's annual national ranking 
process for inclusion in the land acquisition priority lists for the 
2010 and 2011 budgets. The legislation is also unclear as to the 
purposes for which the use of appropriated funds is authorized, and the 
BLM would like to work with the sponsor and the Committee to clarify 
this provision.
    The bill does not waive a fair market value determination. 
Therefore an appraisal by the Department of the Interior's Office of 
Valuation Services would be required before acquisition. Based on the 
experience of the BLM and American River Conservancy with land values 
in this area, the $3,290,000 limit identified in S. 1596 for the cost 
of acquisition appears to be reasonable. We would note, however, that 
it is BLM policy to engage in fair market valuations for its 
acquisitions, disposals, and exchanges.
    We appreciate provisions in section 4(d) that give the Secretary 
discretion regarding development of a visitor center and direct that 
private funds or State grants be used to the maximum extent practicable 
to leverage the cost of constructing the visitor center and conducting 
restoration activities. This provides an excellent opportunity for 
expression of community support for preservation and restoration of 
this site.
Conclusion
    Thank you for the opportunity to present testimony in support of 
the goals of S. 1596, and we look forward to working with the sponsor 
and the Committee to clarify the legislation.
                                s. 1651
    Thank you for the invitation to present testimony on S. 1651, 
legislation to modify a land patent pertaining to the Whitefish Point 
Light Station (Michigan). Although the Bureau of Land Management's 
(BLM) role under the legislation is ministerial, preservation of 
historic lighthouses such as the Whitefish Point Light Station is a 
priority for the Department of the Interior. The BLM supports S. 1651.
Background
    In the late 18th and 19th centuries, the United States built a 
series of lighthouses in and around Lake Michigan, Lake Huron, and Lake 
Superior to aid in navigation of the Great Lakes. The role played by 
these lighthouses in the westward expansion and economic growth of the 
United States is part of our national heritage, with ships and 
shipwrecks recalled in story and song. The Great Lakes lighthouses--
including the Whitefish Point Light Station at issue in S. 1651--are 
listed on the National Register of Historic Properties.
    The U.S. Coast Guard retains responsibility for aid to navigation 
in the Great Lakes, as it (or its predecessor, the Revenue Marine) has 
since 1790. In the mid-1990s, concerns reached the Congress that the 
Coast Guard, in carrying out its mission in the Great Lakes, was unable 
to assure preservation of the historic lighthouses. Interest in 
preserving the Whitefish Point Light Station led the Congress, in 1996, 
to convey land adjacent to the Light Station to two non-profit 
organizations dedicated to conservation and historic preservation--an 
8.27 acre parcel to the Great Lakes Shipwreck Historical Society 
(Historical Society) and a 2.69 acre parcel to the Michigan Audubon 
Society (Audubon Society) of Chippewa County--and a 33 acre parcel to 
the U.S. Fish and Wildlife Service (FWS) (Public Law 104-208, Omnibus 
Consolidated Appropriations Act, Fiscal Year 1997, Section 5505.)
    This law contains limitations on development at the historic 
lighthouse, and explicitly requires compliance with the ``Whitefish 
Point Comprehensive Plan of October 1992.'' The patents BLM issued 
under this authority (including the most recent, number 61-2000-0007, 
issued March 10, 2000, to the Historical Society) contain this 
reference.
    In 1999, the Audubon Society brought suit against the Historical 
Society and the FWS over plans to develop a museum at the site. The 
parties reached a settlement agreement under which the three groups 
developed the ``Human Use/Natural Resource Plan for Whitefish Point, 
December 2002,'' to supersede the Whitefish Point Comprehensive Plan of 
1992.
S. 1651
    S. 1651 directs the Secretary of the Interior to modify patent 
number 61-2000-0007 by striking reference to the Whitefish Point 
Comprehensive Plan of October 1992 and inserting the ``Human Use/
Natural Resource Plan for Whitefish Point, dated December 2002.'' S. 
1651 affirms the applicability of the National Historic Preservation 
Act to the Whitefish Point Light Station. The BLM supports this 
legislation.
Conclusion
    Thank you for the opportunity to present testimony in support of S. 
1651.
                                s. 1750
    Mr. Chairman, thank you for the opportunity to appear before you to 
provide the Department of the Interior's views on S. 1750, a bill to 
authorize a special resource study to determine the suitability and 
feasibility of designating the General of the Army George Catlett 
Marshall National Historic Site at Dodona Manor in Leesburg, Virginia 
and for other purposes.
    The Department supports enactment of S. 1750. However, we recommend 
that the title of the bill be amended to refer to the ``General George 
C. Marshall House (Dodona Manor)'' rather than the ``General of the 
Army George Catlett Marshal National Historic Site,'' as the former is 
consistent with the landmark's current listing on the National Register 
of Historic Places. We also believe that priority should be given to 
the 45 previously authorized studies for potential units of the 
National Park System, potential new National Heritage Areas, and 
potential additions to the National Trails System and National Wild and 
Scenic River System that have not yet been transmitted to the Congress.
    S. 1750 authorizes a special resource study for General George C. 
Marshall's home, Dodona Manor. One of the options that the study would 
consider is making the site an affiliated area of the National Park 
System. The study would also consider other alternatives for 
preservation and protection of the home and interpretation of the life 
and accomplishments of George C. Marshall. The home was designated a 
National Historic Landmark in 1996. We estimate the cost of this study 
to range from $200,000 to $300,000, based on similar types of studies 
conducted in recent years.
    Born in 1880 in Uniontown, Pennsylvania, George Marshall attended 
the Virginia Military Institute to prepare for a military career. He 
rose steadily through the ranks, serving with distinction in various 
posts in the United States, the Philippines, and China, and in Europe 
during World War I. In World War II, General Marshall led the Allied 
forces to victory in the Atlantic Theatre. Following the war, as 
Secretary of State, Marshall designed a humanitarian program for 
rebuilding war-ravaged Europe. For his ambitious European Recovery 
Plan, more broadly known as the Marshall Plan, Marshall was awarded the 
1953 Nobel Peace Prize.
    General Marshall enjoyed living at Dodona Manor for 18 years from 
1941 until his death in 1959. At the time of the Civil War, the house 
was called Oak Hill. Marshall, who likened the sound of the white oak 
leaves rustling in the wind to the ancient Greek oracle of Zeus 
speaking through the oak forest of Dodona Grove in Epirus, renamed the 
house ``Dodona Manor.'' While living there, he rose from being an Army 
officer respected for his military contributions to one of the most 
important and respected world figures of the 20th Century. Winston 
Churchill, recalling the years of World War II, said that the only 
individual on whom all the leaders conferred unqualified praise and 
admiration was General Marshall.
    Many military post houses across the United States were occupied by 
General Marshall and his first and second wives, but never for long. 
Dodona Manor was his residence for the last 18 years of his life, 
coinciding with his years of national and international achievement. 
General Marshall brought his best possessions to Dodona Manor--oriental 
rugs purchased during duty in China, and books in large number, which 
he owned and read. He indulged his favorite pastime of tilling the 
earth and planting gardens. From there he commuted to Washington during 
his military service and later as Secretary of State and Secretary of 
Defense. Dodona Manor has survived almost entirely as he left it and no 
other site provides the opportunity for reflection on the years when 
Marshall rose to become one of the great figures of the 20th Century.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to answer any questions that you or other Committee members may 
have regarding this bill.
                                s. 1801
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S.1801, a bill to establish the 
First State National Historical Park in the State of Delaware.
    The Department strongly supports the establishment of a unit of the 
national park system in Delaware as proposed by S. 1801, but is 
concerned about the addition of certain resources in the bill that were 
found not to meet congressionally established criteria for unit 
designation, and the terms of the park-specific grant authorization.
    In 2008, pursuant to Public Law 109-338, the National Park Service 
completed a Special Resource Study of the coastal area of Delaware and 
identified a number of resources of national significance that were 
determined suitable and feasible to administer as a unit of the 
national park system. These included historic resources that were 
instrumental in early Swedish, Dutch, and English settlement in the 
United States, and others associated with Delaware's role as the 
nation's first state.
    In 1638, Peter Minuet led Swedish colonists to present day 
Wilmington, Delaware, and established New Sweden at a point known as 
``the rocks'' on the Christina River. The settlers constructed Fort 
Christina at this location and this site is now a National Historic 
Landmark. In 1698, Swedish settlers established Holy Trinity (``Old 
Swedes'') Church near the fort, the oldest church building standing as 
originally built in the United States and also a National Historic 
Landmark.
    In 1651, Peter Stuyvesant led Dutch settlers from New Amsterdam and 
constructed Fort Casimir at a place he named ``New Amstel,'' in present 
day New Castle, Delaware. Conflicts between the Swedish and Dutch 
colonists resulted in changing occupations of the fort with the Dutch 
regaining control in 1655. Also in 1665, the English arrived at New 
Amstel and seized control of the settlement, renaming it ``New 
Castle.'' William Penn landed in New Castle in 1682 and took possession 
of the city. In 1704, Penn established Delaware's Assembly and New 
Castle remained the colonial capital of Delaware until 1776. The New 
Castle Historic District, which contains multiple resources from the 
time of earliest settlement through the Federal era, is a National 
Historic Landmark.
    Delaware's important role as the nation's first state is also 
exhibited in resources of national significance. Delaware's 
representatives to the Continental Congress and the Constitutional 
Convention played important parts in the adoption of the Declaration of 
Independence and crafting of the United States Constitution. On June 
15, 1776, the Delaware Assembly, meeting in New Castle, voted to sever 
its ties with the English Crown three weeks prior to the Declaration 
signed in Philadelphia on July 4th. National Historic Landmarks 
associated with these early revolutionary leaders include the homes of 
John Dickinson (the ``Penman of the Revolution''), Gunning Bedford, 
Jr., and George Read. The Dover Green witnessed Delaware's vote to 
become the first state to ratify the nation's new Constitution.
    S. 1801 would establish the First State National Historical Park to 
include the resources cited above that the Special Resource Study found 
meet the criteria for congressional designation of a unit of the 
national park system. The staff of the new park would be authorized to 
interpret related resources outside of the boundary, within the state 
of Delaware. The Special Resource Study estimated annual operating 
costs for the park at $450,000 to $550,000, which would fund 5-7 FTEs, 
and costs associated with a general management plan at $600,000. The 
bill provides for $3 million in one-time matching grants for 
rehabilitation of existing structures to serve as administrative and 
visitor services facilities for the park and $2.5 million in one-time 
matching grants for historic preservation, interpretive devices, and 
the design, construction, installation, and maintenance of exhibits. 
The latter may include matching grants for research and exhibits at the 
Zwaanendael Museum in Lewes, and the State Archives in Dover, Delaware. 
All funding would be subject to NPS priorities and the availability of 
appropriations. A study of additional resources related to the purpose 
of the park is also authorized to assess their potential eligibility 
for National Historic Landmark designation and options for maintaining 
the historic integrity of such resources.
    S.1801 also proposes to include within the park boundary the 
historic district in Lewes, Delaware. This district is listed on the 
National Register of Historic Places at the local level of significance 
and the National Register nomination for the district indicates that 
today its significance is based primarily on its fine examples of 
Victorian architecture. The Department questions adding this historic 
district to the park boundary as identified in the Special Resource 
Study since it is not a National Historic Landmark, does not meet the 
required national significance criterion for unit designation, and is 
not consistent with the park's purpose as outlined in Section 4(b) of 
S. 1801.
    However, we note that Section 4(g) of S. 1801 permits 
interpretation of resources related to the purposes of the park located 
outside of its boundary. We would suggest that any extant resources in 
Lewes, within or outside of the historic district, relating to early 
Dutch, Swedish and English settlement, or Delaware's role as the first 
state, would be eligible for interpretation without including this 
district in the park boundary. Such resources would also be candidates 
for further analysis as to their National Historic Landmark potential 
under the bill's study provisions in Section 5.
    We also note that Section 6 would authorize one-time matching 
grants to State and local governments, private property owners and 
nonprofit organizations to pay for the historic preservation of non-
Federal resources within the park boundaries. While some parks now 
provide limited financial assistance through cooperative agreements, 
the limited matching grant authorization proposed in Section 6 could 
raise expectations that the National Park Service would be asked to 
provide annual financial assistance for the operation and maintenance 
of these non-Federal sites within the park boundary.
    We would like work with the Committee to further clarify that the 
grants under Section 6 are one-time grants and not reoccurring grants. 
We would also like to work with the committee on a technical amendment 
regarding the appropriate wording for the New Castle Historic District 
in Section 2(a)(2)(B)(ii) and inclusion of a map reference in Section 
3.
    Mr. Chairman, that concludes my testimony. I would be happy to 
respond to any questions that you or other members of the committee may 
have.
                          s. 1802 and h.r. 685
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 1802 and H.R. 685, legislation to require a 
study of the feasibility of establishing the United States Civil Rights 
Trail System.
    The Department supports S. 1802 as introduced, and H.R. 685 as 
passed by the House, which are substantially identical. However, we 
feel that priority should be given to the 45 previously authorized 
studies for potential units of the National Park System, potential new 
National Heritage Areas, and potential additions to the National Trails 
System and National Wild and Scenic River System that have not yet been 
transmitted to Congress.
    S. 1802 and H.R. 685 authorize the Secretary of the Interior to 
conduct a special resource study in order to evaluate a range of 
alternatives for protecting and interpreting the sites associated with 
the movement to secure racial equality for African-Americans in the 
United States in the 1950s and 1960s, including alternatives for 
potential additions to the National Trails System. We estimate that the 
cost of this study will range from $500,000 to $750,000, given the 
large number of sites across multiple states which must be included in 
the study.
    The struggle for civil rights has been a hallmark in the 
development of the United States from its earliest fight for 
independence from Great Britain during the 1770s and 1780s through the 
passage of the landmark 1964 Civil Rights Act guaranteeing all 
Americans the right to vote and prohibiting discrimination based on 
race, color, religion, sex, or national origin. The movement leading up 
to the passage of the Act was filled with violent confrontations that 
challenged the very foundation of our country, yet it also represented 
the highest aspirations of its citizens.
    The Civil Rights Act of 1964 was the most comprehensive civil 
rights legislation in the history of the United States and its 
provisions serve as major themes of the civil rights story both before 
and after the Act's passage. The Department recognizes that events, 
places, and individuals important in the civil rights story should be 
celebrated and commemorated in a way that helps the public understand 
and appreciate the significance of the era. Many civil rights-related 
sites have been identified and are currently recognized within the 
National Park System, the National Trails System, and as National 
Historic Landmarks, such as those commemorating the life of Martin 
Luther King, Jr. and well-known events such as the desegregation of 
Little Rock Central High School and the 1965 Selma-to-Montgomery Voting 
Rights March.
    In 1999, Congress authorized the Secretary to conduct a theme study 
related to civil rights sites on a multi-state level. The National Park 
Service, in partnership with the Organization of American Historians, 
prepared the civil rights framework study to assist the National Park 
Service in identifying and prioritizing those areas of history 
significant in illustrating the civil rights story. The study, Civil 
Rights In America: A Framework for Identifying Significant Sites, was 
transmitted to Congress on June 2, 2009.
    The study identified broad themes within the civil rights story, as 
well as the events, persons, and places that represent those themes, 
and assessed the degree to which related sites are represented and 
recognized. These themes include equal education, public accommodation, 
voting, housing, equal employment, criminal injustice, immigrant 
rights, and American Indian civil rights. The study did not assess the 
feasibility or suitability of inclusion of particular sites into the 
National Trails System, the National Park System, or as National 
Historic Landmarks. S. 1802 and H.R. 685 would allow the National Park 
Service to assess sites specifically associated with the struggle for 
African-American racial equality from 1954-1968, which touches on most, 
but not all, of these broad themes.
    The study also recommended that the National Park Service complete 
four National Historic Landmark theme studies to recognize, promote, 
and protect civil rights-related sites and their relationship to the 
civil rights story's chronology, historic themes, and how various 
minorities are represented. National Historic Landmark theme studies 
are an effective way of assessing whether or not places are nationally 
significant in American history. They provide a historic context within 
which to evaluate properties, and identify places that should be 
studied for national designation.
    S. 1802 and H.R. 685 both provide for the proposed study to build 
upon this and other existing studies and reports. If enacted, this 
legislation can serve as a keystone piece in the ongoing work of 
understanding the issues, preserving the place, and telling the stories 
of the struggle to ensure civil rights for all Americans.
    Mr. Chairman, this concludes my testimony. I would be glad to 
answer any questions that you or other members of the subcommittee may 
have.
                         s. 2953 and h.r. 3388
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 2953 and H.R. 3388, bills that would modify the boundary of 
Petersburg National Battlefield in the Commonwealth of Virginia.
    The Department supports S. 2953 and H.R. 3388. The Department 
previously testified in support of H.R. 3388, on November 5, 2009, 
before the House Subcommittee on National Parks, Forests and Public 
Lands.
    S. 2953 and H.R. 3388 are identical bills that would authorize two 
modifications to the boundary of Petersburg National Battlefield in the 
Commonwealth of Virginia. First, the bills would expand the currently 
authorized boundary of Petersburg National Battlefield by an additional 
7,238 acres. The boundary expansion proposal results from an analysis 
of ``core battlefields'' and a subsequent boundary adjustment study 
conducted as part of Petersburg National Battlefield's General 
Management Plan completed in 2005. Second, the bill authorizes a 
transfer of administrative jurisdiction between the Secretary of the 
Interior and the Secretary of the Army for a 1.7 acre parcel of land to 
accommodate a security perimeter fence at Fort Lee Military 
Reservation.
    The City of Petersburg lies in the corridor of intensive growth 
from Washington, D.C., to south of Richmond, Virginia. The region 
surrounding Petersburg National Battlefield has been and is currently 
experiencing significant development pressures impacting areas 
immediately adjacent to the park and unprotected battlefield sites. 
This development not only threatens park resources and public 
enjoyment, but also the core portions of the battlefields. The park 
commemorates the Petersburg Campaign, the longest sustained combative 
military front on American soil, in both time and distance. When 
Congress created the park in 1926, only a fraction of the battlefield 
acreage associated with the 26 major battles of the Petersburg Campaign 
was included in the original boundary. These additional battlefields 
proposed to be added to the park will allow the public to better 
understand the size, complexity, and duration of the 9\1/2\ month 
Petersburg Campaign and siege while offering protection to existing 
park resources.
    In January 2002, in response to significant development pressures 
in the region surrounding the park and as part of its General 
Management Plan process, Petersburg National Battlefield undertook a 
detailed assessment of battlefields in the Petersburg Campaign cited in 
the Civil War Sites Advisory Commission (CWSAC) report of 1993 entitled 
``Report on the Nation's Civil War Battlefields.'' The CWSAC report 
identified 100,000 acres of the Petersburg battlefields as ``core 
battlefields'' encompassing all of the critical phases defined for a 
battle. Of the 100,000 acres cited, 23,000 acres were determined to 
retain historic integrity.
    During its more detailed analyses of the 23,000 acres, the park 
concentrated on those portions of the battlefields that were south of 
the Appomattox River and directly associated with the siege or defense 
of Petersburg, and that were identified as Class A (decisive) and Class 
B (major) by the CWSAC. Additionally, the park used historical maps and 
documentation to further refine the acreage to that constituting the 
portion of the battlefield on which both armies were engaged directly 
and that had a bearing on the outcome for each battle. Park staff 
further analyzed the integrity of these areas and their potential for 
public access and interpretation. The analyses disclosed that 7,238 
acres met the criteria for integrity and interpretability.
    The estimated time period for acquisition of the 7,238 acres of 
these nationally significant lands is 15-20 years. Virtually all of the 
land subject to the boundary adjustment represents a mixture of private 
and non-profit organization-owned parcels. Agricultural and 
conservation easements will be the preferred method of acquisition for 
most parcels, particularly for those owned by non-profit organizations. 
Easements enable protection of these battlefields from inappropriate 
development while retaining private ownership and compatible use of the 
land. Where easements are not possible, and there is interest by the 
landowners, a range of acquisition methods, such as donation, and fee 
simple acquisition from willing sellers based on available funding, 
will be utilized for battlefield preservation.
    If all the lands were acquired by the National Park Service through 
fee simple means, the total estimated cost would be $29.7 million. 
However, if the boundary expansion is enacted, the park will be 
pursuing partnership efforts through easements and donations that will 
likely significantly lower acquisition costs. The estimated costs for 
capital expenses (trails, wayside exhibits, rehabilitation of existing 
visitor contact station, etc.) and expansion-related costs (surveys, 
hazardous materials studies, etc.) are an additional $1.74 million. 
Development of visitor services and interpretation at these new 
battlefield locations would be minimal and include small parking areas, 
wayside exhibits, and trail and other enhancements to the sites. The 
annual increase in operations and management is estimated to be 
approximately $484,000. All numbers are in 2008 dollars. All funds are 
subject to NPS priorities and the availability of appropriations.
    Public response to the General Management Plan and the proposed 
boundary expansion have been uniformly favorable among local 
governments, organizations, and individuals. The Dinwiddie County Board 
of Supervisors adopted a resolution supporting future legislation to 
expand the boundary of the park as outlined in the General Management 
Plan. Many civic organizations in the Petersburg region have also 
indicated support for the proposal.
    The second main provision of the bill would authorize a transfer of 
administrative jurisdiction between the Secretary of the Army and the 
Secretary of the Interior for a 1.7 acre parcel of land. Following 
September 11, 2001, the Army was required to erect a perimeter fence 
around Fort Lee Military Reservation, located adjacent to Petersburg 
National Battlefield. The fence intruded slightly into the boundary of 
the park. The land exchange would transfer to the Army the 1.7 acre of 
land where the perimeter fence is located, in return for a 1.7 acre of 
the military reservation to be added to the park. The Secretary of the 
Army is supportive of this provision. There is no cost associated with 
this authorization.
    Mr. Chairman, that concludes my statement. I would be happy to 
answer any questions that you or other members of the subcommittee may 
have regarding the proposed boundary expansions.
                                s. 2976
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 2976, a bill to designate the Sleeping Bear 
Dunes National Lakeshore Wilderness at Sleeping Bear Dunes National 
Lakeshore in the State of Michigan.
    The Department strongly supports enactment of S. 2976. However, we 
recommend that the wilderness be designated as the ``Sleeping Bear 
Wilderness,'' rather than ``Sleeping Bear Dunes National Lakeshore 
Wilderness,'' as the former is consistent with the style of the 
majority of wilderness areas in units of the national park system. This 
legislation would designate 32,557 acres, or 46 percent, of Sleeping 
Bear Dunes National Lakeshore in Michigan's Lower Peninsula as 
federally protected wilderness. It defines the boundary of the 
wilderness area as the line of demarcation--the general line formed by 
the lakeward extent of the first contiguous vegetation that is upland 
from the high water mark of Lake Michigan. Management of the wilderness 
area would be in accordance with the 1964 Wilderness Act (16 U.S.C. 
1131 et seq.).
    P.L. 91-479 established Sleeping Bear Dunes National Lakeshore on 
October 21, 1970, in order ``. . .that certain outstanding natural 
features including forests, beaches, dune formations, and ancient 
(glacial) phenomena. . .be preserved in their natural setting and 
protected from developments and uses which would destroy the scenic 
beauty and natural character of the area. . .for the benefit, 
inspiration, education, recreation, and enjoyment of the public.'' This 
bill clearly supports the intent of that law.
    The park extends nearly 30 miles along the eastern shore of Lake 
Michigan, the most visited of our Great Lakes, and the only one 
entirely within the United States. It also includes two large Lake 
Michigan islands with an additional 35 miles of shoreline. The National 
Lakeshore protects and preserves superlative scenic and recreational 
resources including towering perched sand dunes that rise as high as 
450 feet above Lake Michigan; miles of beautiful sugar sand beaches; 
sparkling inland lakes and clear streams; important wetlands; and an 
upland beech-maple Northern Hardwood Forest. This landscape is home to 
black bear, deer, bobcat, trumpeter swans, raptors, and many species of 
songbirds. Federally threatened and endangered species include the 
Piping Plover, Pitcher's Thistle, and Michigan Monkeyflower as well as 
several state-listed species. The high, perched dunes afford 
spectacular views across Lake Michigan and over other glacially formed 
landscapes. The contrast between the open, sunny environment of the 
dunes and the adjacent lush beech-maple forests is striking.
    The park includes many historic features as well. Long before the 
area became a National Lakeshore, Native Americans, lumbermen, merchant 
sailors, and farmers visited or settled here. Today, a lighthouse and 
three U.S. Life-Saving Service Stations, coastal villages, and 
picturesque farmsteads reflect the National Lakeshore's rich maritime, 
agricultural, and recreational history and are open for public 
enjoyment. The region surrounding the National Lakeshore is a popular 
vacation and summer home destination. In recent times, the area has 
undergone considerable growth as homes and support services are built 
for expanding full-time and summer populations.
    The park receives nearly 1.2 million visitors each year who enjoy 
the beaches, hiking, camping, backpacking, hunting, fishing, bird 
watching, paddling the lakes and streams, cross-country skiing, 
snowshoeing, ferry trips to the islands, touring historic areas, the 
spectacular views from the Pierce Stocking Scenic Drive, and the rite 
of passage of the famous Dune Climb. The park maintains over 100 miles 
of backcountry trails, two campgrounds accessible by vehicles, six 
backcountry campgrounds, and dispersed camping on North Manitou Island. 
The National Park Service estimates that the presence of the National 
Lakeshore brings nearly $30 million of economic benefit to the local 
community each year.* Native American use of the area extends some 
3,000 years into the past and is represented today primarily by the 
Grand Traverse Band of Ottawa and Chippewa Indians. Nothing in S. 2976 
would modify, alter, or affect any treaty rights.
---------------------------------------------------------------------------
    * Stynes, Daniel J. ``National Park Visitor Spending and Payroll 
Impacts: 2008.'' National Park Service, 2009.
---------------------------------------------------------------------------
    The park encompasses a total of 71,291 acres; about 58,571 acres of 
land and 12,720 acres of water. Over 30,000 acres of the proposed 
32,557-acre wilderness area have been managed as wilderness since 1981, 
when a wilderness proposal produced under the park's first 
comprehensive General Management Plan (GMP) was published. Since that 
time, the five areas of the park proposed as wilderness have provided 
outstanding recreational opportunities for hikers, backpackers, 
anglers, paddlers, and hunters with hunting being allowed in accordance 
with State regulations. A network of hiking trails and numerous camping 
opportunities will continue to be maintained in this portion of the 
park, even with the wilderness designation. The additional acres in the 
current proposal arise from the inclusion of the Sleeping Bear Plateau, 
an area unsuitable for anything but foot travel that continues to offer 
outstanding opportunities for solitude. Since formal wilderness 
designation would not change the way in which visitor use is currently 
managed in the area proposed as wilderness, there is no reason to 
believe it would have any detrimental impact on visitation or the local 
economy, and formal designation may actually have a beneficial impact.
    The proposed wilderness area does not include any existing county 
roads or areas managed primarily for historic resources. This is to 
ensure the continued availability of the county roads for visitors 
accessing remote trailheads, beaches, and the backcountry, and to 
promote visitor access to historic areas. Although the National 
Lakeshore boundary extends one-quarter mile out into Lake Michigan, 
none of the waters of Lake Michigan are proposed as wilderness. S. 2976 
would authorize the use of boat motors on the surface water of Lake 
Michigan adjacent to the wilderness and beaching of those boats below 
the line of demarcation, subject to applicable laws. This is to ensure 
continued access by boaters to the shoreline beach adjacent to the 
wilderness area. These have been areas of significant public concern. 
Designation of the Sleeping Bear Dunes National Lakeshore Wilderness 
Area will not limit public access or change the way the area is 
currently being managed for public use and enjoyment. Permanent 
wilderness designation in Sleeping Bear Dunes National Lakeshore will 
ensure protection of significant ecological resources and wilderness 
values along with solitude, quiet, and unconfined recreation for this 
and future generations in the areas proposed as wilderness within the 
National Lakeshore.
    Between 2006 and 2009, the NPS developed an updated GMP for the 
park. Because of public concern over the 1981 wilderness proposal, and 
its inclusion of county roads and historic sites, a formal Wilderness 
Study was conducted as part of this comprehensive planning effort. 
Approximately 36,000 acres within the Lakeshore were identified as 
being potentially eligible for wilderness designation in five areas of 
the park. After extensive public involvement, review, and comment, 
including overwhelming public support for wilderness designation, the 
preferred alternative in the final GMP/Wilderness Study was approved by 
the Midwest Regional Director on January 6, 2009. The area of proposed 
wilderness was mapped at 32,557 acres, with a portion in all five 
eligible areas, and is the same as the proposed wilderness designation 
in S. 2976. The final GMP/Wilderness Study does not propose wilderness 
in several eligible areas, including those areas fragmented by the road 
corridors near the Otter Creek area of the Lakeshore; the land within 
the Port Oneida Rural Historic District; the lands in the historic 
``Cottage Row'' on North Manitou Island; the area in the South Manitou 
Island historic farm loop; an area near the historic Bufka Farm 
identified for a bicycle trail; and the congested area at the top of 
the Dune Climb.
    Passage of S. 2976 would support the overarching vision in the new 
GMP for Sleeping Bear Dunes National Lakeshore, which is to value the 
lakeshore primarily for preservation of its natural resources, and for 
the opportunities it provides for visitor enjoyment of natural, 
cultural, and recreational resources in a scenic outdoor setting. The 
bill has very strong, broad-based public support. The overwhelming 
majority of local officials, the conservation community, and the 
Michigan delegation are united in their support for this bill as a 
winning resolution to an issue that has been debated since the park's 
establishment in 1970. Parties that had been bitterly polarized over 
earlier proposals have reached consensus that this bill strikes an 
appropriate balance between preserving access and guaranteeing 
outstanding primitive recreational opportunities.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.
                         s. 3159 and h.r. 4395
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 3159 and H.R. 4395, bills that would add the historic Lincoln Train 
Station in the Borough of Gettysburg and 45 acres at the base of Big 
Round Top to Gettysburg National Military Park in the Commonwealth of 
Pennsylvania.
    The Department supports enactment of this legislation. The 
Department previously testified in support of H.R. 4395 on January 21, 
2010, before the House Subcommittee on National Parks, Forests and 
Public Lands.
    Gettysburg National Military Park protects major portions of the 
site of the largest battle waged during this nation's Civil War. Fought 
in the first three days of July 1863, the Battle of Gettysburg resulted 
in a victory for Union forces and successfully ended the second 
invasion of the North by Confederate forces commanded by General Robert 
E. Lee. Historians have referred to the battle as a major turning point 
in the war--the ``High Water Mark of the Confederacy''. It was also the 
Civil War's bloodiest single battle, resulting in over 51,000 soldiers 
killed, wounded, captured or missing.
    The Soldiers' National Cemetery within the park was dedicated on 
November 19, 1863, when President Abraham Lincoln delivered his 
immortal Gettysburg Address. The cemetery contains more than 7,000 
interments including over 3,500 from the Civil War. The park currently 
includes nearly 6,000 acres, with 26 miles of park roads and over 1,400 
monuments, markers, and memorials.
    Gettysburg's Lincoln Train Station was built in 1858 and is listed 
on the National Register of Historic Places. The station served as a 
hospital during the Battle of Gettysburg, and the wounded and the dead 
were transported from Gettysburg through this station in the aftermath 
of battle. President Abraham Lincoln arrived at this station when he 
visited to give the Gettysburg Address.
    Gettysburg National Military Park's 1999 General Management Plan 
called for expanding cooperative relationships and partnerships with 
the Borough of Gettysburg and other sites ``to ensure that resources 
closely linked to the park, the battle, and the non-combatant civilian 
involvement in the battle and its aftermath are appropriately protected 
and used.'' In particular, the plan stated that the National Park 
Service would initiate ``cooperation agreements with willing owners, 
and seek the assistance of the Borough of Gettysburg and other 
appropriate entities to preserve, operate and manage the Wills House 
and Lincoln Train Station.''
    The Borough of Gettysburg Interpretive Plan called for the Lincoln 
Train Station to be used as a downtown information and orientation 
center for visitors--where all park visitors would arrive after coming 
downtown--to receive information and orientation to downtown historic 
attractions, including the David Wills House. This is the house where 
Lincoln stayed the night before delivering the Gettysburg Address. The 
Interpretive Plan also called for rehabilitation of the Wills House, 
which was added to the park's boundary through Public Law 106-290 in 
October 2000, and is now a historic house museum in the borough and an 
official site within Gettysburg National Military Park. Through a 
Memorandum of Understanding, the David Wills House is operated by Main 
Street Gettysburg at no cost to the National Park Service.
    The Lincoln Train Station is next to the downtown terminus of 
Freedom Transit, Gettysburg's shuttle system, which started operations 
in July 2009 with a grant from the Federal Transit Administration in 
the Department of Transportation.
    In 2006, the Borough of Gettysburg completed rehabilitation of the 
Lincoln Train Station with funds from a Commonwealth of Pennsylvania 
grant. Due to a lack of funds, however, the borough has been unable to 
operate a visitor information and orientation center there. Through 
formal vote of the Borough Council, the Borough of Gettysburg has asked 
the National Park Service to take over the ownership and operations of 
the train station. The anticipated acquisition cost for the completely 
rehabilitated train station is approximately $772,000, subject to an 
appraisal by the federal government. Funding to acquire this land would 
be subject to the availability of appropriations and NPS priorities.
    The park has a preliminary commitment from the Gettysburg 
Convention and Visitor Bureau (CVB) to provide all staffing 
requirements for operations of an information and orientation center in 
the train station, thereby alleviating the park of staff costs. 
Anticipated operating costs for the train station that will be the 
responsibility of the NPS are limited to utility costs, the rest will 
be paid by the Gettysburg CVB. In the event that the Gettysburg CVB is 
unable to provide staffing and funding for operations, the NPS would 
seek another park partner to cover these costs and requirements.
    S. 3159 and H.R. 4395 would also add 45 acres near Big Round Top 
along Plum Run in Cumberland Township, Pennsylvania to the boundary of 
the park. The 45-acre tract of land is adjacent to the Gettysburg 
National Military Park and is within the Battlefield Historic District. 
The land is at the southern base of Big Round Top at the southern end 
of the Gettysburg battlefield. There were cavalry skirmishers in this 
area during the Battle of Gettysburg, July 1863, but the real 
significance is environmental. The tract has critical wetlands and 
wildlife habitat related to Plum Run. Wayne and Susan Hill donated it 
to the Gettysburg Foundation in April 2009. The Gettysburg Foundation 
plans to donate ``fee title interest'' in the parcel to the National 
Park Service once it is within the park boundary. It abuts land already 
owned by the National Park Service.
    When H.R. 4395 was marked up by the House Committee on Natural 
Resources, the bill was amended to combine two map references into one 
map that shows both parcels. If S. 3159 moves forward we recommend that 
the bill be amended to reflect this newer map.
    Mr. Chairman, that concludes my statement. I would be happy to 
answer any questions that you or members of the committee may have.
                                s. 3168
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 3168, a bill to authorize the 
Secretary of the Interior to acquire certain non-Federal land in 
Pennsylvania for inclusion in the Fort Necessity National Battlefield.
    The Department supports the enactment of this legislation with 
amendments. Acquisition of the property, however, would be dependent on 
the results of an appraisal of its value, future availability of 
funding, and National Park Service acquisition priorities.
    S. 3168 authorizes the acquisition of approximately 157 acres in 
Farmington, Pennsylvania. Upon acquisition, it further authorizes a 
boundary adjustment for Fort Necessity National Battlefield. The 
property contains traces of the historic Braddock Road and other 
resources.
    Fort Necessity National Battlefield was the site of the first 
battle of the French and Indian War in July 1754. The war's outcome 
determined that the British, rather than the French, would control the 
Forks of the Ohio and, therefore, development of the colonies. Leading 
troops as a then-young lieutenant colonel in the Virginia Regiment, 
this battle was future General George Washington's first and only 
surrender.
    The existing authorized boundary of Fort Necessity National 
Battlefield contains traces of the Braddock Road, built in 1755 as part 
of British Major General Edward Braddock's unsuccessful and bloody 
campaign to take Fort Duquesne at the Forks of the Ohio, a campaign 
during which Washington served as a volunteer aide to General Braddock. 
Washington had originally blazed this road in his 1754 expedition.
    The property that is the subject of S. 3168 contains both 
historical and landscape resources relating to the purpose of Fort 
Necessity National Battlefield. If acquired, approximately 500 feet of 
the historic Braddock Road trace would be added to the park and would 
adjoin the existing portion of the trace within the current boundary.
    An archeological site, dating approximately from the period of the 
1770s to 1810s, is located on the subject property. Taverns were 
constructed along the Braddock Road following the American Revolution, 
but prior to the construction of the National Road. The property 
contains archeological remains of a former tavern structure and 
associated outbuildings and landscape. The property is contiguous to 
the park's current southeastern boundary and is becoming increasingly 
important as development pressures impact areas immediately adjacent to 
the park. The owner of the property is a willing seller.
    We would like to like to work with the Committee to develop 
amendments that would provide a more precise identification of the land 
that would be authorized for acquisition and to make some minor 
technical changes.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions from members of the Committee.

    Senator Udall. Thank you, Mr. Whitesell. I would note that 
to give you 5 minutes to talk about 10 different bills and 
combinations was probably unfair to start with. So thank you 
for being so succinct.
    I know we've been joined by Senator Bennet and, Mr. 
Holtrop, if you're willing to wait a little bit longer and 
suspend your testimony--I think Senator Bennet's fine if you 
stay up at the table. We want to hear Senator Bennet provide us 
with his thoughts on his bill, S. 3303, the Chimney Rock 
National Monument proposal.
    So welcome to the subcommittee, Senator. I'm proud to be a 
co-sponsor of your legislation and looking forward to hearing 
you testify.

STATEMENT OF HON. MICHAEL F. BENNET, U.S. SENATOR FROM COLORADO

    Senator Bennet. I'm proud to call you ``Mr. Chairman.''
    Senator Udall. Thank you.
    Senator Bennet. Thank you, Mr. Chairman, for having me 
here. Ranking Member Burr, thank you also, for the opportunity 
to testify at today's hearing on the Chimney Rock National 
Monument Act of 2010. I introduced this legislation earlier 
this month. Chairman Udall, I want to extend a special thanks 
to you, as you said, for joining me as an original co-sponsor 
on this important piece of legislation.
    I also want to recognize Commissioner Bob Moomaw, who's 
here today. He's sitting behind me and you'll hear from him 
later. Commissioner Moomaw is a county commissioner from 
Archuleta County, Colorado, where Chimney Rock is located. Bob, 
along with his 2 fellow Archuleta County commissioners, penned 
a letter to me earlier this year expressing strong support for 
this legislation to designate Chimney Rock a national monument.
    Bob, I know you're a busy guy and I want to express my 
sincere thanks for taking the time to testify in support of 
this legislation.
    I'm here today to testify in support of S. 3303, the 
Chimney Rock National Monument Act of 2010. Chimney Rock is 
located roughly 20 miles west of Pagosa Springs in the 
southwest part of our State of Colorado. This 4700-acre site is 
located on San Juan National Forest land and is recognized as 
perhaps the most significant historical site managed by the 
entire U.S. Forest Service.
    The Twin Spires of Chimney Rock depicted in the photo 
besides me attracted the ancestors of the modern Pueblo Indians 
to this area nearly a thousand years ago. This unique culture 
had their main settlement in Chaco Canyon, New Mexico. It had a 
settlement at what is now Mesa Verde National Park near Cortez, 
Colorado. The Chaco people established a remote outpost at the 
base of Chimney Rock called the Great House Pueblo. The Great 
House is situated just south of the Twin Spires and also is 
shown beside me.
    The house was built from 6 million stones, 5,000 logs, and 
25,000 tons of earth and clay. All of these materials were 
arduously hauled 1,000 feet up from the valley floor.
    We think they established this outpost to observe a rare 
lunar event, a so-called major lunar landstill, which occurs 
once every 18.6 years when the moon appears to rise in the 
exact same spot 3 nights in a row. The Chaco people built the 
Great House Pueblo to observe this spectacular celestial event.
    There are only 2 other places in the world where 
archaeologists have found evidence that ancient people used 
stone structures to mark a lunar standstill. Stonehenge is one 
of them.
    Chimney Rock has incredible historical and cultural 
significance. Yet the site lacks a designation equal to that 
stature. This discrepancy is why countless preservation groups 
got involved with Chimney Rock. This constituency, coupled with 
a bipartisan group of local officials, local Colorado counties, 
municipalities, and tribes, have joined in an effort to give 
Chimney Rock its proper designation. They came together and 
asked me to carry legislation to designate Chimney Rock a 
national monument. I was happy to answer that call.
    This legislation will provide much-needed protection and 
much-deserved recognition for the site. Passage of this bill 
will also provide increased tourism and economic development in 
southwest Colorado, something I know Commissioner Moomaw plans 
to talk more about.
    The measure was drafted with the help of the U.S. Forest 
Service, the Archuleta County Commissioners, the Pagosa Springs 
Town Council, historic preservation groups, and Native American 
tribes in the region. Through this robust stakeholder process, 
we've written a commonsense piece of legislation for this 
important archaeological treasure.
    I would draw the committee's attention to a number of 
letters I brought with me today that support the overall 
effort. The letters come from a bipartisan group of Archuleta 
County Commissioners, where Commissioner Moomaw serves, the 
Mayor and Town Council of Pagosa Springs, Colorado, the town 
nearest Chimney Rock, and a wide variety of historical 
preservation groups from Colorado and all across the country. 
I'd like to submit these letters into the record to illustrate 
the broad level of local support for this popular legislation.
    Senator Udall. Without objection.
    Senator Bennet. Thank you, Mr. Chairman.
    My staff and I stand ready to work with the members of the 
committee and the administration to address any concerns that 
arise with the legislation as drafted. It's my hope that we can 
work collaboratively to improve and strengthen the legislation. 
It's then my hope that the committee will support the bill and 
favorably report it out for consideration by the full Senate.
    Thank you again, Chairman Udall and Senator Burr, for 
allowing me the opportunity to testify on behalf of this 
measure.
    Senator Udall. Senator Burr, do you have any comments or 
questions?
    Senator Burr. No, thank you.
    Senator Udall. Thank you, Senator Bennet. I would note 2 
things briefly. One is that local involvement is wide, robust, 
and strong. Second, I've been informed that this 18.6-year 
cycle just began again, so I need to follow Senator Burr's 
exercise and nutrition protocols so that I'm around to see it 
in 16 years.
    Senator Bennet. That's a good idea.
    Senator Udall. I'm not worried about you.
    Senator Bennet. I was worried that my remarks were going to 
last 18.6 years, but they didn't.
    Senator Udall. Thank you, Senator Bennet.
    Senator Bennet. Thank you.
    Senator Udall. I know we have a cloture vote looming, so 
I'm going to turn to Mr. Holtrop, and we'll hopefully get some 
questions in before Senator Burr and I need to go to the floor, 
hopefully briefly, and then we'll, after we recess, we'll then 
hear from the final panel.
    The floor is yours, sir.

   STATEMENT OF JOEL HOLTROP, FOREST SERVICE, DEPARTMENT OF 
                          AGRICULTURE

    Mr. Holtrop. Mr. Chairman and Ranking Member Burr: Thank 
you for the opportunity to provide the Department's views on S. 
3303, which would establish the Chimney Rock National Monument 
in Colorado. As your opening statement and Senator Bennet's 
statement indicate, Chimney Rock is a very important 
archaeological and cultural site to the local community, to the 
tribes, to the public, and to the Forest Service.
    We believe the rich history, spectacular archaeological, 
cultural, scientific, watershed, and scenic resource values, as 
well as the community support, merits the designation of the 
area as a national monument. Chimney Rock is also a very 
special place to me personally.
    I have visited, enjoyed, and been inspired by the area and 
I am proud to testify today on behalf of the Department on 
legislation that would give this natural treasure the 
recognition it deserves.
    Designated as an archaeological area and national historic 
landmark in 1970, Chimney Rock lies on 4100 acres of the San 
Juan National Forest, surrounded by the Southern Ute Indian 
Reservation. The Forest Service values archaeological and 
cultural resources and is proud that part of the agency's 
mission is to preserve and interpret them for the public. We 
believe this bill is a win-win for all.
    While the Department supports S. 3303, in my written 
testimony which I have submitted for the record I offer a few 
specific modifications that would address some technical 
concerns we have with the bill and would improve our ability to 
manage resources in the area. Very briefly, I'll highlight some 
of the modifications we suggest.
    Regarding the requirement to designate an individual as 
manager of the national monument, we would like the opportunity 
to assess staffing and management needs during the early phases 
of our planning process to base our initial staffing and 
management decisions on identified resource management needs 
and issues and public concerns and demands.
    Regarding the authority in Section 6[c] to construct a 
visitor's center and related exhibit and curatorial facilities, 
the Anasazi Heritage Center, a BLM facility, is managed in a 
service-first arrangement by the San Juan National Forest 
supervisor and is one of the largest curation centers in the 
Southwest, and it should be used for this purpose.
    Regarding the mining and mineral withdrawal in Section 
6[d], we recommend inclusion of language in this section 
providing that the proposed withdrawal would be subject to 
valid existing rights or that some other appropriate language 
be added that addresses this concern.
    Mr. Chairman, again thank you for the opportunity to talk 
about Chimney Rock today. The Forest Service looks forward to 
working with you and the subcommittee and sponsors to carry out 
the intent of the bill, and I would be happy to answer any 
questions that you may have.
    [The prepared statement of Mr. Holtrop follows:]
   Prepared Statement of Joel Holtrop, Forest Service, Department of 
                        Agriculture, on S. 3303
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to provide the views of the Department of Agriculture on S. 
3303, the Chimney Rock National Monument Act of 2010. While the 
Department supports S. 3303, I would like to offer modifications that 
would address some technical concerns with the bill and which would 
improve our ability to manage resources in the area.
    Designated as an Archaeological Area and National Historic Landmark 
in 1970, Chimney Rock lies on 4,100 acres of San Juan National Forest 
land surrounded by the Southern Ute Indian Reservation. Between A.D. 
900 and 1150, the ancestors of modern Pueblo Indians occupied the lands 
surrounding Chimney Rock, and the site remains of archaeological and 
cultural significance to many descendant tribes. At 7,600 feet, Chimney 
Rock is also the most northeasterly and highest Chacoan site known. 
Chacoan culture refers to the way of life of ancient ancestors of 
modern Pueblo Indians and continues to be important to the native 
people in the region.
    The Forest Service values archaeological and cultural resources and 
considers it part of the agency's mission to preserve and interpret 
them for the public. We believe the rich history, spectacular 
archaeological, cultural, scientific, watershed, and scenic resource 
values, as well as community support, merits the designation of the 
area as a National Monument.
    Section 4(a) of S. 3303 would establish the Chimney Rock National 
Monument in the State of Colorado by designating 4,726 acres 
surrounding the Chimney Rock Archaeological Area within the San Juan 
National Forest as a National Monument. The purpose of the monument 
would be to preserve, protect, and restore the nationally significant 
archaeological, cultural, scientific, watershed, and scenic resources 
in the area, as well as enable the public to fully utilize the 
resources in the area. Section 7(c) of the bill would also provide for 
continued access by Indian tribes to sites within the National Monument 
for traditional and cultural uses.
    Section 4(b)(2)(A) would authorize the Secretary to make minor 
boundary adjustments to the monument to include significant 
archeological resources discovered on adjacent public land. We 
recommend that the bill be amended to substitute ``National Forest 
System land'' for ``public land'' to make clear that the only public 
land adjacent to the proposed monument boundary is Forest Service land. 
Section 4(c) would require the Secretary to designate an individual as 
manager of the National Monument. To implement this provision, the 
organizational structure of the San Juan National Forest would have to 
be amended to accommodate the new position. We would prefer to be 
provided the opportunity to assess staffing and management needs during 
the early phases of our planning process, allowing us to base our 
initial staffing and management decisions on identified resource 
management needs and issues, and public concerns and demands.
    Section 6(a) would require the monument to be managed as a unit of 
the San Juan National Forest. We recommend making a technical amendment 
to this section to add language that would require the Secretary to 
manage the monument in accordance with any other applicable provisions 
of law. This change would make it clear that laws applicable to 
management of the forest would also apply to management of the 
monument.
    Under section 6(b) and (c), the Secretary would be authorized to 
allow uses of the monument consistent with the purposes of its 
establishment including the following uses: vegetative management 
treatments; timber harvest and the use of prescribed fire only if the 
Secretary deems it necessary to address the risk of wildfire, insects, 
or diseases; the construction of a visitor's center and related exhibit 
and curatorial facilities; scientific research; acquisition 
consolidation, and display of artifacts found within the monument; the 
recreational and administrative use of mountain bikes and motorized 
vehicles; installation, construction and maintenance of a public 
utility right of way under certain circumstances; and grazing uses 
through permits.
    We believe that an interpretation and educational center, instead 
of a visitor's center, would be more in line with the bill's purposes 
of providing educational and interpretive programs to communities, and 
allowing for academic scientific investigation of Chimney Rock. 
Although the bill would authorize construction of a curatorial 
facility, the Anasazi Heritage Center, a BLM facility, is one of the 
largest curation centers in the Southwest and should be used for this 
purpose. In fact, many materials from Chimney Rock are already curated 
at this facility.
    Section 6(d) of the bill would withdraw the affected lands from 
location, entry, and patent under the United States mining laws; and 
would withdraw those areas from the laws governing mineral leasing, 
geothermal resource leasing and mineral materials. A problematic aspect 
of section 6(d) is it does not preserve valid existing rights to the 
land that the bill would designate as the Chimney Rock National 
Monument. There are currently mining claims, mineral leases, and 
mineral material contracts which encumber the lands to be included in 
the monument. The bill, as written, would prohibit the exercise of 
rights which may be associated with these existing mining claims and 
are associated with these mineral leases and mineral materials 
contracts. For these reasons, we recommend inclusion of language in 
this section providing that the proposed withdrawal would be subject to 
valid existing rights, or that some other appropriate language be added 
that addresses this concern.
    Section 7 would require the development of a management plan, not 
later than 3 years after the date of enactment, and in consultation 
with Indian Tribes with a cultural or historic connection to the 
monument. The management plan must identify the authorized uses for the 
monument. In developing the management plan, the Secretary would 
provide an opportunity for comment to the public and such entities as 
State, Tribal government, local, and national organizations with an 
interest in the management and use of the monument. The San Juan 
National Forest land management plan would have to be amended to 
incorporate the management plan for the monument. Because of the 
importance of creating a successful management plan in collaboration 
with the community, Tribes, and the public, and the time needed to 
achieve this, the Department recommends the bill language be changed to 
state that the management plan shall be completed no later than five 
(5) years after the date of enactment.
    In conclusion Mr. Chairman, the Forest Service looks forward to 
working with you and the subcommittee to carry out the intent of the 
bill. I would be happy to answer any questions you may have. Thank you.

    Senator Udall. Thank you, Mr. Holtrop. Let me turn to 
Senator Burr for any questions he might have of either of you.
    Senator Burr. Thank you, Mr. Chairman.
    Steve, the National Park Service currently reports a 
maintenance backlog of over $9 billion. Yet 6 of the bills in 
front of the subcommittee today establish either new national 
park units or increase the amount of land in current units. I 
guess the obvious question: Do you believe the National Park 
Service should pay down the maintenance backlog before it 
considers more land or more obligations?
    Mr. Whitesell. You know, I think these always have to be 
balanced as one looks at that potential addition to the 
National Park System. The feeling I think among most of us is 
that the addition of these lands are appropriate to the system. 
Hence the administration's willingness to go forward with their 
addition.
    Senator Burr. In the case of those bills that you support, 
is the Secretary willing for that to come out of the annual 
budget?
    Mr. Whitesell. For land acquisition?
    Senator Burr. Yes.
    Mr. Whitesell. I believe that we've pointed out in most of 
those cases that we would be using available funds.
    Senator Burr. So the answer is no.
    Mr. Whitesell. I don't think we're asking for any 
additional dollars for that acquisition, no, sir.
    Senator Burr. So the agency's not willing to take it out of 
its annual budget. It would require additional appropriations 
from the Congress?
    Mr. Whitesell. That's correct.
    Senator Burr. OK.
    How much will each of the pieces of legislation cost, 3 of 
them, S. 349, the Susquehanna Gateway National Heritage Area?
    Mr. Whitesell. I believe the costs are relatively small in 
terms of what's required in order to get that site off the 
ground, that heritage area.
    Senator Burr. My calculation was it authorized $10 million 
over a period of time.
    Mr. Whitesell. Right.
    Senator Burr. Is that $10 million just the initial phase, 
the initial investment?
    Mr. Whitesell. I think that's part of the question that 
comes forward with our request to Congress for consideration 
for----
    Senator Burr. You defer to opinion, and I hope we get a 
fixed cost on that.
    How about acquiring the Gold Hill Ranch in Coloma, 
California? I sense a cost of $3.3 million to acquire.
    Mr. Whitesell. I'd have to defer to Mr. Spisak on that 
question.
    Mr. Spisak. The authorization is about $3.4 million.
    There are at this point $2 million that have been collected 
from private funds that would go toward the acquisition of that 
property.
    Senator Burr. That wouldn't have anything to do with the 
ongoing management of that property, the cost of it?
    Mr. Spisak. That would be the acquisition portion.
    Senator Burr. OK.
    Senator Udall. Sir, if I could interrupt, Senator Burr. 
Would you just provide us with your name and position for the 
record?
    Mr. Spisak. Tim Spisak, Deputy Director for Minerals and 
Realty Management within the Bureau of Land Management.
    Senator Udall. Thank you.
    Senator Burr. First State National Historic Park?
    Mr. Whitesell. You were interested in what the costs are on 
that?
    Senator Burr. Correct.
    Mr. Whitesell. I believe the expectation for annual 
operating costs are someplace in the order of about $450 to 
$500,000 a year for staffing of that facility, plus there's a 
portion of money that we are looking to for potential grants 
for historic preservation activities.
    Senator Burr. Three million in acquisition and $2.5 million 
additional dollars in potential grants.
    Mr. Whitesell. Yes, sir.
    Senator Burr. Thank you.
    May I ask you on S. 2953, S. 3159, S. 3168, they seek to 
expand a national park unit. How much of the land involved in 
the proposed expansion do we know is under current private 
ownership?
    Mr. Whitesell. I don't know. I know specific locations 
which are under private ownership. For instance, the piece at 
Fort Necessity is privately owned, and has a willing seller 
that has actually approached the National Park Service about 
sale of that particular property.
    Senator Burr. Would the Park Service consider using eminent 
domain in any of the acquisitions?
    Mr. Whitesell. We always try to go forward with a willing 
seller arrangement.
    Senator Burr. Let me ask it one more time: Would the Park 
Service consider on either one of those pieces of legislation 
using eminent domain to acquire the land?
    Mr. Whitesell. We would if we could not in any other way 
find an ability to acquire property. We seek that very seldom, 
though, as I think you know.
    Senator Burr. I do.
    Steve, do we know if hunting is currently allowed on any of 
the land that's being proposed in those 3 acquisitions?
    Mr. Whitesell. That includes, I believe, a piece at 
Sleeping Bear Dunes. My understanding is that the change in the 
wilderness proposals in that particular area have no impact on 
current hunting or fishing activities in those areas. In fact, 
the wilderness area was actually very carefully worked out with 
the local community to make sure that their concerns about 
access were in fact represented in how the lines were drawn for 
the Wilderness Act.
    Senator Burr. But in the case of private land that was 
purchased for expansion of a park, it's safe to say that 
private land is land that can be hunted today. Would it remain 
with the Park Service as accessible for hunting?
    Mr. Whitesell. It would be only to the extent that hunting 
is currently allowed within those existing parks. Where we're 
expanding the boundary, we would expand the same, whatever the 
current management practices are.
    Senator Burr. So if it did not extend hunting, then hunting 
would be lost on the acquired lands?
    Mr. Whitesell. That is correct.
    Senator Burr. I thank the chair. I think that's good 
enough. Thank you.
    Senator Udall. Thank you, Senator Burr.
    I might as a follow-up, as I recognize myself. On the 2 
battlefield bills, there are sections that make it clear that 
the Secretary may acquire only by purchase from a willing 
seller publicly owned property that's located within the 
property designated in this section. Similar language is--that 
is the legislation dealing with Gettysburg, and then there's 
similar language in the Petersburg National Battlefield 
legislation as well.
    Mr. Whitesell. Right. Thank you, Senator.
    Senator Udall. That may answer further Senator Burr's 
important questions.
    Mr. Holtrop, let me turn to you first and I've got a 
question about Chimney Rock. You've identified a couple of 
technical management issues you'd like to see changed and we're 
more than happy to work with you on those proposed 
modifications, including the clarification that the monument 
designation would not affect any existing valid rights.
    Apart from those changes, I just want to make it clear for 
the record that the Forest Service agrees that national 
monument designation for Chimney Rock--let me say, for the 
Chimney Rock site--I want to be appropriate and careful here--
is appropriate; is that correct?
    Mr. Holtrop. That is correct, we do believe it's 
appropriate.
    Senator Udall. Thank you for that clarification and clear 
answer.
    Let me turn back to Mr. Whitesell. On the Susequehanna 
Gateway National Heritage Area, you're recommending the 
committee defer action on the bill until the administration 
submits heritage program legislation in the near future.
    Mr. Whitesell. Right.
    Senator Udall. Can you provide us with more detail on when 
you expect to have that legislation ready?
    Mr. Whitesell. We've worked on that proposed legislation 
within the National Park Service, but we are awaiting further 
discussions with the Office of Management and Budget for their 
clarifications on it.
    Senator Udall. You'll keep us apprised, I assume?
    Mr. Whitesell. We certainly will.
    Senator Udall. Apart from the recommendation to defer 
action, does the Park Service consider the proposed heritage 
area for the Susquehanna appropriate for national heritage 
designation?
    Mr. Whitesell. It does.
    Senator Udall. Let me turn to First State National 
Historical Park, Delaware, S. 1801. The proposed First State 
Park would include several sites in different parts of the 
State. Are you aware of other National Park System areas that 
have multiple noncontiguous site areas and can you tell us how 
the management of those sites is handled?
    Mr. Whitesell. I think probably the one that's the closest 
that I can think of off the top of my head would be Boston 
National Historical Park, where in Boston you have a series of 
separate sites owned in many cases by entities other than the 
Federal Government. They have many of the similar colonial 
resources that we're looking here at the potential national 
park in Delaware.
    So they're owned by private entities, not-for-profit 
organizations who work with the National Park Service toward 
the preservation of those particular properties. The Park 
Service provides some degree of oversight and general direction 
for the entire park and particularly supports the interpretive 
programs in those locations.
    Senator Udall. So there is at least a precedent or a 
parallel of some sort?
    Mr. Whitesell. I believe so, yes.
    Senator Udall. I'm tempted to ask if those are sites where 
the first tea party was created. But we'll leave that for 
another discussion.
    My understanding is that none of the sites within the park 
are federally owned. If there is any Federal land in the park, 
what would you envision the National Park Service's management 
role to be? Again, this is on the First State National 
Historical Park.
    Mr. Whitesell. Yes. Again, I think this would be 
acquisition only to the extent that it would be necessary to 
establish a particular presence. I think very limited 
acquisition, if any acquisition at all, is anticipated in the 
development of that park.
    Senator Udall. Then your management role would be what? How 
would you define that?
    Mr. Whitesell. Much of it is a coordinative role, working 
with the partner organizations, with the State and local 
governments to make sure that the interpretive programs are 
well thought out, that they're coordinated, and that the 
visitor walks away with a thorough understanding of the 
importance of the particular units that would make up that 
park.
    Senator Udall. I would assume when Mr. Slavin testifies he 
will speak to this and we can also ask him additional 
questions.
    Let me turn finally to the Fort Necessity National 
Battlefield addition, S. 3168. It authorizes the Park Service 
to acquire 157 acres for addition to the Fort Necessity 
National Battlefield. Following on Senator Burr's important 
questions about cost, do you have any estimate of the potential 
land acquisition costs?
    Mr. Whitesell. No, we don't. For that particular property, 
as I say, we've got a willing seller that's approached us with 
an interest in selling those properties. But we haven't had a 
chance to do an appraisal on those lands, and that would be 
necessary before we ever arrived at a fair price.
    Senator Udall. Thank you for that clarification.
    Senator Burr, do you have more?
    Senator Burr. No, thank you.
    Senator Udall. Gentlemen, thank you again. I always 
appreciate the fact that you come up here, share your point of 
view with us, and answer our questions in a straightforward and 
direct manner. Thank you.
    We'll call the third and final panel to the table. We at 
this point--have we heard anything from the floor? We've heard 
nothing from the floor, so perhaps we can hear from our third 
panel and direct some questions their way before the cloture 
vote is actually called, if it's called at all. I should have 
asked Senator Bennet for an update from the caucus.
    [Pause.]
    Senator Udall. Gentlemen, welcome. Thank you for joining us 
today. I know that you've come from 3 different States, so I'll 
just introduce each of you in turn, and then I'll turn back to 
Commissioner Moomaw for his testimony. It's a delight for me to 
see Commissioner Robert Moomaw, the Honorable Robert Moomaw. 
He's a Commissioner of Archuleta County, as Senator Bennet 
mentioned, based in Pagosa Springs. This is a slice of heaven 
every time of year, but particularly as the spring looms I know 
it's just gorgeous at home. We've got a lot of moisture. It's 
great to have you here, Commissioner.
    Next to you, Tim Slavin, the Director of the Division of 
Historic and Cultural Affairs for the State of Delaware, based 
in Dover. If I think I heard Senator Carper correctly, you were 
a key part in this study and the work that was done to design 
this important proposal that is in front of us today.
    Then Mr. Platts is President of the Susequehanna Gateway 
Heritage Area, based in Wrightsville, Pennsylvania.
    Before I do turn to Commissioner Moomaw, I did also want to 
acknowledge that I think you've been traveling with Roy Jones. 
I don't know if Roy was able to stay, but I have known Roy for 
many years. He worked with my father, Congressman Mo Udall, on 
the House side on many a natural resource issue, and I want to 
just acknowledge Roy's friendship and wisdom and support. I 
know you're in good hands, Commissioner, when you're with Mr. 
Roy Jones. He's a graduate of West Point, a patriot, and just 
all in all a wonderful man.
    Thank you for being here. The floor is yours. I look 
forward with real interest to your testimony. You have, give or 
take, 5 minutes to share with us your thoughts. If you'd turn 
your mike on, that would be great.

  STATEMENT OF ROBERT MOOMAW, COUNTY COMMISSIONER, ARCHULETA 
                           COUNTY, CO

    Mr. Moomaw. I'm sure as you know, Mr. Jones and I were 
roommates at West Point.
    Senator Udall. I want that for the record, of course, yes.
    Mr. Moomaw. Chairman Udall, Ranking Member Burr: Thank you 
for the opportunity to speak in favor of the Chimney Rock 
National Monument Act of 2010. My name is Bob Moomaw. I am a 
Commissioner from Archuleta County, Colorado. I have been 
tasked by my fellow commissioners and the citizens of Archuleta 
County to testify in support of this important legislation.
    As Senator Bennet, mentioned, Chimney Rock is located in 
Archuleta County in the Four Corners Region of southwest 
Colorado. The site is located just 20 minutes west of the town 
of Pagosa Springs and represents a unique archaeological 
experience.
    Senator Bennet has already covered the historic and 
archaeological significance of Chimney Rock, so I will focus my 
comments on the positive economic impacts the national monument 
designation would have on Archuleta County and the surrounding 
region. Archuleta County is blessed with some of the most 
beautiful scenario God has given to the State of Colorado and 
the Nation. We have also been blessed with excellent 
representation from our Federal elected officials: you, Senator 
Udall, and Senator Bennet, and in the past Senator Ken Salazar, 
who is now Secretary of the Interior, and Senator Ben 
Nighthorse Campbell.
    A little about where I hale from. Archuleta County 
encompasses roughly 900,000 acres, of which 66 percent is 
Federal land, comprised of BLM, Forest Service, and the 
Southern Ute Nation. In addition, we are surrounded by 
approximately 2.8 million acres of Forest Service land.
    Despite our overwhelming beauty, Archuleta County is a 
county of stark extremes. On the one hand we have great wealth 
and on the other we also, unfortunately, have widespread 
poverty, particularly among our indigenous long-term residents. 
Our per capita income is only $21,683. Continued sustainable 
growth is essential to the future prosperity of Archuleta 
County. That is why the Chimney Rock National Monument bill of 
2010 is so important. The legislation would not only protect a 
nationally significant site, but it would bring prominence to 
our small community.
    Our economy is mostly based around tourism, construction, 
and real estate. 26 percent of our homes are second homes. 47 
percent of the property is owned by nonresidents. Regrettably, 
the national downturn has hit our area very hard, with the 
construction and real estate segments of our economy 
essentially disappearing.
    Prior to the downturn, Archuleta County was one of the 
fastest growing counties in the country. We were listed I a 
host of magazines and books as one of the most desirable places 
to move nationwide. Since the downturn, we have unfortunately 
lost approximately 10 percent of our population and still have 
a 10.6 percent unemployment rate.
    Now, I don't want to give you the impression that we're 
coming to the Federal Government to solve our problems. We've 
already moved aggressively to stimulate our economy and to pull 
ourselves out of this recession. We've formed a new economic 
development corporation that is already bringing new businesses 
to Archuleta County to diversify our economy. Yet struggles in 
our county continue. While there is no silver bullet to fix our 
region's economic woes, the Board of County Commissioners feels 
this new national monument would be a tremendous help.
    As Senator Bennet illustrated, the site certainly warrants 
monument status, both for giving--as a Commission, we support 
the legislation, both for giving Chimney Rock the recognition 
it deserves and for the new visitors it will bring to our 
county.
    As briefly discussed earlier, the remnants of the unique 
Chacoan culture consist primarily of Chaco Canyon, a world 
heritage site, Mesa Verde, a national park, and the currently 
little known Chimney Rock archaeological site. Many tourists, 
including folks from as far away as Europe and Asia, travel to 
the Chaco Canyon, from Chaco Canyon to Mesa Verde, to get what 
is perceived to be the complete picture of Chaco culture.
    Sadly for Archuleta County, these tourists are often 
unaware of nearby Chimney Rock and its significance to the 
ancestral Pueblo people. It is our hope that a national 
monument designation would change that. Tourists from across 
the world will come to see the monument, stay in our hotels, 
eat in our restaurants, and hopefully even visit our world-
famous hot springs.
    A similar change occurred with Canyon of the Ancients, 
located in a neighboring community. After Canyon of the 
Ancients received monument status, tourism went up 
dramatically.
    Chairman Udall, members of the committee, it is for the 
aforementioned reasons that Archuleta County, surrounding 
counties, and the Southern Ute Nation are in support of this 
legislation. Archuleta County respectfully asks that you 
favorably report the Chimney Rock National Monument Act of 2010 
out of your committee for consideration by the full Senate. 
Passage of this legislation would protect a vulnerable national 
treasure and bring important sustainable economic development 
to our tourism-based economy.
    Thank you for your time and the invitation to testify. I 
appreciate the opportunity to share my thoughts on Chimney Rock 
and its importance to our region. I'm happy to answer any 
questions should you have them.
    [The prepared statement of Mr. Moomaw follows:]
  Prepared Statement of Robert Moomaw, County Commissioner, Archuleta 
                         County, CO, on S. 3303
    Chairman Udall, Ranking Member Burr, members of the Subcommittee, 
thank you for the opportunity to speak in favor of the Chimney Rock 
National Monument Act of 2010, S.3303. My name is Bob Moomaw and I am a 
County Commissioner from Archuleta County, Colorado. I've been tasked 
by my fellow Commissioners, and the citizens of Archuleta County, to 
testify in support of this important legislation.
    Chimney Rock is located in Archuleta County, in the Four Corners 
region of Southwest Colorado. The site is located just 20 minutes west 
of the town of Pagosa Springs and represents a unique archaeological 
experience. I will focus my comments on the positive economic impacts 
the National Monument designation would have on Archuleta County and 
the surrounding region.
    Archuleta County is blessed with some of the most beautiful scenery 
God has given to the state of Colorado and the nation. We have also 
been blessed with excellent representation from our Federal elected 
officials, you--Senator Udall and Senator Bennet; and in the past, 
Senator Ken Salazar, now Secretary of the Interior, and Senator Ben 
Nighthorse Campbell.
    A little about where I hail from--Archuleta County encompasses 
roughly 900,000 acres of which 66% is Federal land, including Forest 
Service, BLM and the Southern Ute Nation. In addition, Archuleta County 
is bordered by 2.8 million acres of Forest Service land. Despite our 
overwhelming natural beauty, Archuleta County is also a county of stark 
extremes.
    On one hand we have great wealth--with one of our trophy ranches 
having just sold for $47 million dollars. On the other we also 
unfortunately have widespread poverty, particularly among our 
indigenous long-term residents. Our per capita income is only 
$21,683.00. Continued sustainable economic growth is essential to the 
future prosperity of Archuleta County. That is why the Chimney Rock 
National Monument Bill of 2010 is so important.
    The legislation would not only protect a nationally-significant 
site, but it would bring prominence to our small community. Our economy 
is mostly based around tourism, construction, and real estate. 26% of 
our homes are second homes, with 47% of the property owned by non-
residents. Regrettably, the national economic downturn has hit our area 
very hard, with the construction and real estate segments of our 
economy essentially disappearing.
    Prior to the downturn, Archuleta County was one of the fastest 
growing counties in the country. We were listed in a host of magazines 
and books as one of the most desirable places to move nationwide. Since 
the downturn we have unfortunately lost approximately 10% of our 
population and currently have a 10.6% unemployment rate.
    Now I don't want to give you the impression we are coming to the 
federal government to solve our problems. We have already moved 
aggressively to stimulate our economy and pull ourselves out of this 
recession. We have formed a new economic development corporation that 
is already bringing new business to Archuleta County to diversify our 
economy. Yet struggles in our County continue. While there is no silver 
bullet to fix our region's economic woes; the Commission feels that 
this new National Monument would be a tremendous help.
    The site certainly warrants Monument status. As a Commission we 
support the legislation--both for giving Chimney Rock the recognition 
it deserves and for the new visitors it will bring to our County. As 
briefly discussed earlier, the remnants of the unique Chacoan culture 
consist primarily of Chaco Canyon, a World Heritage site; Mesa Verde 
National Park; and what is currently the little-known Chimney Rock 
Archeological Area.
    Many tourists--including folks from as far away as Europe and 
Asia--travel from Chaco Canyon to Mesa Verde to get what is perceived 
to be the complete picture of the Chaco culture. Sadly for Archuleta 
County, these tourists are often unaware of nearby Chimney Rock and its 
significance to the Ancestral Pueblo people.
    It is our hope that a National Monument designation would change 
that. Tourists from across the world will come to see the Monument, and 
then stay in our hotels, eat in our restaurants, and hopefully even 
visit our world-famous hot springs.
    A similar change occurred with Canyon of the Ancients--located in a 
neighboring community in Colorado. After Canyon of the Ancients 
received Monument status, tourism went up dramatically.
    Chairman Udall, members of the committee, it is for the 
aforementioned reasons that Archuleta County, surrounding counties, and 
the Southern Ute Nation are in support of this designation. Archuleta 
County respectfully asks that you favorably report the Chimney Rock 
National Monument Act of 2010 out of your committee for consideration 
by the full Senate.
    Passage of this legislation would protect a vulnerable national 
treasure and bring important sustainable economic development to our 
tourism-based economy. Thank you for your time and the invitation to 
testify. I appreciated the opportunity to share my thoughts on Chimney 
Rock and its importance to our region. I am happy to answer any 
questions should you have them.

    Senator Udall. Thank you. Commissioner Moomaw, you made my 
homesick.
    Mr. Slavin, the floor is yours.

 STATEMENT OF TIMOTHY SLAVIN, DIRECTOR, DIVISION OF HISTORICAL 
            AND CULTURAL AFFAIRS, STATE OF DELAWARE

    Mr. Slavin. Thank you, Chairman Udall, for allowing me to 
submit this brief testimony on S. 1801, which would establish 
the First State National Historic Park in the State of 
Delaware. My name is Tim Slavin and I currently serve as the 
Director of the Division of Historical and Cultural Affairs for 
the State of Delaware. In this capacity I oversee the 
management and stewardship of 34 historic properties comprising 
119 structures and more than 600 acres of cultural landscapes. 
In addition, I also serve as the State Historic Preservation 
Officer and oversee the cultural resources review of all 
Federal projects undertaken in our State as well as other 
historic preservation-related activities.
    I strongly support the passage of this bill. This bill is a 
result of an untold number of hours of public consultations, 
meetings with State and private agencies, and conversations 
with local residents. This has been a deliberate, arduous, and 
productive task and the outcome could not have been more 
beneficial or useful.
    The concept of a multi-site historical-based national park 
is something which is valid for Delaware and should be 
implemented by the National Park Service. The theme of early 
settlement through birth of a Nation in Delaware is considered 
by many historians to be pivotal in conveying an understanding 
of Delaware's unique role in American history. The National 
Park Service cited this in its special resource study, stating 
that Delaware, quote, ``provides an important lens on the 
subject of how early colonial leaders struggled with the notion 
of breaking free from England,'' and that Delaware 
``exemplifies the character of an entirely new Nation as a 
result of that quest for freedom and independence.''
    The multi-site design for the park likewise reflects that 
history. Delaware's waves of settlement included the Swedish, 
the Dutch, and the English, all in different venues, across a 
beautiful and sweeping coastal area. Under the proposed design, 
the hub of the park would be situated in Newcastle, which 
includes one of the richest historical districts on the East 
Coast, as well as a community of preservation-minded residents 
and property owners who are unparalleled in Delaware.
    The spokes of the park would allow for important stories 
that contribute to an understanding of the early settlement and 
birth of the Nation theme to be told in Dover and in Lewes as 
well.
    The public acceptance of this proposed project and the 
amount of public input and enthusiasm for the bill should not 
go unnoticed. There has been a wellspring of sentiment and 
support from across Delaware, with citizens participating in 
hearings and discussions and offering many of the ideas that we 
see outlined in the bill. The city of Newcastle has not only 
accepted its new role as the site for the park's hub, but has 
embraced this new role. As someone who manages historical 
properties and museums in Newcastle, I can tell you that the 
specter of a national park in Newcastle has brought with it a 
whole new level of public support for history and historic 
preservation there.
    If the park is implemented as designed--and I sure hope it 
is--you will find a conscientious and welcoming community in 
Newcastle.
    Finally, there is a need for this park that deserves to be 
met. Delaware's history is our Nation's history and we need to 
tell that story in ways that all Americans can access it. The 
fact that we currently do not have a national park in Delaware 
would in my opinion not be reason enough to simply create one. 
The fact that we have historical resources which the citizens 
of our Nation need to see and experience in order to understand 
and appreciate our Nation's great history is something we can 
no longer ignore. The need for this park is based on the need 
to tell our American history thoroughly and completely and to 
include Delaware in that enterprise.
    I'm a big fan of the National Park Service. My agency works 
hand in glove with the National Park Service on an almost daily 
basis through our work in carrying out the provisions of the 
National Historic Preservation Act and through their joint 
efforts we have raised the quality of life for all Delawareans. 
We consider the NPS to be an exemplary steward of our Nation's 
heritage and we are unblinking in saying that they are partners 
that we are proud to do business with.
    But my admiration for the National Park Service is at its 
roots deeply personal. My 16-year-old daughter lives in 
Boulder, Colorado, and on my monthly visits to her we have 
claimed Rocky Mountain National Park as one of our own little 
places. It's a place we visit regularly, sometimes returning to 
the same footprints we left on previous trips. These visits 
have not only resulted in the 2 of us visiting other national 
parks, but more importantly have shown her the value of 
conscientious stewardship and the role that each person can 
play in preserving our Nation's heritage.
    We need to show the children of Delaware the importance of 
these values and the passage of S. 1801 gives us that 
opportunity.
    In closing, I strongly support this bill and encourage its 
passage and implementation and stand ready to assist the 
National Park Service in any manner possible. Thank you very 
much.
    [The prepared statement of Mr. Slavin follows:]
Prepared Statement of Timothy Slavin, Director, Division of Historical 
          and Cultural Affairs, State of Delaware, on S. 1801
    Chairman Udall and members of the Subcommittee on National Parks of 
the Committee on Energy and Natural Resources, thank you for allowing 
me to submit this brief testimony on S. 1801, which would establish the 
First State National Historical Park in the State of Delaware.
    My name is Timothy A. Slavin, and I currently serve as the Director 
of the Division of Historical and Cultural Affairs for the State of 
Delaware. In this capacity, I oversee the management and stewardship of 
thirty-four historic properties, comprising 119 structures and more 
than 600 acres of cultural landscapes. In addition, I also serve as the 
State Historic Preservation Officer and oversee the cultural resources 
review of all federal projects undertaken in our state, as well as 
other preservation related activities.
    I strongly support the passage of S. 1801. This bill is the result 
of untold number of hours of public consultations, meetings with state 
and private agencies, and conversations with local residents. This has 
been a deliberate, arduous, and productive task, and the outcome could 
not have been more beneficial or useful.
    The concept of a multi-site historical-based national park is 
something which is valid for Delaware and should be implemented by the 
National Park Service (with passage of this bill). The theme of ``early 
settlement'' through ``birth of a nation'' in Delaware is considered by 
many historians to be pivotal in conveying an understanding of 
Delaware's unique role in American history. The National Park Service 
cited this in its special resource study, stating that Delaware 
``provides an important lens on the subject of how early colonial 
leaders struggled with the notion of breaking free from England'' and 
that ``Delaware exemplifies the character of an entirely new nation as 
the result of that quest for freedom and independence.'' (National Park 
Service, Delaware National Coastal Special Resource Study and 
Environmental Assessment, November 2008.)
    The multi-site design for the park, likewise, reflects that 
history. Delaware's waves of settlement included the Swedish, Dutch and 
English, all in different venues across a beautiful and sweeping 
coastal area. Under the proposed design, the ``hub'' of the park would 
be situated in New Castle, which includes one of the richest historical 
districts on the east coast, as well as a community of preservation-
minded residents and property owners who are unparalleled in Delaware. 
The ``spokes'' of the park would allow for the important stories that 
contribute to an understanding of the early settlement and birth of a 
nation theme to be told in Dover and Lewes, as well.
    The public acceptance of this proposed project and the amount of 
public input and enthusiasm for this bill should not go unnoticed. 
There has been a well-spring of sentiment and support from across 
Delaware, with citizens participating in hearings and discussions, and 
offering many of the ideas that we see outlined in the bill. The City 
of New Castle has not only accepted its new role as the site for the 
park's hub, but has embraced that new role. As someone who manages 
historical properties and museums in New Castle, I can tell you that 
the specter of a national park in New Castle has brought with it a 
whole new level of public support for history and historic preservation 
in New Castle. If the park is implemented as designed--and I hope that 
it is--you will find a conscientious and welcoming community in New 
Castle.
    Finally, there is a need for this park that deserves to be met. 
Delaware's history is our nation's history, and we need to tell that 
story in ways that all Americans can access it. The fact that we 
currently do not have a national park in Delaware would, in my opinion, 
not be reason enough to simply create one. The fact that we have 
historical resources which the citizens of our nation need to see and 
experience in order to understand and appreciate our nation's great 
history is something which we can no longer ignore. The need for this 
park is based on a need to tell our American history thoroughly and 
completely, and to include Delaware in that enterprise.
    I am a big fan of the National Park Service. My agency works hand-
in-glove with the NPS on an almost-daily basis through our work in 
carrying out the provisions of the National Historic Preservation Act, 
and through their joint efforts, we have raised the quality-of-life for 
all Delawareans. We consider the NPS to be an exemplary steward of our 
nation's heritage, and we are unblinking in saying that they are 
partners that we are proud to do business with.
    But my admiration for the National Park Service is, at its roots, 
personal. My 16-year-old daughter lives in Boulder, Colorado, and on my 
monthly visits to her, we have claimed Rocky Mountain National Park in 
Estes Park as our own place. It's a place that we visit regularly, 
returning to some of the same footprints we left on previous trips. 
These visits have not only resulted in the two of us visiting other 
national parks, but, more importantly, have shown her the value of 
conscientious stewardship and the role that each person can play in 
preserving our nation's heritage.
    We need to show the children of Delaware the importance of these 
values, and the passage of S. 1801 gives us that opportunity.
    In closing, I strongly support this bill and encourage its passage 
and implementation and stand ready to assist the National Park Service 
in any manner possible.
    Thank you.

    Senator Udall. Thank you, Mr. Slavin. You've obviously done 
your homework. You've also made me homesick, given Boulder, 
Colorado, is a short distance from where I live. My 
grandfather, if I could reminisce for 5 seconds, was the first 
concessionaire in Rocky Mountain National Park. My mother spent 
many a summer there. So you've further sealed the deal when it 
comes to my support for this important legislation.
    Thank you for your hard work and the passion you clearly 
brought to this.
    Mr. Platts, the floor is yours.

 STATEMENT OF MARK N. PLATTS, PRESIDENT, SUSQUEHANNA HERITAGE 
                 CORPORATION, WRIGHTSVILLE, PA

    Mr. Platts. Chairman Udall, thank you for the opportunity 
to testify today in support of S. 349, an Act to establish the 
Susquehanna Gateway National Heritage Area in Pennsylvania's 
Lancaster and York Counties and along the scenic and historic 
Susquehanna River, which we consider our own slice of heaven, 
and I hope you'll be homesick for after you hear this. A 
special thanks to Pennsylvania Senators Bob Casey and Arlen 
Specter for their sponsorship of this legislation.
    I'm Mark Platts, President of the Susquehanna Heritage 
Corporation, a nonprofit organization and management entity for 
the Susquehanna Gateway Heritage Region, one of Pennsylvania's 
12 State-designated heritage areas. I'm especially proud to be 
testifying today with my 1-year-old son Timothy in the audience 
to check on how dad does today. We also got him in a tie, which 
is pretty cool.
    Mr. Chairman, I have submitted written testimony for the 
record on the outstanding merits of our region to be designated 
by Congress as a national heritage area. With your permission, 
I'd like to highlight that testimony.
    Senator Udall. Please do and, without objection, it will be 
included, your full statement, in the testimony.
    Mr. Platts. Thank you.
    The Susquehanna River was recently named by National 
Geographic as ``the mightiest river on the Atlantic Seaboard'' 
and ``mother of the Chesapeake Bay.'' As a native York Countian 
now living in Lancaster County and going to work every day on 
the shores of the Susquehanna, I'm proud to share why this 
special corner of America merits national designation.
    Throughout American history, the Susquehanna Gateway region 
and its fertile and scenic landscape have played a starring 
role in the story of America. As you learned earlier today, in 
2008 the National Park Service reviewed our national heritage 
area feasibility study report and agreed with this assessment, 
determining that the region meets the criteria for 
Congressional designation as a national heritage area. It 
clearly has national important resources and stories to share. 
We're pleased to have this important endorsement of our 
region's place in America's story and we think it's quite a 
story. Our region's history reflects events and movements that 
truly represent the American experience, many flowing from the 
central historical role of the Susquehanna River, one of the 
oldest river systems in the world and the longest on America's 
East Coast. This majestic waterway flows through the heart of 
our region before it enters the Chesapeake Bay in Maryland and 
has been a corridor of culture and commerce for centuries. It 
hosts traces of Native American life in its rock art 
petroglyphs, the largest collection of those petroglyphs on the 
East Coast, and the archeological remains of their settlements. 
It served early colonists as a commercial highway and was once 
the gateway to America's ever-moving frontier. It also almost 
became the site of the Nation's capital and missed by one vote 
in Congress or we'd be meeting in our region now.
    The region has been a great source of American ingenuity. 
The Conestoga wagon and Pennsylvania long rifle originated 
here. Robert Fulton, inventor of the first successful 
steamboat, was born here and today his statue stands across the 
street in the Capitol in Statuary Hall with a model of the 
famous rivercraft, which we'll be showing to the kids when we 
go over there after this. The first iron steamboat and the 
first coal-burning steam locomotive were invented here, too, 
further revolutionizing transportation.
    Hydroelectric dams were built on the river to provide 
power, but they also created major recreation areas that have 
made the Susquehanna a valued place for outdoor recreation of 
all types.
    Our region's Plain People, commonly known as the Amish, are 
nationally recognized for their religious values, simple way of 
life, and well-tended farms. Their unique customs and the 
cultural landscape they have created in our region is of a 
scale that is rare, if not entirely unknown, anywhere else in 
America, and they attract millions of visitors each year.
    A less well known story is our region's role as the seat of 
national government at a critical time during the Revolutionary 
War. The Continental Congress fled to York in September 1777 to 
use the Susquehanna River as a natural barrier to the British 
Army, who had occupied Philadelphia. While in York for 9 
months, Congress adopted the Articles of Confederation and 
Perpetual Union, America's first constitution. I love the 
``perpetual union.'' That's really a cool part of that title.
    Later our region played a key part in the Underground 
Railroad story and local resident James Buchanan, who became 
President, and Congressman Thaddeus Stevens emerged as national 
leaders in the debate over African American freedom.
    The Susquehanna Gateway region is now poised to play a new 
role in the national story. In May 2009, President Obama issued 
an executive order on the Chesapeake Bay calling the bay a 
national treasurer and proposing a substantial Federal role to 
protect and restore the health, heritage, natural resources, 
and social and economic value of the Nation's largest estuary.
    Just last week, the Federal leadership committee created to 
implement the executive order released its strategy for 
protecting and restoring the Chesapeake Bay watershed, a 
nationally coordinated effort to enhance the environment and 
landscapes of the bay, including the Susquehanna River, which 
is the bay's largest tributary. Importantly for our region, the 
strategy proposes a new initiative to conserve treasured 
landscapes of the bay water through broad collaborative 
conservation efforts. We believe the national heritage area 
model is a proven approach for doing just that and S. 349 
provides Congress with ready-made legislation for jump-starting 
this initiative in one of the bay's most treasured and 
significant landscapes.
    Launching this Chesapeake strategy with designation of 
America's newest national heritage area along the bay's 
greatest river, the Susquehanna, will demonstrate a strong 
Congressional commitment to advancing this visionary 
conservation initiative.
    In closing, thank you again for this opportunity to share 
our region's national significance and for the great help of 
Senators Casey and Specter in getting us to this important 
milestone. Those of us in the region know that our home and our 
people have played a special place in America's story and we're 
ready to join Congress and the National Park Service in sharing 
our stories with the Nation. We ask your support for this bill 
and I thank you and welcome any questions or comments.
    [The prepared statement of Mr. Platts follows:]
 Prepared Statement of Mark N. Platts, President, Susquehanna Heritage 
                     Corporation, Wrightsville, PA
    Chairman Udall, Senator Burr, and distinguished members of the 
Subcommittee, thank you for the opportunity to testify today in support 
of S. 349, an act to establish the Susquehanna Gateway National 
Heritage Area in Pennsylvania's Lancaster and York Counties, along the 
scenic and historic Susquehanna River. I am Mark Platts, President of 
the Susquehanna Heritage Corporation, a non-profit organization and 
management entity for the Susquehanna Gateway Heritage Area, one of 
Pennsylvania's twelve state-designated heritage areas. The Susquehanna 
River was recently named by National Geographic as the mightiest river 
on the Atlantic seaboard and Mother of the Chesapeake Bay. As a native 
son of York County, now residing with my family in Lancaster County and 
working everyday on the shores of the Susquehanna, I am proud to come 
before you today to highlight the Susquehanna Gateway region's unique 
and important place in our nation's history and share why this special 
corner of America merits designation as a National Heritage Area.
                 a place with a national story to share
    According to the National Park Service, ``a National Heritage Area 
is a place designated by the United States Congress where natural, 
cultural, historic and recreational resources combine to form a 
cohesive, nationally-distinctive landscape arising from patterns of 
human activity shaped by geography. These areas tell nationally 
important stories about our nation and are representative of the 
national experience through both the physical features that remain and 
the traditions that have evolved within in them.''
    Throughout two centuries of American history, the Susquehanna 
Gateway region has played a starring role in the development of our 
nation's political, cultural and economic identity. Our people have 
advanced the cause of freedom and shared their agricultural bounty and 
industrial ingenuity with the world. Our town and country landscapes 
and natural wonders are visited and treasured by people from across the 
globe. The Susquehanna River has served the nation as a major fishery, 
transportation corridor, power generator and, most recently, as an 
outdoor recreation venue. Our people, land and waterways are essential 
parts of the national story--qualities that exemplify the National Park 
Service's definition of a National Heritage Area.
    The Susquehanna Gateway Heritage Area, originally known as the 
Lancaster-York Heritage Region, has been designated as a Pennsylvania 
Heritage Area since 2001. The Susquehanna Heritage Corporation serves 
as the heritage area's Management Entity and has a nine-year track 
record of successful heritage development activities, particularly 
along the historic Susquehanna River corridor, located at the center of 
the region. We have attracted substantial state and local public and 
private funding support that will more than match potential federal 
funding and we have developed a Strategic Plan with a primary focus on 
creating an economically vital heritage and outdoor tourism asset based 
on the Susquehanna River.
    Designation as a National Heritage Area is an important step in 
advancing heritage development initiatives for the region. National 
recognition will boost visibility and visitation, bring critical 
technical assistance and support to the region, and further highlight 
and promote the majestic Susquehanna River--its scenic and fragile 
river lands, its historic and vibrant river towns, and its special 
significance to the heritage and health of the Chesapeake Bay.
national park service endorsement of our region's national significance
    In 2008, our organization conducted a public involvement and 
planning process that resulted in submittal of a National Heritage Area 
Feasibility Study Report to the National Park Service (NPS) documenting 
our region's qualifications for national designation.
    After NPS staff review of the report, in September 2008 NPS 
Northeast Region Director Dennis E. Reidenbach determined that our 
region ``meets the criteria contained in the National Heritage Area 
Feasibility Study Guidelines for potential Congressional designation as 
the Susquehanna Gateway National Heritage Area,`` and further stated 
that the region, ``with its strategic location along the Susquehanna 
River, colonial history, rich Amish cultural traditions, and 
agricultural heritage, clearly has nationally important resources and 
stories to share.''
    Commenting on our organization's qualifications to manage the 
proposed National Heritage Area, Mr. Reidenbach said ``as a valued NPS 
partner through the Chesapeake Bay Gateways Network and partner in a 
new National Recreation Trail, you have demonstrated your ability to 
build partnerships, attract visitors and bring new recognition to the 
region. Increasing your focus on the lower Susquehanna River presents 
new opportunities to strengthen the unity, vibrancy and identity of the 
region and the Chesapeake watershed.''
    As recognized by the Park Service, our organization is ready to 
serve as the Management Entity for the Susquehanna Gateway National 
Heritage Area. We operate from The John and Kathryn Zimmerman Center 
for Heritage at Historic Pleasant Garden, an 18th century dwelling on 
the shores of the Susquehanna River, right at the heart of the region. 
We are governed by a regional civic leadership Board of Directors that 
provides strategic policy direction and oversight to our work. Our 
Advisory Council includes almost thirty regional agencies, 
organizations, associations, institutions and businesses that also 
provide support and guidance. Our programs and projects have included 
partnerships with many other regional organizations, as well as local, 
state and national agencies. National designation will further enhance 
our ability to preserve, protect and celebrate our area's significant 
heritage resources and stories.
    We are pleased to have National Park Service endorsement of our 
region's qualifications for National Heritage Area designation and our 
place in America's story--and it is quite a story.
           an overview of our region's rich national heritage
    The proposed Susquehanna Gateway National Heritage Area is a rich 
showcase for Pennsylvania's long and distinguished role in the 
development of the United States, and possesses a nationally 
distinctive landscape that contributes to our national heritage.
    The identity of our region, particularly Lancaster County, is 
strongly associated with the Plain People, more commonly known as the 
Amish and Mennonite communities. We are home to America's oldest and 
most densely populated Amish settlement. Their aversion to modern 
conveniences and ability to continue traditional ways in the face of 
tremendous external change and pressure has piqued national and 
international interest for much of the past century.
    Our region is a striking example of William Penn's doctrine of 
religious freedom, upon which Pennsylvania was founded. Attracted by 
the prospect of a life without religious persecution, European 
immigrants--English, Irish, Germans, Scots--settled in the region, 
bringing an assortment of faiths. By the time of the American 
Revolution, Pennsylvania was one of the largest colonies, with highly 
cosmopolitan communities. Some call our region the first American 
melting pot. At one time the edge of the frontier, the region was also 
a major outpost for those moving west.
    The area's prominent role during the Revolutionary War also 
exemplifies its contribution to American freedom. Fleeing Philadelphia 
in 1777, the Second Continental Congress convened in York for nine 
months, using the river as a barrier from the British. In York, the 
revolutionary government debated and adopted the Articles of 
Confederation--``America's first Constitution.''
    The region's story of freedom extends to that of African-Americans 
fleeing slavery. A predominance of anti-slavery sentiment and proximity 
to the Mason-Dixon Line helped make the area a significant part of the 
national Underground Railroad network and home to national leaders in 
the debate over African American Freedom.
    Agriculture is among the most distinct aspects of the Susquehanna 
Gateway region. For centuries the area has been a breadbasket for the 
nation, and its patchwork of cropland is a defining feature of the 
landscape. The region's farms are also a backbone of the state's 
economy. From subsistence farming by Native Americans, to traditional 
cultivation by the Plain People, to modern food production, the region 
possesses rich stories of agriculture's past, present and future.
    In addition to agri-business, for centuries the region has been a 
center for a large and highly diverse collection of manufacturing 
businesses--local and international, small and large, new and old. This 
tradition of design, production and innovation continues. Some examples 
of the goods currently produced in the region are: motorcycles, 
barbells, coffins, paper, pottery, tanks, furniture, wallpaper, 
violins, tapestries, dental prosthetics, hydraulic turbines, and 
cigars. The transporting of goods, which was critical to the growth of 
agriculture and manufacturing, also made the region a center for 
innovation. From the Conestoga wagon to the first iron steamboat to the 
first coal-burning steam locomotive, the area has a rich history of 
transportation ingenuity.
     why the susquehanna gateway region merits national designation
    The research and planning process for development of a Statement of 
National Significance for the proposed Susquehanna Gateway National 
Heritage Area produced major themes that document the region's 
significant place in the national story. These themes reflect events 
and movements that truly represent the American experience. The 
region's significance is also reflected in its many natural and 
historic resources, including one National Natural Landmark, five 
National Historic Landmarks, and 329 sites listed on the National 
Register of Historic Places.
    The region's national heritage themes derive from the central role 
that the Susquehanna River, one of the oldest river systems in the 
world, has played in the history of the area. The four-hundred-and-
fifty-mile-long river, the longest on the East Coast, flows southeast 
through the heart of the Susquehanna Gateway region before it enters 
the Chesapeake Bay in Maryland. Throughout the region's history, the 
Susquehanna has been a unifying element. The natural abundance of 
animal and plant life here long attracted Native Americans, followed by 
European settlers who transformed the landscape from woodlands into 
farms and small towns. The later discovery of coal in the river's 
higher reaches, as well as an industrial boom in Lancaster and York 
Counties, increased commercial traffic on the river. Ever since the 
eighteenth century, both industry and agriculture have coexisted here.
    In the American mind, the area is synonymous with Amish culture, 
and the beautiful rural landscape they created that still exists in 
large parts of the region. Today, those scenic qualities attract 
visitors from throughout the United States and around the world.
    Although agriculture still represents a significant part of the 
area's economy, the industrial base has declined while recreation and 
natural areas have grown. The proposed Susquehanna Gateway National 
Heritage Area, then, has experienced a cycle in which local values 
regarding the uses of the landscape have changed from predominantly 
agricultural to markedly industrial, and more recently to a focus on 
the natural and historical environment. National Heritage Area 
designation will help preserve this nationally important and unique 
landscape.
    The four major interpretive themes developed for the Susquehanna 
Gateway region are therefore focused on the Susquehanna River as a 
national corridor of culture and commerce, the area's roles as a 
gateway to settlement of America's frontier and capital of the new 
nation during the Revolutionary War, the Amish, and the region's place 
in the cause of African American freedom.
      the susquehanna river as a corridor of culture and commerce
    Long before European settlers first explored the Susquehanna River, 
Native Americans lived here. They left traces of their lives in rock 
art at several petroglyph sites as well as in archaeological remains at 
town sites and other locations. Almost 2,900 archaeological sites have 
been recorded in the Lower Susquehanna River basin, about half of which 
lie within the Susquehanna Gateway region with several listed on the 
National Register of Historic Places. When Captain John Smith explored 
the Chesapeake Bay in 1608, he journeyed up the Susquehanna and formed 
a trading alliance with Native Americans, opening a trade network 
extending from the bay to the Great Lakes.
    The natural abundance and richness of the Susquehanna that was so 
attractive to native peoples eventually drew European settlers as well. 
After William Penn received his grant in 1681 and began settling his 
colony, the Susquehanna's fertile valley lured European farmers, 
hunters, and merchants. The first of these settlers arrived in the 
region--at that time America's frontier--about 1710.
    Under Penn's leadership, the region was the locus of a unique 
relationship with the area's original residents. About 1684, Penn 
reserved land on the east bank of the Susquehanna as a refuge for the 
Susquehannock and other native peoples who had been displaced. Known as 
Conestoga Indian Town, the site became an important place for treaty 
making between 1696 and 1762. Benjamin Franklin printed transcripts of 
treaty sessions and a pamphlet denouncing the infamous massacre of the 
Conestoga Indians in 1763.
    The Susquehanna River served the colonists from the beginning as an 
important commercial highway to the Chesapeake Bay. Indian paths here 
were transformed into roads, one of the most important being the Great 
Wagon Road from Philadelphia westward to the frontier. In the 19th 
century, canals and railroads enabled farmers and entrepreneurs in the 
area to ship agricultural and industrial products east and west to 
remote markets. Robert Fulton, inventor of the first commercially 
successful steamboat, was born in Lancaster County in 1765 and his 
birthplace is a National Historic Landmark. York County's John Elgar 
constructed the first iron steamboat in America and launched it on the 
Susquehanna in 1825. In 1831, York Countian Phineas Davis designed and 
built the first practical coal-burning steam locomotive, 
revolutionizing railroad transportation. A York foundry constructed 
both Elgar's steamboat and Davis's locomotive.
    Throughout the 19th century and into the 20th century, rafts and 
canal boats floated down the river to the Chesapeake, transporting 
lumber, iron, and other products to the wider world. In the river's 
towns and hamlets, craftsmen and industrialists established workshops 
and factories that made many of these products. In the 20th century, as 
both industry and river shipping declined, hydroelectric dams were 
constructed to provide power. The dams also created recreation areas 
that made the river a place for diverse outdoor activities, especially 
boating and fishing.
    From a wilderness area to a rural landscape to an industrial 
environment to a recreational haven, the river has undergone 
significant changes over the centuries that are representative of 
similar trends on rivers across the nation. The story of the 
Susquehanna River therefore reflects the American experience, including 
Native American culture, European settlement, the alteration of the 
landscape to rural farmland, the construction of towns, the rise and 
decline of industries, and changes in the use of the river from 
exploitation and commerce to recreation and conservation.
                the amish identity in the american mind
    Because Pennsylvania was established as a refuge for immigrants of 
all religious persuasions, other denominations quickly followed the 
founding Quakers to the colony. Among early settlers were Germans that 
included ancestors of what are today called Amish, Mennonites, and 
others--the ``Plain People.'' Pacifistic and spurning modern technology 
and most worldly things, the Plain People are generally lumped together 
as ``The Amish'' in the popular American imagination. Their religious 
values, ``simple'' way of life, and well-tended farms speak to the 
deepest feelings that Americans have about ourselves and our national 
experience: that virtuous, hardworking, humble people can carve from 
the wilderness a way of life that is respectful of the natural world 
and of their fellow human beings. The Amish seem to personify the 
virtues of faith, honesty, community, and stewardship--perceptions that 
may be based more on myth than reality but still constitute the heart 
of our national image and how we see ourselves when we are at our best.
    The German settlers arriving along the Susquehanna in the 1710s 
cleared farmsteads and made a landscape that today appears to have been 
little altered. In reality, the area is vastly different now in many 
ways, from paved roads to electric lighting to the residential and 
commercial development. Within the rural areas, however, the hand-built 
houses, barns, and other structures, the sizes and patterns of fields 
and woodlots, the varieties of crops achievable with horse-drawn plows, 
and the farming methods used have created a landscape that is unique in 
America.
    Elsewhere in America, commercial farming and mechanization 
epitomize the term ``agribusiness.'' In the Susquehanna Gateway region, 
however, the ancient ideal of the family farm of manageable size seems 
to have been achieved and sustained. Whether or not the landscape 
created and maintained by the Plain People can accurately be regarded 
as typical of the 18th or 19th centuries, it clearly is not of the 
present. To most Americans, it looks like the rural landscape of our 
dreams: farmland as it ought to be, the Jeffersonian ideal brought to 
life.
    Today, the Amish and other Plain People of the region are also 
frequently the subject of considerable sentimentalism, commercial 
exploitation, and intrusive curiosity. Nostalgic longing for an 
imagined ``simpler'' past, ignorance of the dangerous and often 
backbreaking labor associated with farming, willingness on the part of 
some to substitute the imitation for the authentic for the sake of 
profit, and the environmental impact of countless gawkers threaten the 
very thing that people come to see. Commercialism especially endangers 
the landscape.
    A balance must be maintained between sustaining the rural 
environment that visitors want to experience and the fact that the 
community of Plain People is a living, changing one. Some of the people 
are moving from Lancaster County across the river into York and other 
parts of Pennsylvania, pressured to do so because their population is 
growing and farms can only be subdivided to a certain point before they 
become too small to be economically feasible.
    Many Amish are involved in enterprises other than agriculture: 
operating or working in restaurants, baking and canning foods for sale, 
engaging in quilting and other crafts, and constructing wooden garden 
furniture and playhouses. Although these ``nontraditional'' and 
unromantic occupations may disillusion some visitors, such activities 
help offset the economic uncertainty of farming and enable the Plain 
People to sustain their more traditional ways of life, preserving the 
rural landscape for which they have become known throughout the world.
    The Plain People are not unique to this region, but the landscape 
they have created here is of a scale and scope that is rare if not 
entirely unknown elsewhere in America. The people and their landscape 
well represent the national story of American agriculture and the way 
it has transformed the natural environment.
                        gateway to the frontier
    Close on the heels of Pennsylvania's early English and German 
settlers came Scots-Irish immigrants who moved west to the backcountry 
in the 1720s. Many settled in western Lancaster County, where they 
buffered the eastern settlements from the Indians farther west. The 
Great Wagon Road, on which the Scots-Irish and other immigrants 
journeyed west from Philadelphia, passed through Lancaster and York, 
then turned south at the Appalachian Mountains and led to the 
backcountry of Virginia and the Carolinas. By the mid-18th century, it 
was one of the busiest highways in the colonies as immigrants from the 
Susquehanna Gateway region trekked south through the Shenandoah Valley 
of Virginia. They and their descendants populated not only the frontier 
farther south in the Carolinas but also the Appalachian Mountains to 
the west.
    These emigrants from the Susquehanna Gateway region took with them 
two local innovations that attained national renown: the Conestoga 
wagon and the Pennsylvania-Kentucky rifle. The origins of both are 
murky, but the wagon was developed as early as 1716 and was named for 
the Lancaster County area where it was created. Built like a small 
boat, it could transport large cargoes without shifting, thanks to the 
wagon's sloping sides and ends. At first the wagons were used to 
transport produce and goods locally, but they soon were adopted for 
long-range freight shipping and proved vital to the transport of 
supplies into the backcountry well into the 19th century.
    The long rifle was developed by Pennsylvania German gunsmiths in 
the Susquehanna Gateway region by the 1740s. Gunsmiths from 
Pennsylvania through Virginia to North Carolina were soon producing 
them as settlers migrated south. Because of their widespread popularity 
in Kentucky, the firearms later became commonly known as Kentucky 
rifles.
    The emigrants also took with them the vernacular architecture that 
was their common heritage--especially the log dwelling, the stone 
house, and the bank barn--and transformed the backcountry as they had 
the Susquehanna region. Their influence is obvious in Virginia's 
Shenandoah Valley, which owes them much of its built environment and 
landscape, and spread into the backcountry of the Carolinas, the 
Appalachians, and beyond, eventually carrying their cultural influence 
and independent spirit throughout America.
    The Susquehanna Gateway region was a nationally significant gateway 
to the settlement of the ever-moving frontier. In the early 18th 
century, the people developed a vernacular architecture, a host of 
useful and innovative tools for survival and growth, and a sustainable 
system of farming that transformed the landscape here. When subsequent 
generations emigrated to the west and south, they took with them their 
methods of construction, their wagons and rifles, and their 
agricultural techniques to likewise transform much of the rest of the 
country.
                      revolutionary turning point
    During the Revolutionary War, the Susquehanna Gateway region became 
the seat of government for the Continental Congress, the new nation's 
executive body, at a crucial time in the conflict. After meeting first 
in Philadelphia, then Baltimore, and then Philadelphia again, the 
Continental Congress fled to the Pennsylvania frontier in September 
1777, where the Susquehanna River provided a natural barrier to the 
British Army. The British compelled Congress to flee when their army 
occupied Philadelphia after defeating George Washington's troops in the 
Battle of Brandywine. Congress convened for a day in Lancaster, then 
moved west across the river to York, where it remained until June 1778 
when it returned to Philadelphia. While in York, Congress achieved a 
major objective of national significance--adoption of the Articles of 
Confederation and Perpetual Union, the ``first constitution'' of the 
United States of America. Originally presented to Congress for 
consideration in 1776, Congress approved the Articles in November 1777 
while holding its sessions in the York County courthouse and sent 
copies to the states for ratification, which was completed in 1781.
    While Congress concluded debate on the Articles at York, 
Washington's army suffered defeat at Germantown and American general 
Horatio Gates forced General John Burgoyne's British army to surrender 
at Saratoga. Washington and his army huddled for the winter of 1777-
1778 at Valley Forge. In February 1778, France and America signed 
treaties of alliance that the Congress at York ratified in May. Thomas 
Paine buoyed American spirits when he published The American Crisis, 
Number V, in March 1778, in Lancaster, and his letter ``To the People 
of America,'' appeared in the Pennsylvania Gazette in June when the 
newspaper was published in York. With the British evacuation of 
Philadelphia in June, Washington fought them to a draw at Monmouth, New 
Jersey and Congress moved back to Philadelphia.
    Later, in 1781, as the colonies neared success in the struggle for 
independence, an American prisoner-of-war camp was established near 
York in 1781. Known as Camp Security, the facility operated until 1783 
and housed British soldiers who had surrendered at Saratoga. One of the 
few remaining revolutionary prisoner-of-war sites surviving in the 
United States, Camp Security is threatened by development. The American 
Battlefield Protection Program, in its 2007 Report to Congress on the 
Historic Preservation of Revolutionary War and War of 1812 Sites in the 
United States, listed Camp Security as a highly threatened and 
important site.
    The Susquehanna Gateway region is one of only four locations to 
serve as the capital of the United States during the struggle for 
independence. There, during its meetings in York, the Continental 
Congress completed its debates on the Articles of Confederation and 
disseminated it to the states for ratification. The region is therefore 
nationally significant as the birth site of the new nation's first 
governing document. In addition, it was while Congress was in York that 
the victory at Saratoga occurred, the Continental Army matured at 
Valley Forge, and France entered the war as an American ally. This 
often-overlooked moment of American history at York was when the young 
nation turned a critical corner on the road to independence.
                 the cause of african american freedom
    Two additional Susquehanna Gateway stories contribute to the 
region's national significance: the area's part in the Underground 
Railroad and the role that two local residents played as national 
leaders--James Buchanan and Thaddeus Stevens.
    Pennsylvanians, especially Quakers and Plain People, were 
instrumental in development of the Underground Railroad. Those escaping 
slavery arrived by boat, traveling secretly up the Susquehanna River, 
or on foot. They found many residents, both black and white, eager to 
help. Fugitive slave laws passed by Congress in 1793 and with the 
Compromise of 1850 enraged Northerners who opposed slavery. They saw 
the act as a violation of states' rights and the principles of liberty. 
When legislative appeals and litigation failed, some antislavery 
advocates resorted to direct action, hiding fugitives, breaking into 
jails to free them, and even resisting with violence.
    An episode in eastern Lancaster County in September 1851, was one 
of the deadliest instances of violent resistance to slavery and 
provoked a national outcry. It began when ``slave-catchers'' surrounded 
the house of a black man near Christiana. The group included a Maryland 
slaveholder who failed to identify the man as the fugitive being 
sought. Armed local residents soon surrounded the group, shots were 
fired, the slaveholder was killed and his son and several others were 
wounded. More than two dozen black and white men and women were later 
arrested, charged with treason for interfering with the application of 
the law, tried in Christiana, and acquitted. The Christiana resistance 
became a national cause celebre.
    Two national leaders in the Slavery debates of the 1850s-1860s were 
Lancaster residents James Buchanan and Thaddeus Stevens. Buchanan, 
United States President from 1857 to 1861, was regarded as a Northern 
man with Southern sympathies who supported slaveholders' rights and 
despised abolitionists. He also thought secession was illegal, along 
with using military power to stop it. Although most historians conclude 
that his presidency was a failure for not stopping the slide toward 
secession, it is unclear what he could have done to prevent it. After 
Buchanan left office, he returned to Wheatland, his home in Lancaster, 
where he became the first former president to write his memoirs. 
Wheatland is now a designated National Historic Landmark.
    Thaddeus Stevens, born in Vermont, settled in Lancaster in 1815. He 
served in Congress from 1849 to 1853 and from 1859 until his 1868 
death. Ardently antislavery in his convictions, Stevens was active in 
the Underground Railroad and became a leader of the ``Radical 
Republicans'' during the Civil War. He advocated total war against the 
south, was an architect of Reconstruction and the Constitution's 14th 
Amendment, and helped lead the impeachment movement against President 
Andrew Johnson in 1868. After Stevens died in 1868, his body lay in 
state in the Capitol and was buried in a Lancaster cemetery chosen 
because it was not ``limited as to race.'' His house and law office in 
Lancaster are being restored as a museum complex.
    community support for sharing our nationally-significant stories
    Beyond our region's compelling stories of national significance, to 
be considered as a National Heritage Area the National Park Service 
also says that ``...a strong base of local, grassroots support is 
essential...with the visible involvement and commitment of key 
constituencies.'' Public participation has been crucial to the success 
of the Susquehanna Gateway Heritage Area. We have demonstrated that 
strategic engagement of the public is the most effective means of 
raising awareness about the heritage area's mission and goals and 
building a broad base of support.
    Our successful record of public involvement is reflected in strong 
community support for designation of the region as a National Heritage 
Area, with a broad cross-section of regional constituencies providing 
statements of support for national designation in our Feasibility Study 
Report. These include: our Board of Directors, made up of regional 
business, government and civic leaders; the Lancaster and York County 
Boards of Commissioners, representing bi-partisan regional political 
leadership; and our Advisory Council, representing historical societies 
and museums, historic preservation and land conservation trusts, 
downtown revitalization groups, convention and visitors bureaus, 
planning commissions, parks departments, chambers of commerce and 
hospitality businesses. These endorsements reach beyond those signing 
the statements, bridging to thousands of residents and hundreds of 
businesses that their organizations represent across the heritage area.
    We also planned and conducted community meetings to garner input 
about national designation from our strong regional partnership 
network, including residents, government, community groups, non-profits 
and private businesses. These well-attended gatherings helped us look 
at the heritage area through the lens of national significance, define 
the region's unique national stories, identify significant assets and 
demonstrate local support for national designation. The contributions 
received at the meetings proved to be of tremendous value to the 
overall process and produced a clear consensus that National Heritage 
Area designation has strong public support and is the right approach 
for our region.
    The boundaries of the proposed National Heritage Area, which 
include all of Lancaster and York Counties with the Susquehanna River 
corridor at the center, also received strong support from participants 
at the community meetings conducted to discuss the region's potential 
national designation.
   why national heritage area designation is important for our region
    Building on our success as a state heritage area, national 
designation will help expand our activities to a larger, national 
audience and make our stories and resources part of the National Park 
Service interpretive and marketing network. Support for heritage area 
programs--and the recognition that comes with national designation--
will elevate the status of our region and identify the area as a place 
for visitors to experience rich and authentic national history.
    As a National Heritage Area, the many cultural, historic and 
natural resource organizations in the region will also be eligible for 
additional technical assistance and grants, providing much-needed 
support for historic resource conservation, interpretation, education, 
planning and recreational development. Such support will help regional 
partners invest in new interpretive initiatives focused on our 
nationally significant stories, ensuring that the region's impact and 
influence on the nation is shared with residents and visitors more 
effectively. Most significantly, these new resources will help reduce 
the risk of nationally significant resources being degraded or lost.
    National designation will also help create an economically vital 
heritage and outdoor tourism asset based on the Susquehanna River by 
boosting visibility and visitation and bringing new technical 
assistance and support to the area through the National Park Service. 
This will enhance economic development activity centered on heritage 
and outdoor tourism and help the river corridor reach its true 
potential as a place for national learning and recreation.
    As a National Heritage Area, the region will also have greater 
ability to strengthen its powerful network of partnerships, raise and 
distribute funds, and otherwise work to implement heritage development 
goals. For its part, the National Park Service will receive extensive 
leverage for its investment in our work by embracing and incorporating 
into its national system an established, successful heritage area with 
nationally significant stories and resources that will enhance the 
offerings currently available in existing national parks and heritage 
areas.
 our newest place in the american story--a treasured landscape of the 
                             chesapeake bay
    The Susquehanna Gateway region is poised to play a new role in the 
national story. In May 2009, President Obama issued Executive Order 
13508 on Chesapeake Bay Protection and Restoration. This first-ever 
presidential directive on the bay called the Chesapeake a ``national 
treasure'' and proposed an enhanced federal role ``to protect and 
restore the health, heritage, natural resources, and social and 
economic value of the nation's largest estuarine ecosystem.'' The 
Executive Order established a Federal Leadership Committee for the 
Chesapeake Bay that just last week, on May 12, 2010, released its 
Strategy for Protecting and Restoring the Chesapeake Bay Watershed, a 
nationally coordinated effort to save the environment and landscapes of 
the bay and its watershed.
    The Chesapeake Bay Strategy proposes a new initiative by the 
National Park Service to conserve treasured landscapes of the bay 
watershed through partnership areas--broad, collaborative conservation 
efforts in priority landscapes. The National Heritage Area model 
provides a proven approach for doing just that, and the Susquehanna 
Gateway National Heritage Area Act provides ready-made legislation for 
jump-starting this important initiative in one of the bay watershed's 
most historically and environmentally significant landscapes.
    National Heritage Area designation of the Susquehanna Gateway 
region--including our reach of the bay's largest tributary--will 
significantly enhance recognition of the Susquehanna's important 
relationship to the Chesapeake. National recognition of our region--
much of it the scenic, recreational and historical equivalent of a 
National Park only 90 minutes from where we sit today--will provide new 
resources for protecting the river's natural and cultural landscape. It 
will help raise public awareness of the need to improve river and bay 
environmental quality and preserve their natural and cultural heritage 
for the benefit of current and future generations.
    Launching the Chesapeake Strategy with designation of America's 
newest National Heritage Area along the bay's greatest river will 
signal a commitment to this new national initiative.
                               in closing
    Thank you again for this opportunity to share our region's national 
significance with the Subcommittee. We ask for your support and 
advocacy for the Susquehanna Gateway National Heritage Area Act. Those 
of us in the region know that our home and our people have played a 
special place in America's story, and we are ready to join Congress, 
the National Park Service, and the rest of the National Heritage Area 
Network in sharing our stories with the nation. I welcome any questions 
that you and your colleagues may have.

    Senator Udall. Thank you. Your enthusiasm's contagious and 
the history of the Susquehanna region is important and very, 
very significant. As a casual--well, I'd say more than a casual 
student of American history; your recitation of the important 
events reminded me again of the crucial role that the people of 
Pennsylvania played and the region itself did. So I look 
forward to working with you.
    I know Senator Casey would have liked to have been here and 
I know Senator Boxer as well, who had a bill on the agenda.
    The cloture vote's under way. I think I have--I don't 
necessarily want to pick between 3 important testifiers here, 
but I might ask Commissioner Moomaw. You talked about how you 
believe a national monument would increase tourism. How 
significant is tourism to the economy of Archuleta County?
    Mr. Moomaw. Tourism really, tourism is our economic 
priority. The other 2 legs of the economic thing, construction 
and real estate, are also tourism-driven. So we are a total 
tourism-driven economy and we are trying to diversify that, but 
that will still remain our primary economic driver.
    Senator Udall. I would note for the record that Chaco 
Canyon is well known, Mesa Verde is well known. I would 
anticipate that Chimney Rock would become well known. You're 
right, it's a trifecta that once the national monument 
designation is attached I think we'll see even greater travel 
to those 3 sites and greater understanding and knowledge, and 
then the support to the local economy that would result. I look 
very much forward to this becoming a reality.
    I wanted to do something quite unusual. Roy Jones, who was 
not present when I made some comments about him earlier, has 
returned, and he does have a great reach. David Brooks, the 
staff director of the subcommittee, served with Roy over on the 
House side when Roy was the deputy staff director, and 
everything he knows he attributes to Roy. So I want to again 
thank Roy for his public service and his passion for America's 
public lands and special places.
    At some risk, I want to just--Mr. Slavin, I asked Mr. 
Whitesell about the fact that none of the sites in the park 
would be owned by the Federal Government. What do you see as 
the Park Service's role, given that's the plan?
    Mr. Slavin. I would echo what the gentleman said from the 
National Park Service. We're looking to them to be the kind of 
primary sponsor of the park, to guide us with the 
interpretation themes, with some of the standards for 
interpretation. But there are a ready number of volunteer 
organizations and not-for-profit organizations and my own 
division standing at the ready to pick up those interpretive 
programs and put them in place.
    Senator Udall. Mr. Platts, I probably should go, but what 
I'd like to ask you to do for the record is provide some 
examples of the types of activities that your organization's 
been involved in to help care for the historic areas. If you 
would submit those for the record, I'd really appreciate it, 
and I will make a point of learning even more from what you 
submit in addition to your testimony.
    Let me thank you each again for making the trip down to 
your Nation's capital. Some members of the committee may submit 
additional questions in writing, and if so we may ask you to 
submit questions for the record. I know you have no problem 
with that. We'll keep the hearing record open for 2 weeks to 
receive any additional comments.
    With that, again thank you very, very much for taking the 
time, and the subcommittee is adjourned.
    [Whereupon, at 3:51 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Responses of Joel Holtrop to Questions From Senator Murkowski
                                s. 3303
Findings
    Question 1. Please provide the committee with a list of the 
archeological resources and values that will be protected if this 
legislation is signed into law.
    Answer. The proposed monument features archaeological resources 
showing occupation by the late A.D. 800s, with most intensive 
occupation occurring during the Chaco florescence during the Pueblo II 
period (A.D. 900-1150). The Chimney Rock community was on the 
northeastern edge of the larger Chaco world that began to coalesce in 
the late A.D. 900s, and most sites within the proposed Chimney Rock 
National Monument date to the Pueblo II period. Chimney Rock has been 
called the ``ultimate outlier'' as it provides an excellent example of 
a Chacoan outlier; and can provide information on a broad range of 
issues ranging from prehistoric economics to astronomy and their 
interrelationships.
    The Chimney Rock complex is composed of clusters of residential 
structures or ``villages'' and smaller sites which cover the time range 
of 850--1125 A.D. during the Ancestral Puebloan cultural development 
periods defined as Pueblo I and Pueblo II. Eight large villages are 
within the proposed national monument boundary; these are East Slope, 
Stollsteimer, Pyramid Mountain, Ravine, North Piedra, South Piedra, 
High Mesa, and Peterson Gulch.
    The people at Chimney Rock grew corn and beans, hunted animals in 
the region including deer and elk, and gathered wild plants for food 
and medicines. Far away from the river, the high mesa dwellers utilized 
check dams, reservoirs, and diversion ditches to farm and provide 
drinking water. The many resources of Chimney Rock eventually attracted 
the attention of the major Ancestral Puebloan center at Chaco Canyon, 
93 miles to the southwest.
    The population of Chimney Rock seems to have expanded during the 
time when the Ancestral Puebloans built Great House Pueblo on the high 
mesa top. It is believed that Chimney Rock became part of the larger 
Chacoan regional community as an outlier or satellite community during 
the time when Chaco Canyon became a ceremonial center to unify a 
dispersed population through pilgrimage festivals and ceremonial 
rituals. The festivals would have been related to the re-distribution 
of goods (corn, timber, pottery, meat, etc.) and ceremonial rituals 
related to cycles of the Sun and Moon. Chimney Rock itself could have 
been an occasional host to these festivals with its Chacoan Great House 
Pueblo serving as focus. Ancestral Puebloans probably used Chimney 
Rock's pinnacles in the observation of astronomical events called 
``lunar standstills.''
    The Ancestral Puebloans moved away from the Chimney Rock villages 
and the valleys in the 1100's. No later buildings or artifacts have 
been found. Maybe the weather at this location became too cold and dry, 
enemies became too persistent, or resources and farming areas became 
depleted. For whatever reason or combination of reasons, it was time to 
move on.
    Many sites within the proposed national monument have experienced 
virtually no research. The relatively untouched area has many mysteries 
to be unlocked by current and future generations of archaeologists. 
Research questions include the relationship between local peoples and 
the larger Chacoan world; the role(s) of Chacoan outliers; economic 
strategies of the Chimney Rock community; the use of the site by 
Ancestral Puebloan astronomers; how and why the site was abandoned. 
Please see the list of resources within the proposed monument 
boundaries below.
    Question 2. Please provide the committee with a list of the 
geologic resources and values that will be protected if this 
legislation is signed into law.
    Answer. Geologically Chimney Rock and Companion Rock attract 
visitors, and may have been a factor contributing to prehistoric 
settlement in the area.
    Long before humans found the mesas and spires of Chimney Rock, this 
impressive landmark was created by the forces of nature: millions of 
years of slow settling of mud in a shallow sea; gradual drying of the 
sea and migration of beaches and rivers across the ancient basin; 
thick, humid swamps dominated by dinosaurs and giant insects; the 
catastrophic birth of mighty volcanoes and their scouring, deadly 
eruptions; slow but constant uplift and tilting of the land; millenia 
of glaciers and vast floods as the glaciers melted away; erosion of the 
exposed beach sands and ocean-bottom muds (now solidly cemented into 
rock). Chimney Rock's twin spires are entirely natural in origin, the 
erosional remnant of a thick sequence of sedimentary rock laid down in 
the late Cretaceous Period, from about 100-70 million years ago. The 
oldest rocks exposed in the area (to the north of Chimney Rock) are the 
terrestrial and marine-shoreline sandstones and siltstones of the Mesa 
Verde Group; above these beds lies the shallow sea-bottom Lewis Shale, 
which forms the slopes and canyons of the Chimney Rock area. The shales 
are capped by the tidal, beachfront, and river sand layers of the 
Pictured Cliffs Sandstone. It is this unit that forms the mesa tops and 
dramatic stone pillars of the Chimney Rock formation. Erosion proceeded 
to remove the rock layers as they were uplifted. The rising mountains 
to the north and other worldwide climate factors altered weather 
patterns. From the early Pleistocene Epoch (about 2 million years ago), 
glacial periods also affected the climate. It is likely that the 
Pictured Cliffs Sandstone was exposed as a narrow ridge during the 
latest Pleistocene or earliest Holocene, about 100,000 years ago, 
probably as a series of spires and walls and possibly arches. After the 
most recent retreat of the Wisconsin Glaciation (about 15,000 years 
ago), the most active erosion ended, leaving the twin formation we call 
Chimney Rock, standing free of the softer shales and weaker sandstones 
that once surrounded and covered it. Fossils of extinct plant and 
animal communities exposed within the formation reflect biological 
evolution.
    The geologic history of Chimney Rock is not complex, and therein is 
its strength. It is natural history laid bare, easy to comprehend. The 
rock layers are clearly displayed, the sequence of geologic change is 
there for all to see. Chimney Rock's geologic value is the simple, 
beautiful record of one of the most significant and awe-inspiring 
periods of geologic time: the last retreat of the Cretaceous Inland 
Seaway, the end of the dinosaurs and the rise of mammals, the rise of 
the Rocky Mountains, the unfathomable power of the Ice Age glaciers, 
the floods of their fading, and finally the arrival of humans, who 
would lift in their hands a stone 70 million years old, cement it with 
mud from an ocean floor 90 million years old, to build a great pueblo 
beside stone towers carved by nature 50,000 years ago, for a culture 
that came to Chimney Rock 1,000 years ago, to be excavated 80 years 
ago, and admired and studied and pondered today. Such is the span and 
reach of the geology of these spectacular pinnacles, and the story it 
tells.
    Question 3. Is there any potential for the mining of any mineral or 
mineral materials to be developed within the boundaries of the area 
recommended to be made a National Monument?
    Answer. There is potential for: gravel (Andrew G. Raby & John S. 
Dersch, 1997), coal, tight gas sands (Dakota), oil and gas in Dakota, 
and oil and gas in Fractured Mancos Shale Play (Richard E. Van Loenen 
and Anthony B. Gibbson, eds., USGS Bulletin, 2127, 1997). There is also 
deep wildcat potential in Entrada (pers. Comm.., 2001, P. Leschak). The 
Chimney Rock Archaeological Area is currently withdrawn from oil and 
gas leasing; other portions of the proposed monument are already 
predominately classified as NSO (no surface occupancy) in the San Juan 
Public Lands Management Plan Revision and Leasing Analysis released as 
a Draft in 2007 and to be finalized next year. The many significant 
archaeological resources would make large-scale development requiring 
surface disturbance unlikely, as these resources would need to be 
avoided or mitigated.
    Question 4. Are there any mining deposits known to exist within the 
boundaries of the proposed monument that could be utilized in the 
manufacturing of any renewable energy equipment such as solar panels, 
batteries, wind mills, or machinery that could be used to convert 
biomass into heat, electricity, or biogases?
    Answer. No mining deposits that could be utilized in the 
manufacturing of any renewable energy equipment are known to exist.
    Question 5. What is the potential for solar development in the 
proposed monument if the designation is not applied?
    Answer. The area currently has one solar powered restroom facility, 
an indication that solar power can be effectively used on a limited 
basis within the area. Potential for commercial solar development 
within the proposed monument boundaries is limited. The area includes 
many steep slopes which would make development difficult; there is no 
large area flat enough to establish an array of solar receptors. The 
many significant archaeological resources would also make large-scale 
development unlikely, as these resources would need to be avoided or 
mitigated.
    Question 6. Please provide a list of all flora and fauna known to 
exist within the boundaries of the proposed national monument and 
indicate which, if any, are either listed as threatened, endangered, or 
candidate species by either the Federal or State government?
    Answer. The vegetative community around the cuesta is somewhat 
unusual, with some southern desert species located on or near the 
archaeological sites. A species of cholla cactus has been identified at 
the High Mesa site which does not occur naturally outside of the Sonora 
Desert and is suspected to be associated with deliberate cultivation 
practices of the Ancestral Puebloan culture. The long narrow slope (45 
degrees or steeper) flanking the northern edge of the cuesta hosts a 
regenerating forest cover of warm-dry mixed conifer (Colorado blue 
spruce, Douglas fir and Engelmann spruce) typical of the forest cover 
known from soil studies to have been ubiquitous in the area before 
human settlement some 1,000 years ago, but now totally replaced by 
ponderosa pine, juniper, Gambel oak and pinon except for this narrow 
relict vegetation zone. The pinon forest cover itself is of interest: 
it is almost certainly a result of the human occupation, covering a 
small zone on the High Mesa coincident with the High Mesa Village site 
at about 7,200 feet elevation. Dendrochronology studies by the Arizona 
Tree-Ring Laboratory in the early 1990's showed that the mature pinon 
pine trees began growing on the site between 400 and 600 years ago, 
close to halfway back to the Ancestral Puebloan occupation period 
(about A.D. 950 to 1125).
    Broad- and narrow-leaf yucca and other ``desert'' species occur 
across the upper mesa and cuesta. Ponderosa pine with an understory of 
Gambel oak and other shrubs dominates the gentler terrain of the 
rolling foothills surrounding the mesas. Open meadows dominated by a 
mixture of native and non-native grasses are found throughout the area. 
Shrubs such as big sagebrush and rabbitbrush are commonly found in 
these open meadows. Aztec milkvetch, a Forest Service sensitive 
species, is found within the proposed national monument. Other 
sensitive species include Philadelphis fleabane, New Mexico butterfly-
weed, Gray's Townsend daisy, and Violet milkvetch. Areas of high 
biodiversity significance are also located within the proposed national 
monument or nearby areas.
    The area provides habitat for many wildlife species of conservation 
concern and species that are economically and socially important on the 
SJNF. There are 10 Forest Service sensitive species with habitat 
present in the area. Sensitive species with habitat present and season 
of use include American peregrine falcon (spring through summer), bald 
eagle (fall through winter), flammulated owl (spring through summer), 
Lewis' woodpecker (spring through fall), northern goshawk (year-round), 
olive-sided flycatcher (spring through summer), fringed myotis (spring 
through summer), spotted bat (spring through summer), Townsend's big-
eared bat (spring through summer), and Gunnison's prairie dog (year-
round). Peregrine falcons have occupied the area for over 20 years, 
nesting on Companion Rock; the Peregrine falcons can often be seen from 
the Great House area. Bald eagles occupy the area from fall through 
winter feeding largely on big game carrion and fish from the Piedra 
River. Flammulated owls and olive-sided flycatchers are migratory birds 
that breed in the area during summer. The Lewis' woodpecker is a 
primary cavity nester that nests in dead or live trees along forest 
edges. The fringed myotis, spotted bat, and Townsend's big-eared bat 
may utilize the areas rock spires, outcrops, or canyons for roosting, 
while foraging in adjacent grasslands and conifer forests. Gunnison's 
prairie dog is mostly associated with grassland openings on generally 
flat or very gentle terrain. Steep canyons within the area provide 
marginally suitable habitat for the Mexican spotted owl (MSO), a 
federally listed species. MSO surveys have been conducted in the area, 
but there have been no detections to date. State listed threatened 
species include: MSO, bald eagle, and river otter. River otters are 
present in the Piedra River.
    Additional species of interest which could be identified include: 
band-tailed pigeon, black-throated gray warbler, Brewer's sparrow, 
broad-tailed hummingbird, golden eagle, Grace's warbler, gray vireo, 
green-tailed towhee, Lazuli bunting, pinyon jay, prairie falcon, 
Virginia's warbler, and violet green swallow. Four species listed as 
management indicator species and economically important within the area 
are: Black bear, elk, Merriam's turkey and mule deer.
    Question 7. Please provide a five year report on the number of game 
animals taken by hunters within the game management unit(s) within the 
boundaries of the proposed monument?
    Answer. The proposed monument lies within Game Management Unit 
(GMU) 771. GMU 771 encompasses public, private and Tribal lands. 
Hunting on public and private lands is through regulated harvest 
managed by the Colorado Division of Wildlife (CDOW). Hunting on Tribal 
lands is managed by the Southern Ute Indian Tribe via coordination with 
the CDOW. GMU 771 provides year-round habitat for many game animals, 
but is most known for providing winter range for elk and mule deer. The 
most commonly hunted big game animals in the Unit include black bear, 
elk, mule deer, and mountain lion. Merriam's turkey is commonly hunted 
during spring and to lesser extent during fall. Small game species 
present in the Unit include Abert's squirrel, badger, red fox, raccoon, 
ring-tailed cat, striped skunk, long-tailed weasel, short-tailed 
weasel, muskrat, band-tailed pigeon, beaver, bobcat, cottontail rabbit, 
white-tailed jackrabbit, coyote, crow, mourning dove, and marmot.
    The following table illustrates the number of big game animals 
taken by hunters in GMU 771, for all manners of take on public and 
private lands. The data was collected by CDOW and is an estimate of the 
total harvest for the GMU. The table also includes harvest of Merriam's 
turkey across Archuleta County. Although no quantitative data is 
available, GMU 771 likely accounts for at least one third of the total 
turkey harvest in Archuleta County due the large amount of hunting 
occurring in the Unit. Harvest data is unavailable for most small game 
species. Data relevant to small game species is generally limited and 
provided across much larger geographic scales (beyond the GMU 
boundary). Small game hunting across the GMU occurs at a smaller level 
than big game and turkey hunting.
----------------------------------------------------------------------------------------------------------------
                                                     YEAR
----------------------------------------------------------------------------------------------------------------
GAME ANIMAL                                             2005         2006         2007         2008         2009
----------------------------------------------------------------------------------------------------------------
Black bear                                                 *            1            1            3            3
----------------------------------------------------------------------------------------------------------------
Elk                                                      154          210          174          141          148
----------------------------------------------------------------------------------------------------------------
Mule deer                                                322          362          467          369          368
----------------------------------------------------------------------------------------------------------------
Merriam's turkey (Spring Turkey Harvest)               **244        **230        **239        **141        **188
----------------------------------------------------------------------------------------------------------------
Mountain lion                                              1            2            *            3            0
----------------------------------------------------------------------------------------------------------------
 *No data available
 **Information reported for Archuleta County.


    Question 8. Please provide a list of any streams or lakes within 
the boundaries of the proposed monument area as well as an assessment 
of fishing opportunities within the area?
    Answer. No streams or lakes are located within the proposed 
monument boundary.
    Question 9. Please provide a list of each of the cultural resources 
found within the boundaries of the proposed monument?
    Answer. The following table shows archaeological resources that 
have been recorded within the boundaries of the proposed monument. Over 
150 sites have been identified within the proposed monument boundary. 
Many areas within the proposed boundaries have no or limited survey and 
additional resources could be found within the proposed monument.
    Archaeologists generally use two determinations of eligibility, 
``eligible'' and ``not eligible,'' as laid out in the National Historic 
Preservation Act. However, for a variety of reasons, some sites are 
considered ``unevaluated'' or ``needs data.'' In some cases these sites 
were recorded prior to the National Historic Preservation Act (NHPA) or 
were not documented adequately to support a recommendation of 
eligibility. The Forest Service as a whole is trying to re-evaluate all 
``unevaluated'' or ``needs data'' sites in our system. As projects 
occur within the Chimney Rock Area, we have been re-evaluating 
``unevaluated'' resources. Within the last five years, approximately 20 
sites within the area have been re-evaluated. There is clearly more 
work to do. We expect to continue working on evaluating the backlog of 
unevaluated resources as projects occur within the area and as time 
permits. At this time, there is no plan to address the remaining 
``unevaluated'' sites in a single project.

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
    Question 10. Please provide a list of existing or planned 
educational opportunities found within the boundaries of the proposed 
monument?
    Answer. The Chimney Rock Interpretive Program (CRIP) is managed and 
staffed by the National Forest Service and volunteers of the Chimney 
Rock Interpretive Association (CRIA). CRIA is a pan-tribal non-profit 
group whose volunteers offer education and interpretation. CRIA 
conducts daily guided walking tours and operates the Visitor Center 
during the primary use season, May 15 to September 30. There are four 
walking tours daily; these tours last 2 to 2.5 hours and focus on the 
sites located on Chimney Rock Mesa. In addition to the four daily 
walking tours, there are special evening programs twice per month, a 
``full moon'' program featuring Native American musicians and a 
discussion of the archaeo-astronomy of Chimney Rock and a ``night 
skies'' program which discusses archaeo-astronomy, and planetary and 
stellar astronomy. An early morning tour is also held at the summer 
solstice to provide the opportunity to view summer solstice alignments. 
Additional tours are conducted for larger groups, particularly school 
groups; CRIA has an outreach program to local schools where CRIA 
volunteers help prepare students for their fieldtrip to Chimney Rock by 
visiting the schools and conducting educational programs. An annual 
program, ``Life at Chimney Rock,'' is designed to allow visitors 
(particularly families) to experience aspects of Puebloan life by 
providing opportunities to grind corn, make ceramics, process yucca, 
and throw an atlatl. Monthly meetings featuring speakers discussing 
local archaeology are also held. Currently preparations for a (2011) 
symposium on Chimney Rock and Chacoan Archaeology are underway. The 
possibility of CRIA hosting online educational materials on Chimney 
Rock is being investigated. Geology tours occur at Chimney Rock 
annually. Special tours were offered during the lunar standstill (2004-
2008) so that visitors could view the moon rising between the 
pinnacles. Native American dances, organized by Friends of Native 
Culture, have been held at the site annually for the last 16 years. 
Research at the site (e.g., multiple surveys, fill reduction 
excavations conducted by the University of Colorado, architectural 
documentation at the site, and geophysical survey conducted by Colorado 
School of Mines) also provides educational opportunities to university 
students.
    The management plan in the bill would address the issue of 
educational programs and opportunities.
    Question 11. Please provide a list of each of the recreational 
activities that currently occurs within the proposed monument and an 
assessment of whether recreational uses will increase of decrease for 
each activity if the monument is designated?
    Answer. (see table).
------------------------------------------------------------------------
                                                 Recreational Use if
              Current Activity                    National Monument
------------------------------------------------------------------------
Archaeological Visitation/Interpretation     Increase
------------------------------------------------------------------------
Astronomical Interpretation                  Increase
------------------------------------------------------------------------
Geological Interpretation                    Increase
------------------------------------------------------------------------
Hiking                                       Increase
------------------------------------------------------------------------
Bicycling                                    Same to minor increase*
------------------------------------------------------------------------
Hunting                                      Same to minor decrease*
------------------------------------------------------------------------
Horseback Riding                             Same to minor increase*
------------------------------------------------------------------------
Cross Country Skiing                         Same**
------------------------------------------------------------------------
Snowshoeing                                  Same**
------------------------------------------------------------------------
 *predominately local visitors
 **predominately local visitors; could decrease if road was kept open
  year-round


    Question 12. Please provide a list of new recreational activities 
that could occur within the national monument (if designated) and 
whether or not the new uses would reduce similar recreational 
activities on non-monument lands in the area?
    Answer. None anticipated. The management plan in the bill would 
address the issue of recreational opportunities.
    Question 13. Please describe each of the visual resources that can 
be seen within the monument (if designated) and whether similar visual 
resources exist within the county or counties where the proposed 
monument is located?
    Answer. See questions/answers 1, 2, 6, 9, 20, and 21. There are no 
similar visual resources within the county that exists.
    Question 14. What exactly are the scenic values within the proposed 
national monument?
    Answer. See questions/answers 1, 2, 6, 9, 20, and 21.
    Question 15. Does the forest have a scenic value rating system, and 
if so, how do the scenic values within the proposed monument compare to 
those within the surrounding National Forest?
    Answer. Yes. On lands administered by the Forest Service, the Draft 
Land Management Plan identifies five Scenic Integrity Levels (SIL) 
through the Forest Service Scenery Management Plan: (Very High SIL, 
High SIL, Moderate SIL, Low SIL, and Very Low SIL). Scenic classes and 
constituent information about landscape values are used to determine 
the extent, quality, and location of desired scenery conditions. 
Generally, Very High or High Scenic Integrity levels are assigned to 
Wilderness and other congressionally designated areas. Other 
surrounding management areas will be assigned a scenic integrity level 
that is consistent with the desired condition. Scenic integrity is used 
as a measure of existing scenic condition. The existing Chimney Rock 
Archeological Area is rated as ``High.'' This refers to landscape where 
the valued landscape character appears intact. Deviations may be 
present; however, they must repeat form, line, color, texture, and 
pattern common to the landscape character so completely, and at such 
scale, that they are not evident. The majority of the remaining area 
within the proposed National Monument boundary is also rated as 
``High.'' The area to the west referred to as Peterson Mesa is rated as 
``Moderate''--this refers to landscapes where the valued landscape 
character appears slightly altered. Noticeable deviations must remain 
visually subordinate to the landscape character being viewed.
    Question 16. What existing expertise does the Forest Service have 
to interpret this resource of this proposed monument for the public?
    Answer. The Forest Service together with local volunteers has been 
interpreting the site for the last 16 years. The Forest Service has 
many professionals on staff with experience in interpretive programs 
and archaeology. For example, the current District Archaeologist holds 
a Ph.D. in Anthropological Archaeology, has worked in archaeology for 
over 25 years, has served as a college professor, has been certified as 
a teacher at the primary and secondary level, and has helped develop 
educational programs (as part of this and previous jobs). The San Juan 
National Forest and Southwestern Colorado BLM units (including Canyons 
of the Ancients National Monument) are managed jointly out of the 
Public Lands Center (Durango). Personnel managing the site already meet 
with other professionals managing Chacoan Sites (e.g., from Chaco 
National Park the BLM) annually as part of the Chacoan Interagency 
Management Group. These meetings discuss interpretation and other 
issues of site management.
    The Forest Service and CRIA have worked together to develop a 
handbook for interpreters and conduct a two-day annual orientation for 
all volunteers at the site. Many volunteer tour guides have been 
working at the site for many years (some since interpretation at the 
site began 16 years ago). Mentoring and monitoring programs are in 
place to assure that visitors are offered quality interpretation. 
Visitor comments at Chimney Rock indicate that many visitors feel the 
interpretive program at this site compares favorably to those at other 
local sites (e.g., Mesa Verde and Aztec Ruins).
    Question 17. How many and what would the cost of hiring the 
additional interpreters to provide the 7 days a week interpretive 
services proposed for this monument?
    Answer. Up to this point, the interpretive program at Chimney Rock 
has been largely staffed with volunteers. Tours at the site are 
currently provided by the CRIA, a non-profit organization with over 70 
active volunteers. CRIA conducts interpretive activities at the site 
under a Special Use Permit for Campground and Related Granger-Thye 
Concessions. CRIA works very closely with the Forest Service in 
providing services and training interpreters. They collect minimal fees 
and sell some items (e.g., t-shirts and books) to help meet their 
costs. The services provided by the volunteers at Chimney Rock last 
year are valued at over $250,000. The San Juan National Forest made 
this valuation, based on the number of hours that volunteers put in at 
the site and the approximate pay-grades that would have been required 
to accomplish the same tasks (GS 03 to GS 09).
    Although some staffing needs might develop were the site to become 
a National Monument, the Forest Service would anticipate continuing to 
work with our dedicated volunteers to provide services at Chimney Rock 
into the future. Ultimately, management and staffing decisions would be 
addressed in the management plan required by the bill, but will be 
limited to existing resources upon enaction
    Question 18. Will this proposed monument need additional facilities 
such as an interpretive center or upgrades to existing facilities, if 
so, what will be the cost to build these new or improved facilities?
    Answer. The CRIA has developed a long-term wish list of site 
facilities. The wish-list includes: an interpretive center capable of 
displaying artifacts, a parking lot (near the lower parking area) with 
additional RV parking, improvements to the lower restrooms including 
running water, shuttle service from the lower parking lot area to the 
sites, hiking trails near the lower parking area, construction of a 
pithouse near the lower parking area, hiking trail from lower parking 
to the site, upgraded signage, some shade and/or benches on the upper 
trail, hand rails on a difficult portion of the upper trail. While the 
local interpretive association has put together a logical set of needed 
improvements, the management plan to be prepared by the Forest Service 
would ultimately address which (if any) of these site improvements 
within the confine of existing resources, if enacted would be pursued.
    Question 19. Given the archeological resources sited in the 
findings of this bill; why shouldn't this monument be turned over to 
the Park Service for inclusion in the National Park System?
    Answer. Managing cultural resources falls within the Forest Service 
mandate and is well within our capabilities. Our management of Chimney 
Rock, particularly our collaboration with the non-profit Chimney Rock 
Interpretive Association and volunteers, has helped the site gain the 
recognition and the reputation it currently has as an interpretive area 
and demonstrates our ability to manage the archeological resource. The 
Forest Service currently manages six national monuments (one jointly 
with the BLM). The proposed Chimney Rock National Monument falls within 
our San Juan Public Lands offices where the San Juan National Forest is 
jointly managed with Bureau of Land Management-administered lands under 
the authority of Service First. The San Juan Public Lands offices 
include BLM's Canyons of the Ancients National Monument, meaning that 
this particular administrative unit already has a great deal of 
experience in managing world-class archaeological resources. The San 
Juan National Forest would continue to manage lands adjacent to the 
proposed Chimney Rock monument. Many visitors to the site provide 
comments expressing their appreciation for a management and 
interpretive approach that provides an alternative to regional National 
Park Service units.
    Question 20. Please provide the Committee with a detailed 
description of the specific geological and astronomical time resources 
within the proposed monument and describe how the Forest Service would 
interpret the astronomical time resources to the public?
    Answer. Geological features, astronomy, and archaeology intersect 
at Chimney Rock. The dramatic pinnacles of Chimney Rock and Companion 
Rock probably were a draw for prehistoric people. These geologic 
features are visible from all puebloan site groups (villages) 
identified within the proposed monument. It has been suggested that the 
proximity to the pinnacles and alignments viewed through them is one 
reason for the Chacoan influence at Chimney Rock.
    The importance of astronomical alignments, and thus views, within 
the Chimney Rock Archaeological District (5AA985) has been explored by 
many researchers. Important alignments recognized by the Ancestral 
Puebloans are expressed in the built environment. The best known 
archaeo-astronomical alignment at Chimney Rock is the (northern) lunar 
standstill, during which the moon rise can be seen between the 
pinnacles (Chimney and Companion Rocks) from the Great House Pueblo; 
the lunar standstill would have occurred at 18.6 year cycles and the 
two recognized construction phases at the Great House Pueblo (5AA83), 
in AD1076 and AD1093, coincide with lunar standstills. Other recognized 
alignments include alignments marking the summer and winter solstice 
and the fall and spring equinox. The ``sun tower'' was probably a solar 
observatory marking the winter solstice over the east slope. From the 
stone basin, the Ancestral Puebloans could watch the sun rise over the 
north wall of the Great House (5AA83) on the summer solstice. Viewed 
from across the Piedra River, at the C-Block Pueblo on Peterson Mesa, 
the sun would have risen between Chimney Rock and Companion Rock on 
both the spring and fall equinoxes. Another recognized alignment is the 
south wall of the Great House (5AA83) with the Crab Nebula (1054 A.D.), 
as viewed from the stone basin.
    The archaeo-astronomy of Chimney Rock is currently discussed during 
standard site tours. Special tours are offered during alignments when 
the site is accessible. Special tours are offered at the summer 
solstice. Special tours were also held during the northern lunar 
standstill (2004-2008). The archaeo-astronomy of the site is also 
discussed during ``Full Moon'' and ``Night Skies'' events (offered 
monthly during the operating season). Astronomy, in a more general 
sense, is the focus of the ``Night Skies'' event; telescopes are 
positioned in and near the upper parking lot during this event. Chimney 
Rock continues to be in an area with comparatively low light pollution, 
rendering the site a prime location for star gazing.
    Although specific management of the site would be addressed in the 
management plan, these types of interpretive opportunities would 
continue. Additional events (e.g., winter solstice and fall and spring 
equinox events) could be added.
    Question 21. Please describe in detail the geology, ecology, and 
prehistoric archeology within this proposed monument, how they relate 
and differ to the same resources in the surrounding area?
    Answer. The Chimney Rock area is unique within the surrounding 
area. The Pueblo II sites within the proposed monument don't occur 
across a large surrounding area; the visually striking geologic 
pinnacles are within the proposed monument; the ecology, while 
generally similar to the larger area, has been culturally modified.
    There is a concentration of Pueblo II (A.D. 900-1150) sites within 
the proposed monument (and immediately adjacent private and tribal 
lands). This concentration, mostly within a mile of Chimney Rock Mesa 
and within view of the geologic pinnacles, is unique. This 
concentration of Pueblo II sites is the largest concentration of such 
sites located in the Upper San Juan Basin. The Pueblo II occupation is 
considered a Chacoan outlier and is located 150 km from the rim of 
Chaco Canyon and 72 km from Aztec Ruins. The area is the northeastern 
most and most isolated Chacoan settlement, and appears to have been 
among the earliest outliers constructed. The site differs from other 
Chacoan settlements in that it is located in a montane setting, rather 
than in the more typical desert environment.
    The geologic resources within the proposed monument includes the 
pinnacles (Chimney Rock and Companion Rock); while the geologic 
processes which formed these features are not particularly complicated 
and are similar to those experienced across the larger area, the 
features themselves are a spectacular marker on the landscape. The 
exposure of these features lays bare the processes which formed them. 
It is these geologic resources which probably attracted ancient 
settlers into the area.
    At its peak, well over 1000 people could have lived within the 
Chimney Rock village groups. These people engaged in agriculture, 
producing crops of corn, beans, and squash. Agriculture required the 
construction of check dams to help provide water. The people also 
hunted wild game and seem to have harvested timber during the spring 
and summer (most timbers used by Ancestral Puebloans was cut during the 
winter). It has been proposed that some of the resources produced at 
Chimney Rock were exported to Chaco Canyon, although research needs to 
continue in this area. It is possible that game meat, agricultural 
products, and/or timber (a key research question given the lack of 
large sources of timber near Chaco) would have been exported.
    Part of what makes Chimney Rock interesting is that the 
archaeological resources are grouped in such a compact area and that 
interrelationships between culture, geology and the natural world can 
be studied in a setting which has not been substantially re-settled 
since the Pueblo II period, leaving appreciable evidence available to 
researchers.
    Question 22. What studies have occurred within the area that has 
not been carried out at other archeological sites in Southern Colorado 
and Northern New Mexico?
    Answer. The proposed Chimney Rock National Monument contains the 
``Ultimate Outlier'' of Chaco Culture - the Chimney Rock Great House 
and associated sites. These sites which were part of the Chaco Culture 
from 1076 to 1125 CE contain all the architectural and material culture 
hallmarks which characterized Chaco Culture, yet incorporated unique 
and outstanding landscape and archaeo-astronomical features which are 
representative of a wider-Chacoan ``world view.'' Among those sites 
identified as Chacoan outliers, the Chimney Rock Pueblo is 
distinguished by being the most isolated, the highest, and the most 
remote from arable land. (Malville and Putnam, 1993).
    In addition to these distinctions, Chimney Rock is uniquely tied to 
the essence of Chaco Culture. ``Because of its geographic and 
astronomical uniqueness, Chimney Rock may have developed into a  . . 
.ceremonial center within the Chacoan regional system to which people 
periodically traveled to conduct ceremonies and reaffirm social 
solidarity.'' (Malville, 2004 p. 17). As stated in the Chaco Culture 
National Historical Park World Heritage Nomination, ``Complex religious 
ceremony permeated the Chacoan's daily lives, thus reinforcing the 
system's effectiveness. Religious features were integral components of 
all Chacoan communities'' (1987). Chimney Rock Great House with its 
twin spires and astronomical alignments integrated these religious 
features in the most dramatic fashion.
    Chimney Rock may be the key to providing greater insights into the 
Chaco Culture. Questions are still unanswered as to the organization of 
Chacoan society and source of its apparent power which created 
monumental architecture and a remarkable regional system. Judge and 
Malville (2004) have hypothesized that some of the power possessed by 
leaders living in Chaco Canyon may have come from their possession of 
``esoteric'' astronomical knowledge, some of which may have been 
acquired at Chimney Rock. The spectacular sunrises and moonrises 
visible from the Chimney Rock Great House may have established Chimney 
Rock as a source of calendrical information.
    If regularly scheduled regional festivals were held in Chaco 
Canyon, at which a dispersed population gathered on specified days, a 
regional calendar with an accuracy of one or two days was necessary. 
Calendrical information could have been visually communicated from the 
Chimney Rock Pueblo to Pueblo Alto via Huerfano Mountain, as has been 
demonstrated by Freeman et. al. The observation methodology of the 
astronomical calendar and the communication capabilities between 
Chimney Rock and Pueblo Alto may have been important elements in the 
management of the regional system. (Judge and Malville, 2004 p. 17)
    Chimney Rock shares many of the same architectural and cultural 
attributes as other Chacoan Outliers. However, in many respects it is 
more exciting than other Outliers, because its integration with the 
spectacular landscape, archaeo-astronomy features, and what it speaks 
to us of the Chacoan World. Lekson (2004) makes a compelling argument 
as to why Chimney Rock is the ``Ultimate Outlier,'' and how 
understanding Chimney Rock enriches and clarifies our understanding of 
the Chaco Culture:
    Chimney Rock is at the edge, on the periphery of the Chaco world. 
What does the periphery tell us about Chaco as a center? There were 
other Chaco style sites, but Chaco was many times larger and 
incomparably grander that any 11th century outlier. Chaco alone is 
simply an anomaly, a pathology, an aberration. Within a region, Chaco 
becomes something like a capital. With the rise and fall of roads, 
outliers define the region. But close, in-lying outliers lack 
descriptive clarity and rhetorical force. Many Great Houses, surrounded 
by a murky sea of smaller unit pueblos, escaped detections through 
decades of archaeological scrutiny. It takes a blatant ringer way out 
on the edge like Chimney Rock to validate all the humdrum, cookie-
cutter outliers that fill our maps with dots.Patterns show clearest 
against contrasting backgrounds. Perched on the far periphery, where 
backgrounds contrast the most, Chimney Rock validates the center.
    Chimney Rock is one of the strongest patterns in a robust Chacoan 
pattern, and the research possibilities are the more promising for it. 
This dramatic and isolated place invites some interesting thinking 
about design, semiotics, and cognition, because its configuration and 
relationships are so strong. (Lekson, 2004 p.viii).
    Chimney Rock, unlike many Southwestern prehistoric sites, is unique 
in that it was not occupied before the Chacoan Phase, and it was not 
occupied after abandonment. Nor has it been vandalized. Therefore, it 
is a well defined and preserved ``time capsule,'' presenting an 
``uncontaminated'' snapshot of Chacoan culture at its height, without 
the obscuring layers of earlier or later habitation found at so many 
other sites.
    A clear vision and appreciation of Chaco Culture is not possible 
without Chimney Rock. The Chimney Rock Great House, Great Kiva, Stone 
Basin site, and the Chimney Rock Pinnacles are as equally or better 
preserved than most Chacoan Outliers and the complex of sites around 
Chimney Rock represents an unparalleled opportunity for exploring the 
complex dynamics of an outlier complex.
Referenced Materials
          Judge, W. J., and J, M. Malville
                  2004.--Calenderical Knowledge and Ritual Power. In 
                Chimney Rock.- The Ultimate Outlier. J. M. Malville, 
                editor, pp. 151-162. Lexington Books, Rowan and 
                Littlefield Publishers, Boulder Co.

          Lekson, Stephen H.
                  2004.--Chimney Rock: The Ultimate Outlier. In Chimney 
                Rock: The Ultimate Outlier. J. M. Malville, editor, pp. 
                vi-viii. Lexington Books, Rowan and Littlefield 
                Publishers, Boulder Co.

          Malville, J. McKim
                  2004.--The Ultimate Outlier. J. M. Malville, editor, 
                Lexington Books, Rowan and Littlefield Publishers, 
                Boulder Co.

          Malville, J. McKim and Claudia Putnam
                  1993.--Prehistoric Astronomy in the Southwest. 
                Johnson Books, Boulder.

    Question 23. Please provide the Committee with a detailed 
description of what opportunities are available at this site to 
``enhance the understanding ...Ancestral Puebloans'' that is not 
available at other similar already protected areas like Mesa Verde or 
Chaco Canyon?
    Answer. Chimney Rock is a Pueblo II site dating to (AD 950 - 1150); 
this is contemporaneous with Chaco Canyon. Mesa Verde, while also 
linked to Ancestral Puebloans, is not part of the Chacoan phenomenon 
and was inhabited after Chimney Rock and Chaco Canyon were abandoned; 
Mesa Verde was at its peak during the 13th Century. Chimney Rock is the 
northeastern-most Chacoan outlier; it was recognized as a Chacoan 
Outlier in the Chacoan Sites Protection Act (1992). Aztec Ruins, 
another Chacoan site located nearby, is interpreted as having been 
built by social elites moving out of Chaco and reflects migration. The 
Chimney Rock area reflects how a local population was drawn into the 
Chacoan phenomenon. The complex offers us an opportunity to study how 
and why Chacoan influence extended into outlying areas and how, in 
turn, this community was integrated into the Chacoan world. The 
economic relationship between the resource-rich Chimney Rock area and 
resource-poor Chaco Canyon is one interesting avenue of study; the 
astronomical (and possibly religious) significance of Chimney Rock 
within the larger Chacoan world is also worthy of further study.
Establishment provision
    Question 24. Please provide the Committee with a description of how 
and why the proposed designation will preserve the existing 
anthropological, geologic, hydrologic, biological, visual and scenic 
resource more than the current land management designation for the area 
does?
    Answer. The Forest Service may change the administrative 
designations. A National Monument designation can only be changed by an 
Act of Congress. As currently proposed, the national monument would 
also encompass a larger area, bringing Peterson Mesa, where the 
important Peterson Gulch site group is located, into the area managed 
for its cultural resources. The Chimney Rock Archaeological Area 
(CRAA), encompassing a portion of the proposed monument, was initially 
defined as a Special Interest Area with archaeological resources under 
regulation U3 (regulation/designation since revoked). The CRAA is 
currently managed as a 10C area, a revocable Forest Service 
Administrative Designation, and is recognized within the Forest Plan. 
Although the Forest Service has recognized and managed the Chimney Rock 
area for its archaeological resources since the 1970s, changes in 
management direction in the future could modify our ability to protect 
the resources within the proposed monument boundaries from development 
(e.g., mineral development). A portion of the proposed monument area is 
currently protected using our management designation; these 
designations have helped set the area aside from development, allowing 
us to manage it as the special area that it is. The entire area is 
subject to current federal law (e.g., National Historic Preservation 
Act, Archaeological Resources Protection Act, National Environmental 
Policy Act, etc.). Designation as a monument would recognize the 
importance of the Chimney Rock area and facilitate cohesive long term 
management/protection of the entire area.
    Question 25. Please provide the Committee with a description of how 
and why the preservation of the existing anthropological, geologic, 
hydrologic, biological, visual and scenic resource will help the public 
more fully realize the resources listed above?
    Answer. The resources at Chimney Rock are interconnected. 
Preserving the associations of these resources helps maintain the 
integrity of setting and feeling of the archaeological resources. How 
can a visitor fully realize the archaeo-astronomical alignments within 
the area without maintaining the geologic (and scenic) values? Other 
aspects of setting (e.g., our forested slopes) help visitors understand 
the differences between this area and other parts of the Chacoan world; 
helping them identify with why this area could have been important 
economically. Our wildlife also enhances visitor experience at the 
site; a pair of peregrine falcons nest on Companion Rock; watching 
these birds teach their fledglings how to fly and hunt has become a 
visitor (and interpreter) favorite. The interconnections between the 
resources at Chimney Rock enrich visitors' ability to understand the 
archaeological resources and enhance visitors' experience with 
beautiful scenery and entertaining wildlife. Please see questions 1, 2, 
6, 20 & 21.
    Question 26. If not designated, what would be the impacts on each 
of the listed resources (please be as specific as possible).
    Answer. See Question #24.
    National Monument status would provide enduring protection. 
Designation might also serve to focus management, public, and 
scientific interests on the area, furthering our knowledge of and 
ability to protect the resources listed. Specific impacts are unknown; 
threats are ever-changing.
    Question 27. What will be the cost to the Forest Service of the 
preservation, restoration, and protection of the existing 
anthropological, geologic, hydrologic, biological, visual and scenic 
resources within the proposed monument, if it is designated by 
Congress? Please provide an estimate of the cost for each five year 
increment of the next 25 years.
    Answer. Until a management plan is developed, no specific costs for 
preserving, restoring, and protecting the resources within the proposed 
national monument can be estimated. Current costs associated with the 
facility average $485,000 per year; this figure does not include 
volunteer time valued at approximately $250,000 per year. Current costs 
for running the area include maintenance of facilities (e.g., 
restrooms, roads, and parking lots), site stabilization (including 
architectural documentation, moisture monitoring, and wall 
stabilization), management and archaeological support, and other costs 
associated with managing the area (e.g., fuels reduction projects).
Vegetation Management
    Question 28. The bill restricts vegetative management to those 
other than timber harvest; is there any commercial timber within the 
proposed monument?
    Answer. There is commercial timber within the proposed monument but 
it is not within the timber management emphasis area as defined in the 
current San Juan National Forest Resource Management Plan (1992). Given 
the terrain of the area, only a small portion of the proposed monument 
has road access that would allow harvesting of timber.
    Question 29. As the Forest Service reads this bill will it be 
allowed to use chaining or other mechanical means such as disking, to 
reduce fuels?
    Answer. Section 6(b) allows ``vegetative management treatments 
within the National Monument, except that timber harvest and prescribed 
fire may only be used to address the risk of wildfire, insects, or 
diseases that would endanger the National Monument or imperil public 
safety.'' The Forest Service interprets this to mean that mechanical 
means of managing vegetation would be allowed.
    In order to manage for healthy forests and reduce the risk of 
severe fire and/or insect-caused mortality, it will be necessary to 
conduct thinning with some periodic removal of timber or biomass. 
Reducing the risk of severe wildfire is a critical factor in protecting 
the area's cultural resources. The Forest Service will continue to use 
all measures to facilitate fuels reduction that are consistent with 
current law. Some form of mechanical fuels reduction will be necessary 
given that prescribed fire is not an option in portions of the proposed 
monument, due to unsuitable terrain and the density of sensitive 
archaeological resources.
    Question 30. Given past fires at Mesa Verde, what is the likelihood 
of the Forest Service using prescribed burns to manage vegetation at 
the monument, if it is designated?
    Answer. It is highly likely that the Forest Service will use 
prescribed fire to manage vegetation in the monument. We are currently 
preparing two burn plans in the Chimney Rock Archeological Area. One of 
those is a multi-agency burn with the Southern Ute Agency of the Bureau 
of Indian Affairs. These burns are part of a comprehensive fuels and 
forest health management plan for the area.
    Question 31. What is the fuel loading and fuel conditions within 
the bounds of the proposed monument at this time?
    Answer. Fuel loading within the boundaries of the proposed monument 
is moderate to high at this time. Vegetation types within the proposed 
monument include grassland, mountain shrublands, pinon-juniper 
woodlands, ponderosa pine and mixed conifer forests. Most of this 
vegetation (with the exception of pinon-juniper) is classified in Fire 
Regime I or II, that is, historically fires burned through it 
frequently (generally less than 30 years). In the ponderosa pine 
forests, historical fires were low intensity understory burns that 
occurred every 5 to 30 years. No fires larger than a few acres have 
occurred in the CR area in over 100 years. As a result surface fuels 
are very high, especially in the ponderosa pine and mixed conifer 
forests. In addition, Rocky Mountain and Utah juniper, two woodland 
species that are highly flammable, have been encroaching into the 
ponderosa pine forests as a result of fire exclusion and have added to 
the fire hazard and fuels load. Mixed conifer forests are becoming more 
dominated by low-fire resistant Douglas-fir while the more-fire 
resistant ponderosa pine is declining. Shrublands are dense with large 
amounts of dead and decadent fuel. Grasslands have low fuel loading as 
a result of past overgrazing, but invasive species (in particular 
cheatgrass) are present in the grasslands and increase the fire hazard. 
Recent vegetation management treatments have mitigated some of the fuel 
loads and fire hazard (see the next item), however much remains to be 
done to restore health to the plant communities and reduce the risk of 
uncharacteristic fire.
    Question 32. Has the agency done any vegetation management or fuels 
management within the proposed boundaries of the monument in the last 
20 years? If so how much, where, and at what cost?
    Answer. Prior to 2000, very little vegetation management was done 
within the boundary of the proposed monument. In 2003 the Forest 
Service began preventative spraying of pinon pine trees to protect them 
from pinon ips, a bark beetle that killed pinon trees on millions of 
acres in the Four Corners area from 2003 through 2006. Spraying 
occurred on high value trees along the access road, adjacent to 
archeological sites and near the visitor center in 2003 and 2005 at a 
total cost of approximately $30,000. In 2004 Forest Service crews 
thinned 28 acres near the visitor center and along the access road. 
Slash from the thinning was piled and later burned at an estimated cost 
of $14,000. In 2008 a total of 414 acres were mechanically treated with 
mastication equipment to thin the forest and remove understory shrubs 
and ladder fuels. Treatments occurred primarily in ponderosa pine 
forests on the north and east sides of the Chimney Rock Archeological 
Area at a total cost of $210,024. In 2009, 15 acres of pinon-juniper 
woodland adjacent to the upper parking lot and numerous ruins were 
thinned and piled by the San Juan Hotshot Crew. Most of the piles were 
burned in the winter of 2009-2010. In fall 2009 and spring 2010, 
Veteran's Green Corps, managed by the Southwest Conservation Corps 
under a cooperative agreement with the Forest Service, thinned and 
piled 105 acres in ponderosa pine forests on the west side of the 
Archeological Area at a total cost of approximately $25,000.
    Question 33. Have any of the trees been impacted by insects or 
diseases in the past, if so, by what pathogen and how severely where 
they infected?
    Answer. In the past 7 years bark beetles have killed numerous pinon 
pine, Douglas-fir and ponderosa pine trees. The worst mortality has 
occurred in Douglas-fir trees on the steep slopes north of the rock. 
Beetles have killed pinon pine and ponderosa pine in small pockets, 
especially on the drier, south aspects. These pests are currently 
present in the area at endemic levels and continue to kill trees every 
year.
Authorized Uses
    S. 3303 authorizes the construction of a visitor's center.

    Question 34. Please provide the Committee an estimate of the cost 
of constructing an all weather road to the site as well as the cost of 
a visitor center for the monument (based on the cost of other similarly 
sized monuments in 2012 and 2020 dollars)?
    Answer. An all weather road (gravel surfaced) is estimated at 
$300,000 per mile (2010 dollars). The current road system is closed to 
motorized vehicles from December 1 through May 15, as conditions 
permit. Given heavy snow pack within the proposed monument boundaries, 
it is unlikely year-round operations would be practical. The existing 
visitor contact area is approximately \3/4\ of a mile from Highway 151 
and the entire length of the existing road is approximately 3.5 miles.
    Until a management plan is developed, no specific details on size, 
staffing or cost of a visitor center or interpretive center can be 
estimated. In addition, a management plan would address the road 
system.
    Question 35. Please also provide the Committee with an estimate of 
the annual costs of operating such a visitor center for the same amount 
of days per year as the Mesa Verde National Park facilities?
    Answer. It is doubtful that any visitor center at Chimney Rock 
would operate year round, given snow conditions on the site; it could 
be anticipated that the facility would operate fewer days than that at 
Mesa Verde National Park, where some facilities are operated year-round 
(i.e., Chapin Mesa Archaeological Museum) and others have comparatively 
short operating seasons (e.g., Far View Visitor Center, open mid-April 
to mid-October). The current season at Chimney Rock is May 15 to 
September 30. The cost of staffing the visitors' center at Far View 
currently runs $144,000 for a staff of eight (during the summer 
season). It would probably cost at least $259,000 annually to run a 
year-round facility at Chimney Rock (this would include a full-time GS-
11 interpreter - $90,000; two GS-05 staff - $70,000; utilities - 
$50,000; brochures/exhibit maintenance/educational supplies - $40,000; 
office & janitorial supplies - $30,000; and vehicle - $5,000). The 
management plan would address specifics such as operating season, 
facilities, and staffing, which would be contingent on existing and 
available resources.
    Question 36. Please provide the Committee with an estimate of the 
annual and decadal maintenance budget for such a facility?
    Answer. The management plan called for in the bill would address 
issues such as potential construction of an interpretive center. No 
decisions regarding the construction of this facility or design have 
been made at this time.
    Question 37. If the monument is designated, please help us 
understand where on the construction priority list for Region Two of 
the Forest Service such a visitor center might fall and in what year it 
might rise to a level that the Forest Service would recommend funding 
such a project?
    Answer. The management plan called for in the bill would address 
issues such as potential construction of an interpretive center.
    Question 38. Are the facilities currently located at Chimney Rock 
currently within the Recreation Fee program? If so, how much revenue 
(gross and net) did those facilities take in during FY 2009 and 2010?
    Answer. The facilities located at Chimney Rock are currently 
managed under a Special Use permit for Campground and Related Granger-
Thye Concessions. The Chimney Rock Interpretive Association, a non-
profit organization operates the facility and provides tours of the 
Chimney Rock Mesa sites. The organization relies on volunteers to 
provide services and has used portions of its (net) income as matching 
funds for grants for archaeological work at the site. In FY2008, gross 
income was $114,520; net income was $20,051. In FY2009, gross income 
was $109,390; net income was $33,677. Figures for FY2010 are not 
available as the season is in progress.
    Question 39. How many visitors per year does the Chimney Rocks area 
currently enjoy?
    Answer. Approximately 11,000 visitors visit Chimney Rock annually.
    Question 40. If designated, does the Forest Service plan on 
stationing any research personnel at the site? If so, what is the 
annual total cost per employee including, but not limited to, salary, 
benefits, retirement, and overtime?
    Answer. The bill calls for a management plan to be developed for 
the resource. These decisions would be addressed within that document. 
No research personnel are currently stationed at the site on a full-
time basis.
    Question 41. S. 3303 authorizes the acquisition, consolidation and 
display of artifacts. Do federal agencies have to adhere to the same 
provisions of the Antiquities Act that the public does? If so, wouldn't 
collecting artifacts within the monument run afoul of the provisions of 
the Antiquities Act?
    Answer. The provision in S. 3303 would allow the acquisition, 
consolidation and display of artifacts found within the proposed 
national monument. The artifacts would include previously excavated 
materials from Chimney Rock. We understand that the intent is not to 
authorize the Forest Service to collect currently unexcavated 
artifacts, although there may be some additional discovery and 
collection of artifacts as a result of necessary maintenance or 
construction activities. Federal agencies are subject to a number of 
laws regarding archaeological collection, excavation, and curation.
    There are many regulations which discuss excavation, collection, 
and curation. The Federal Government began to address collection of 
archaeological materials with the Antiquities Act (1906); the 
Archaeological Resources Protection Act (ARPA, 1979) clarified and 
strengthened regulations. ARPA included strengthened law enforcement 
provisions to prevent looting and sale of archaeological resources by 
the general public. Additional legislation, such as the National 
Historic Preservation Act (NHPA, 1966) and Native American Graves 
Protection and Repatriation Act (NAGPRA, 1992) also address aspects of 
how and under what circumstances archaeological resources are collected 
and how they are curated. Federal agencies are required to meet and 
enforce the provisions of these laws. Federal agencies issue research 
permits for excavation and removal of artifacts (under ARPA).
    In the event that the Chimney Rock Collections were consolidated 
the curation facility would not necessarily be located within the 
monument boundaries and could be an existing facility, such as the 
Anasazi Heritage Center. Materials from Chimney Rock are currently 
curated at many facilities (including the Anasazi Heritage Center, 
Denver University, and Colorado Historical Society); having materials 
from the site spread through many facilities makes it harder to analyze 
the collection. Any facility housing federal artifacts has to meet 
specific standards (as per the National Historic Preservation Act).
    Question 42. S. 3303 allows for the recreational and administrative 
use of mountain bikes and motorized vehicles. Given ``The unique, 
thousand-year-old Ancestral Puebloan community located beneath the 
prominent Chimney Rock Pinnacles.'' Wouldn't such uses put the 
archeological resources at risk?
    Answer. This provision would continue to allow visitors to ride or 
drive up the existing road to reach the site and would maintain the 
existing prohibition of off-road travel within the unit. Off-road use 
of any vehicles has the potential to damage archeological and natural 
resources. However, it is anticipated there may be times administrative 
off-road access would be appropriate in limited circumstances (e.g., 
fire management).
    Question 43. One of the authorized uses within the proposed 
monument is grazing. Are there currently any grazing permits within the 
proposed monument? If so, how many and how many AUMs are permitted and 
how many are allowed under the existing annual grazing plan?
    Answer. The Peterson Gulch/Mesa area is included in the Turkey 
Allotment, which is active. The rest of the proposed monument is not 
within a current grazing allotment. The Turkey allotment is permitted 
for 127 cow-calf pairs from June 1 to June 30 annually; this equals 168 
AUMs. It is fully stocked at this level. The Peterson Mesa area 
represents less than 25 percent of the Turkey Allotment.
    Question 44. S. 3303 restricts mineral entry, patents, leasing, and 
geothermal; please provide the Committee a detailed list of the known 
and potential mineral and geothermal resources within the boundaries of 
the proposed monument, including but not limited to oil and gas, hard 
rock minerals and rare earth minerals, as well as the solar and 
geothermal potential of the lands?
    Answer. Please see answer to Question #3 regarding mineral 
potential. There may be some geothermal potential. However, the thermal 
gradient is low and there are no markets nearby. The regional area is 
indicated to have good potential for solar. However, within the 
proposed boundaries, there is no flat area that is large enough to 
establish an array of solar receptors.
    Question 45. I see that there are a number of power lines and gas 
pipelines that would be encumbered by the National Monument. Would it 
make Forest Service management of the area less complicated if we 
either: 1) created the monument so those permitted rights-of-way were 
remained within the boundary of the monument, or 2) pulled the 
boundaries back away from that infrastructure?
    Answer. There is a right of way for a gas line (along State Highway 
151) that was granted before the Forest Service acquired the property. 
There is also a buried electrical line that services the visitor's 
cabin. Having these utilities within the proposed monument would not 
pose a problem
    Question 46. I see in your testimony that you do not think a 
visitor center is the correct facility to put in the area if it is 
designated. What would the correct facility be and how much will that 
cost to construct? And what will it cost to maintain and staff each 
year after that?
    Answer. A Visitor Center suggests that its primary focus is to 
provide tourist information to the visitors who tour a location. An 
Interpretive/Education Center has a goal of disseminating knowledge and 
providing education. Interpretive Centers do not have the goal of 
collecting, conserving and studying objects rather; they focus on 
communicating the significance and meaning of heritage. They work to 
educate and raise awareness. We believe that an Interpretation/
Education Center is the appropriate facility to meet the goals of the 
legislation.
    Until a management plan is developed, no specific details on size, 
staffing or cost of a facility can be estimated.
                                 ______
                                 
 Responses of Stephen E. Whitesell to Questions From Senator Murkowski
                          maintenance backlog
    Question 1a. Mr. Whitesell, you stated during the Subcommittee 
Hearing that the National Park Service takes a number of factors into 
consideration when determining if the NPS should acquire new land 
despite the $9 billion maintenance backlog. Can you please provide a 
list of those factors in order of importance?
    Answer. For the FY 2011 budget, the Department of the Interior 
looked at criteria to target landscape-level conservation, especially 
river and riparian conservation and restoration, and conservation of 
wildlife and their habitat, as well as recreational opportunities in 
urban landscapes and cultural and historical preservation of 
significant events. In addition, the Departmental criteria included 
consideration of leveraging nonfederal funds, partnerships, involvement 
of other bureaus, and urgency. NPS criteria to prioritize which parcels 
of land to seek funding for are based on: threat to the resource; 
preservation of the resource; visitor use facility accommodation; 
involvement of partners, non-profit groups or availability of matching 
funds; continuation of an ongoing effort; recreational opportunities; 
and local support for a project.
    Question 1b. How will the new acquisitions proposed in this 
Subcommittee Hearing affect the maintenance backlog?
    Answer. It is not possible to determine the impact that acquiring 
land for new units will have on the maintenance backlog until a NPS 
completes a comprehensive condition assessment of the newly acquired 
land and attendant facilities.
    However, we note that some of the parcels under consideration for 
addition to existing national park units are vacant and/or contain 
significant open space. These cquisitions would capitalize on the 
operation and maintenance already in place on adjacent land, which 
would reduce maintenance costs and needs. In addition, it is DOI's 
policy that the bureaus identify the operation and maintenance costs 
associated with the purchase of the land and request that funding in 
the budget cycle following the completed purchase.
    Question 1c. Will new National Park Units immediately add to the 
maintenance backlog if they include structures upon acquisition?
    Answer. If the NPS acquires land for a new unit that contains 
structures that have deferred maintenance needs and the NPS determines 
that the structures should be repaired rather than demolished, those 
structures would contribute to the NPS maintenance backlog.
    We note that it is DOI's policy that the bureaus identify the 
operation and maintenance costs associated with the purchase of the 
land and request that funding in the budget cycle following the 
completed purchase.
    Question 1d. Will land additions to existing parks immediately add 
to the maintenance backlog? If so, wouldn't it be wise to pay down the 
existing backlog before taking on new obligations?
    Answer. If the NPS acquires land for an existing park that contains 
structures that have deferred maintenance needs and the NPS determines 
that the structures should be repaired rather than demolished, those 
structures would contribute to the NPS maintenance backlog. Most of the 
land NPS acquires for existing parks is undeveloped, so there is 
relatively little contribution to the maintenance backlog from these 
new acquisitions.
                                hunting
    Question 2a. Please list the current units of the National Park 
Service which allow hunting.
    Answer. Hunting is allowed in the following units of the national 
park system:

                  Alagnak Wild River
                  Amistad National Recreation Area
                  Aniakchak National Preserve
                  Apostle Islands National Lakeshore
                  Assateague National Seashore
                  Bering Land Bridge National Preserve
                  Big Cypress National Preserve
                  Big South Fork National River and Recreation Area
                  Big Thicket National Preserve
                  Bighorn Canyon National Recreation Area
                  Bluestone National Scenic Riverway
                  Buffalo National River
                  Canaveral National Seashore
                  Cape Cod National Seashore
                  Cape Hatteras National Seashore
                  Cape Lookout National Seashore
                  Chickasaw National Recreation Area
                  City of Rocks National Reserve
                  Craters of the Moon National Preserve
                  Cumberland Island National Seashore
                  Curecanti National Recreation Area
                  Delaware Water Gap National Recreation Area
                  Denali National Preserve
                  Fire Island National Seashore
                  Gates of the Arctic National Preserve
                  Gateway National Recreation Area
                  Gauley River National Recreation Area
                  Glacier Bay National Preserve
                  Glen Canyon National Recreation Area
                  Grand Teton National Park
                  Great Sand Dunes National Preserve
                  Gulf Islands National Seashore
                  Hagerman Fossil Beds National Monument
                  Jean Lafitte National Historical Park and Preserve
                  John D. Rockefeller, Jr. Memorial Parkway
                  Kalaupapa National Historical Park
                  Katmai National Preserve
                  Lake Chelan National Recreation Area
                  Lake Clark National Preserve
                  Lake Mead National Recreation Area
                  Lake Meredith National Recreation Area
                  Lake Roosevelt National Recreation Area
                  Little River Canyon National Preserve
                  Mississippi National River and Recreation Area
                  Missouri National Recreation River
                  Mojave National Preserve
                  New River Gorge National River
                  Niobrara National Scenic Riverway
                  Noatak National Preserve
                  Obed Wild and Scenic River
                  Ozark National Scenic Riverway
                  Padre Island National Seashore
                  Pictured Rocks National Lakeshore
                  Rio Grande Wild and Scenic River
                  Ross Lake National Recreation Area
                  Sleeping Bear Dunes National Lakeshore
                  St. Croix National Scenic Riverway
                  Timucuan Ecological & Historic Preserve
                  Upper Delaware Scenic and Recreational River
                  Whiskeytown-Shasta-Trinity National Recreation Area
                  Wrangell-St. Elias National Preserve
                  Yukon-Charley National Preserve

    Question 2b. Is hunting allowed on any of the land that is being 
proposed for new National Park Units? If so, will the NPS continue to 
allow hunting?
    Answer. First State National Historical Park is the only proposed 
new park unit discussed at the hearing. The NPS is not proposing to 
acquire any land as part of this park, and so would not regulate 
hunting. Hunting, if any, would be subject to State law and local 
ordinances.
    Question 2c. Is hunting allowed on any of the land that is being 
proposed as additions to existing parks? If so, will the NPS continue 
to allow hunting?
    Answer. Hunting may be allowed on the property proposed for 
addition in accordance with State or local laws and with the permission 
of the current land owner. The parks whose boundaries are proposed for 
expansion, such as Petersburg National Battlefield (S. 2953), 
Gettysburg National Military Park (S. 3159), and Fort Necessity 
National Battlefield (S. 3168), do not allow hunting, so once acquired, 
hunting would not be allowed on lands proposed as additions.
    Question 2d. Will the National Park Service pledge not to extend 
the temporary hunting closures in Yukon-Charley NPP and Denali NPP?
    Answer. A temporary closure to the taking of wolves under the 
state's general/sport hunting regulations within Yukon-Charley Rivers 
National Preserve expired on May 31, 2010. Any consideration of 
temporary closures in the future would be based on facts and conditions 
at that time.
    The closure to the taking of black bear cubs and sows with cubs in 
a portion of Denali National Preserve (and Gates of the Arctic National 
Preserve) will continue to December 31, 2010. That practice had been 
authorized by the State of Alaska in Game Management Units 19 and 24, 
which includes areas within the national preserves. Any consideration 
of temporary closures after December 31, 2010, would be based on the 
facts and conditions at that time.
    Question 2e. Can you please provide a detailed list of formal 
complaints received by the National Park Service regarding air 
transport service for sport hunters to Noatak National Preserve?
    Answer. In January 2010, the NPS issued a competitive solicitation 
for big game hunter transport services in Noatak National Preserve. 
Five air transport companies applied and received commercial use 
authorizations in March 2010. The NPS has limited the total number of 
sport hunt clients transported by these businesses to limit conflicts 
with subsistence hunters pending completion of a public planning 
process to find long-term solutions to those conflicts. Client numbers 
were also allocated through the competitive process.
    Three companies (Ram Aviation, Golden Eagle Outfitters and 
Northwestern Aviation) made formal appeals to the NPS Alaska Regional 
Office concerning their client allocations. Those appeals were 
considered by three NPS employees who were not involved with the 
initial authorizations and who have experience in the areas of sport 
hunting, subsistence and commercial visitor services. This panel 
recommended, and the regional director concurred, that allocations were 
made in a reasonable manner. All of the operators were also asked to 
provide suggestions to the Superintendent of Noatak National Preserve 
regarding the manner in which the 2011 client allocations would be 
distributed.
                             eminent domain
    Question 3a. Would the National Park Service use Eminent Domain to 
obtain private land from unwilling sellers?
    Answer. Acquisition by condemnation is sometimes necessary to 
establish just compensation, to clear title, or to prevent imminent 
damage or unacceptable threats to park resources and values. The NPS 
would only use condemnation in a manner consistent with any applicable 
law and policy. The Department of the Interior, Environment, and 
Related Agencies Appropriations Act for Fiscal Year 2010 directs that, 
unless otherwise provided, no funds appropriated in the Act for the 
acquisition of lands or interests in lands may be expended for the 
filing of declarations of taking or complaints in condemnation.
    Question 3b. Please list the occasions in which the National Park 
Service has used Eminent Domain to:

          1) Establish new parks?

    Answer. There are no such occasions. Unless otherwise specified by 
law, the NPS can use eminent domain only within previously authorized 
boundaries of the National Park System. National Park System units are 
established by Presidential proclamation or by act of Congress.

          2) Expand boundaries of existing parks?

    Answer. There are no such occasions. The NPS can use eminent domain 
only within previously authorized boundaries of the National Park 
System.
          susquehanna gateway national heritage area (s. 349)
    Question 4a. Has there ever been a previous attempt to place the 
land in the proposed Susquehanna Gateway National Heritage Area within 
a National Park System unit?
    Answer. There have been no legislative proposals to place the land 
in the proposed Susquehanna Gateway National Heritage area within a 
unit of the national park system.
    Question 4b. Of the 49 National Heritage Areas that currently exist 
how many contain land of another land management agency?
    Answer. Of the 49 existing national heritage areas, the following 
28 areas contain federally-owned land or resources:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 4c. When will the Administration submit a legislative 
proposal with the criteria needed to evaluate potentially qualified 
national heritage areas and the process for designation and 
administration of those areas?
    Answer. The Administration intends to submit a legislative proposal 
that establishes criteria to evaluate potentially qualified national 
heritage areas and a process for the designation and administration of 
these areas in the near future.
    Question 4d. Please outline each specific cost that the creation of 
the Susquehanna Gateway National Heritage Area will involve.
    Answer. The bill provides for an authorization of appropriations of 
$10 million over a fifteen-year period with a maximum of $1 million in 
any given year.
    Question 4e. Would the National Park Service prefer for the 
proposed Susquehanna Gateway National Heritage Area to become another 
type of National Park Unit? If so, what type of unit?
    Answer. National heritage areas are not units of the national park 
system. Susquehanna Gateway was evaluated under NPS criteria for 
designation as a national heritage area. Units for inclusion within the 
national park system are evaluated with a different set of criteria, 
and the process is separate from a national heritage area designation.
    Question 4f. Is it possible for a feasibility study of the proposed 
heritage area to be completed by a local entity and submitted to the 
Administration for approval thereby avoiding the need for legislation 
to authorize a study?
    Answer. Yes. In fact, in most cases, supporters of a proposed NHA 
work within the region to develop the study, with the NPS serving in an 
advisory capacity. If the study is prepared by a local entity, the NPS 
evaluates the study to determine whether it meets the ten interim 
criteria for designation as a national heritage area.
    Question 4g. Are you aware of any other National Heritage Areas 
that are proposed for association with the Department of Agriculture?
    Answer. The Department of Agriculture was initially the lead agency 
for the America's Agricultural Heritage Partnership; the NPS assumed 
the role as lead agency by a subsequent enactment by Congress. 
Additionally, some early bills to designate the Kenai-Mountains-
Turnagain Arm National Heritage Area had the Department of Agriculture 
as the lead agency.
    Question 4h. Has the National Park Service or anyone else conducted 
a study to determine the feasibility of establishing the Susquehanna 
Gateway National Heritage Area?
    Answer. In 2008, a local entity, the Susquehanna Gateway 
Corporation, prepared and submitted the feasibility study for the 
Susquehanna Gateway National Heritage Area to the NPS for evaluation. 
The NPS reviewed the study and found that the area met the ten interim 
criteria for designation as a national heritage area.
    Question 4i. How many other National Heritage Areas are there in 
Pennsylvania?
    Answer. There are six existing national heritage areas in 
Pennsylvania, including the Lackawanna Heritage Valley, Oil Region, 
Rivers of Steel, and Schuylkill River national heritage areas, as well 
as the Delaware and Lehigh National Heritage Corridor and the Path of 
Progress National Heritage Tour Route.
    Question 4j. Will this designation as a National Heritage Area 
place any new restrictions on property owners' regarding use or 
development of their property?
    Answer. No, a national heritage area designation does not prohibit, 
under Federal law or regulations, any actions which may otherwise be 
taken by the property owner with respect to the property. A national 
heritage area is not a unit of the National Park System, nor is any 
land owned or managed by the NPS.
    Question 4k. Have National Heritage Area designations in any state 
had any adverse impact on private property?
    Answer. In a 2004 report (GAO-04-593T), the Government 
Accountability Office concluded that national heritage areas do not 
appear to have affected property owners' rights. The designating 
legislation and the management plans of some areas explicitly place 
limits on the areas' ability to affect private property rights and 
uses. Designation legislation for eight areas prohibited the federal 
government from imposing zoning or land-use controls on properties 
within these areas, and legislation for thirteen areas explicitly state 
that the area's managing entity cannot interfere with any person's 
rights with respect to private property or have authority over local 
zoning ordinances or land-use planning.
                acquisition of gold hill ranch (s. 1596)
    Question 5a. What is the estimated value of the Gold Hill Ranch?
    Answer. No formal appraisal has been conducted by the BLM, but the 
American River Conservancy (which is working closely with local 
community groups to raise funds for acquisition) has estimated the 
value of the property to be approximately $3.3 million.
    Question 5b. Please provide a list of all costs associated with S. 
1596.
    Answer. The Department of the Interior's known, direct costs for 
appraisal, staff processing time, and environmental site assessment are 
estimated at approximately $30,000. As for the acquisition of land as 
well as construction of any potential visitor center, we expect, and 
have discussed with the Conservancy and the sponsor, that funds needed 
would come from donations already being raised by the private sector.
    Question 5c. How much would it costs to build a visitor center at 
the Gold Hill Ranch? When would the BLM plan to develop such a visitor 
center?
    Answer. No estimate has been given, and the BLM has no plans to 
develop a visitor center. If the visitor center authorized in the bill 
were to be built, we expect, and have discussed with the Conservancy 
and the sponsor, that funds needed would come from donations already 
being raised by the private sector.
    Question 5d. Please describe how the land and property involved is 
currently being used.
    Answer. Currently the land and facilities (including a historic 
house, a barn, and a small inoperative dairy) are part of a privately-
owned ranch.
    Question 5e. If the BLM acquires the Gold Hill Ranch, how will the 
use of the land change? How will access by the general public be 
affected?
    Answer. Acquisition by BLM would change the land use from a 
privately owned ranch to a publicly-owned restored historic site. At 
present, the private owners do not allow public access to the ranch. 
Following acquisition, public access to all portions of the property 
would be allowed as a managed use. We expect that most public use will 
be in the form of tours of the historic buildings.
   special resource study of the general of the army george catlett 
               marshall national historic site (s. 1750)
    Question 6a. When does the National Park Service anticipate 
completing the suitability and feasibility study for the General of the 
Army George Catlett Marshall National Historic Site?
    Answer. The NPS will make every effort to complete the study within 
the three years of the date on which funds are first made available, as 
the legislation requires.
    Question 6b. How common is it to designate a new unit of the 
National Park System with[out] first completing a study?
    Answer. The majority of areas that have been authorized by Congress 
as new units or that were designated new units in the last 15 years 
(since the 104th Congress) have been the subject of an NPS study prior 
to designation. Units that have been authorized without a study 
completed first include: presidential monuments in the Nation's capital 
(the Eisenhower memorial and John Adams memorial will be units after 
they are completed), presidential home sites (the Ronald Reagan Boyhood 
Home and the William Jefferson Clinton Birthplace will be units after 
they are acquired), special memorials (Oklahoma City, Flight 93), and a 
few other sites in exceptional circumstances. For example, Port Chicago 
Naval Magazine National Memorial, which was designated a unit of the 
National Park System by this Congress, was a congressionally designated 
national memorial that the NPS was interpreting and managing under an 
agreement with the Department of Defense prior to its designation as a 
unit.
    Question 6c. Does the NPS ever recommend creating a new unit 
without first completing a study? If yes, please list the instances.
    Answer. We are unable to find an example in the last 15 years of a 
unit of the National Park System that the NPS recommended to Congress 
for designation as a unit without it first being studied. In recent 
years, the NPS supported through Departmental testimony the 
establishment of Port Chicago as a unit of the National Park System, as 
well as the establishment of the Flight 93 memorial and the 
authorization of the Adams Memorial Monument, all of which, as noted 
above, were not studied.
    Question 6d. Does the National Park Service foresee any issues in 
the course of the study that might lead to a negative recommendation 
for designation?
    Answer. Until the study is authorized and the NPS begins the 
scoping phase, it is premature to identify any issues that might lead 
to a specific recommendation.
    Question 6e. What percentage of National Park Service Resource 
Studies regarding new units result in the NPS recommending not to 
establish the new Park Unit?
    Answer. In the past decade, about three out of four studies of 
potential new units of the National Park System have determined that 
the subject area did not meet the NPS criteria for new units and have 
recommended not establishing a new unit. Some of those studies have 
found that an area might meet the criteria in the future if 
circumstances affecting the feasibility of the site change.
    Question 6f. Has the National Park Service ever found a compelling 
reason in the course of a study to justify designation before a study 
has been completed? Please provide a list.
    Answer. We cannot identify any situation where the NPS has 
conducted a study of an area and has urged designation of a new unit 
prior to completion of a study. Under this Administration and previous 
Administrations, it has been a longstanding practice for the NPS to 
urge Congress to defer action on the establishment of a new unit until 
the study for it has been completed.
    establishment of first state national historical park (s. 1801)
    Question 7a. Is creating the First State National Historical Park a 
greater priority than the over $9 billion maintenance backlog? If not, 
should we then wait until the backlog is paid down before this new unit 
is established?
    Answer. The proposed First State National Historical Park, which 
has been found to meet the NPS criteria for new units, would be an 
important addition to the National Park System. Its designation should 
not have to be postponed because there is a maintenance backlog within 
existing units of the National Park System.
    Question 7b. Please list all the costs associated with the 
establishment of this First State National Historical Park?
    Answer. The Special Resource Study estimated annual operating costs 
for the park at $450,000 to $550,000, which would fund from five to 
seven FTEs, and costs associated with completing the general management 
plan at $600,000. S. 1801 also authorizes $3 million in one-time 
matching grants for rehabilitation of existing structures to serve as 
administrative and visitor services facilities for the park and $2.5 
million in one-time matching grants for historic preservation, 
interpretive devices, and the design, construction, installation, and 
maintenance of exhibits.
    Question 7c. Please describe how the National Park Service would 
interpret resources related to the purposes of the park but which are 
located outside the boundary of the Historical Park.
    Answer. Interpretation could occur through scheduled activities 
conducted by Park Rangers or volunteers at the location of the 
resources, wayside exhibits, publications, or audio-visual 
presentations.
    Question 7d. Can you please list all other parks which have had 
one-time matching grants to State and local governments, private 
property owners and nonprofit organizations to pay for the historic 
preservation of non-Federal resources within the park boundaries?
    Answer. Individual park units do not provide grants to other 
entities, however, the Save America's Treasures (SAT) grant program has 
awarded grants for the preservation of nationally significant historic 
properties and museum collections in park units and other entities. 
From 1999 to 2010, NPS awarded a total of 1,132 SAT grants totaling 
$293.7 million. Eligible applicants include State, Tribal, and local 
governments, nonprofit organizations, and federal agencies funded 
through the Department of the Interior Appropriations Act.
    The NPS has awarded 46 SAT grants to NPS units, totaling $18.2 
million. Additionally, the NPS has awarded several SAT grants to 
nonfederally-owned properties within the boundaries of national park 
system units. These include:

  <bullet> Central High School in Little Rock, AR
  <bullet> Ellis Island in Jersey City, NJ
  <bullet> Ebenezer Baptist Church in Atlanta, GA (Martin Luther King, 
        Jr., NHS)
  <bullet> Sewall-Belmont NHS, in Washington, DC
  <bullet> Shipyard 3 Riggers Loft in Richmond, CA (Rosie the Riveter 
        World War II Homefront NHP)
  <bullet> Alcatraz Island Gardens, in San Francisco CA

    Question 7e. Please discuss what new construction will be necessary 
as a result of the establishment of the First State National Historical 
Park.
    Answer. We do not anticipate any new construction associated with 
the establishment of the park. Existing facilities that would serve as 
administrative and visitor services facilities would be rehabilitated 
with the grants that are proposed in S. 1801.
    Question 7f. When the First State National Historical Park is 
established will any resources be immediately added to the maintenance 
backlog?
    Answer. An assessment has not been completed on the resources 
within the proposed park so their status is unknown.
  united states civil rights trail system feasibility study (s. 1802)
    Question 8a. How much of the land associated with the trail would 
be owned by the National Park Service?
    Answer. We cannot determine how much, if any, land the study would 
recommend for NPS ownership until the study has been completed and the 
alternatives have been fully analyzed. We note, however, that the 
legislation appears to intend for the NPS to consider a commemorative 
trail with little or no NPS land ownership outside of existing units 
related to the theme.
    Question 8b. How much of the trail is in private ownership and does 
the National Park Service plan on someday plan on owning the entire 
trail in fee?
    Answer. We cannot answer the question of current land ownership 
(private vs. public) until the study has been completed and the 
alternatives fully analyzed.
    Question 8c. When will the feasibility study be completed?
    Answer. The NPS will make every effort to complete the study within 
the three years of the date on which funds are first made available, as 
the legislation requires.
    Question 8d. Please list all the feasibility studies currently 
pending to be completed by the National Park Service.
    Answer. The following table lists the status of the 44 currently 
pending studies, as of August 30, 2010:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  modification of the boundary of petersburg national battlefield (s. 
                                 2953)
    Question 9a. How much would S. 2953 increase the size of the 
Petersburg National Battlefield? What percentage of the National 
Battlefield would this increase represent?
    Answer. The boundary of the park would be authorized to increase by 
7,238 acres. The current authorized boundary of the park is 
approximately 2,739 acres. If enacted the park boundary would become 
approximately 9,977 acres. The newly authorized lands would make up 
approximately 72.5% of the new boundary.
    Question 9b. Will the changes in size of the National Battlefield 
require any additions in the number of personnel?
    Answer. The park estimates that an additional seven FTE would be 
required, based on the park's revised General Management Plan: one for 
resource management, two for interpretation, and four for maintenance.
    Question 9c. What will the total cost of expansion be?
    Answer. If all the lands to be added to the boundary are purchased 
in fee simple the cost is estimated at approximately $29.7 million. 
However, more than half of the land proposed for addition is currently 
held by foundations or non-profit organizations and a large amount of 
the land is expected to be donated. Estimated costs for capital 
expenses (trails, wayside exhibits, rehabilitation of existing visitor 
contact station,) and expansion-related costs (surveys, hazardous 
materials studies) are an additional $1.74 million. Development of 
visitor services and interpretation at these new battlefield locations 
would be minimal and would include small parking areas, wayside 
exhibits, and trail and other enhancements to the sites. The annual 
increase in operations and management is estimated to be approximately 
$484,000. These costs are all in 2008 dollars.
    Question 9d. How much of the land in this proposed expansion is in 
private ownership and have any of the owners objected to this proposal?
    Answer. Of the 7,239 acres proposed in the expansion, approximately 
2,714 acres are held by non-profit groups and the City of Petersburg. 
Approximately 4,524 acres are privately owned by approximately 192 
individual owners. At this time we are unaware of any objections by the 
private property owners.
    Question 9e. Have any property owners within the proposed expansion 
area objected to being included within the boundary?
    Answer. Please see the response to question 9d.
    Question 9f. How will the National Park Service use the property 
that is proposed for acquisition?
    Answer. When Congress created the park in 1926, only a fraction of 
the battlefield acreage associated with the 26 major battles of the 
Petersburg Campaign was included in the original boundary. The 
battlefields proposed for addition to the park will allow the public to 
better understand the size, complexity, and duration of the 9+ month 
Petersburg Campaign and siege while offering protection to existing 
park resources.
  designate wilderness in sleeping bear dunes national lakeshore (s. 
                                 2976)
    Question 10a. Approximately how many property owners have in-
holdings within the boundaries of the land designated as wilderness by 
S. 2976?
    Answer. There are five private tracts that are within the proposed 
wilderness, and all are shown on Sheet 4 of the map referenced by S. 
2976. None are developed and none have development potential. They are 
either remnant linear holdings that originally were very narrow rights-
of-way to parcels long ago purchased by the Lakeshore (three tracts), 
or they are a portion of long rectilinear tracts already residentially 
developed, where the house lies outside the wilderness boundary, but a 
portion of the tract, at a distance from the house, lies within 
wilderness (two tracts). We plan to initiate title searches on the 
three rights-of-way, as similar tracts elsewhere in the park have been 
found to be owned in full by the NPS because we purchased all the 
properties they formerly accessed. To our knowledge, no individuals 
claim ownership of these rights-of-way. The other two tracts are 
accessed regularly by their owners via roadways to their homes lying 
outside of the proposed wilderness. Regardless of the likely ownership 
of the rights-of-way, we have depicted all five properties as private, 
and they retain any and all private rights associated with them.
    Question 10b. Are property owners currently allowed to use 
motorized vehicles to access their property and will these changes as a 
result of the designation?
    Answer. Four of the five private tracts are currently accessible by 
motor vehicle. Only one of the five private tracts is ``landlocked'' by 
the proposed wilderness, and it is not accessible by motor vehicle. It 
is a remnant linear holding that originally was a very narrow right-of-
way to parcels long ago purchased by the Lakeshore. Title searches on 
similar tracts elsewhere in the park have been found to be owned in 
full by the NPS because we purchased all the properties they formerly 
accessed. To our knowledge, no individual claims ownership of this 
right-of-way. The designation would not change how any of these tracts 
may be accessed.
    Question 10c. Has the existing general management plan for Sleeping 
Bear Dunes National Lakeshore treated the land as wilderness for 
management purposes or will this designation constitute a major change 
in land use?
    Answer. The park's 2009 General Management Plan calls for the area 
proposed as wilderness in this bill to be managed as wilderness. Formal 
wilderness designation will not change the way in which land use is 
currently managed in the area proposed as wilderness.
    Question 10d. Will there be a net loss in hunting acreage? Can you 
please provide in detail the agreements that were reached to ensure 
that hunting activities in this area will not be affected by this 
wilderness designation?
    Answer. There will be no loss whatsoever in hunting acreage. The 
act that established Sleeping Bear Dunes National Lakeshore, P.L. 91-
479, specifically allows hunting in the park, and states that it will 
be governed by applicable State and Federal law. The language of S. 
2976 affirms that hunting will continue by stating in Section 4(a)(3) 
that ``Nothing in this Act affects hunting under applicable Federal and 
State laws (including regulations) within the Wilderness.''
    Question 10e. Please list all activities that will be allowed in 
the proposed wilderness area. Please list all activities in the 
proposed wilderness area that will not be allowed.
    Answer. A variety of recreational uses, management actions, and 
certain facilities are permitted in wilderness areas under the 
Wilderness Act of 1964 and NPS policies. Among the uses, management 
actions, and facilities permitted in wilderness are the following:

  <bullet> The NPS honors legal obligations to make available equal 
        opportunities for people with disabilities in all programs and 
        activities. This requirement includes opportunities to 
        participate in wilderness experiences. While the NPS does not 
        modify wilderness environments specifically for accessibility, 
        allowances are made for appropriate mobility devices within 
        wilderness, and for use of service animals.
  <bullet> Non-motorized recreational uses (e.g., hiking, picnicking, 
        camping, canoeing) hunting and fishing.
  <bullet> Trails, campsites, toilets, and signs necessary for visitor 
        safety or to protect wilderness resources.
  <bullet> Emergency actions and equipment necessary to ensure life-
        safety, fire-management activities (including fire 
        suppression).
  <bullet> Preservation of historic properties eligible for the 
        National Register of Historic Places.
  <bullet> Use of facilities for landowners with valid property rights 
        in a wilderness area.
  <bullet> Scientific activities, research, and monitoring natural 
        resource management actions such as restoration of extirpated 
        species, controlling invasive exotic species, endangered 
        species management, and protection of air and water quality.
  <bullet> Certain administrative facilities, if necessary, to carry 
        out wilderness management objectives (e.g., storage or support 
        structures, ranger station).
  <bullet> Native American religious activities and other actions 
        recognized under treaty-reserved rights.

    The Wilderness Act also specifically prohibits certain uses and 
developments. Under section 4(d) of the Act, the following uses are not 
permitted in a wilderness:

  <bullet> Permanent improvements or human habitation structures 
        (historic structures are excluded).
  <bullet> Permanent and temporary roads.
  <bullet> Use of motor vehicles and motorized equipment (except for 
        emergency purposes).
  <bullet> Landing of aircraft (except for emergency purposes).
  <bullet> Other forms of mechanical transport (e.g., bicycles).
  <bullet> Commercial enterprises (except for those that are necessary 
        for realizing the recreational or other wilderness purposes of 
        the area, such as guiding and outfitting).

    With the exception of permanent roads, the Act does recognize that 
the above uses may be permitted if necessary to meet the minimum 
requirements for the administration of the area as wilderness or for 
emergency purposes.
    In addition to the above prohibitions, NPS policies also prohibit 
some developments such as new utility lines, permanent equipment 
caches, site markings or improvements for non-emergency aircraft, 
borrow pits (except for small-quantity use of borrow material for 
trails), and new shelters for public-use picnic tables. Listed are the 
most frequent considerations regarding wilderness, but this is not a 
comprehensive list as it would be impossible to list all potential 
activities upon which decisions to allow or prohibit might have to be 
made, according to applicable law and policy.
    Question 10f. How unusual is it to allow motorized transportation 
within a wilderness area? Please list all wilderness areas within the 
National Park System that allow motorized transportation.
    Answer. NPS policies allow for limited use of motorized 
transportation within wilderness. That limited use applies to all 60 
wilderness areas in 49 units of the National Park System that the NPS 
manages. Examples of this limited use include the use of helicopters 
for search & rescue, access for individuals to their private in-
holdings, and fire control activities.
    revise boundaries of gettysburg national military park (s. 3159)
    Question 11a. When will the federal government appraisal of the 
Lincoln Train Station be completed? Do you anticipate the costs to 
increase as a result of the federal government appraisal of the Lincoln 
Station acquisition and rehabilitation?
    Answer. A timetable for the appraisal cannot be completed until the 
NPS has been given the authority to acquire the train station. The 
costs will be determined by the appraisal. The anticipated acquisition 
cost for the complete rehabilitation of the train station is 
approximately $772,000, subject to an appraisal by the federal 
government.
    Question 11b. How will the acquisitions affect personnel and 
staffing at Gettysburg National Military Park? Will additional NPS 
staff be needed? If so, how much will that increase the operating 
budget?
    Answer. The park has a preliminary commitment from the Gettysburg 
Convention and Visitor Bureau (CVB) to provide all staffing 
requirements for operations of an information and orientation center in 
the train station, thereby alleviating the park of staff costs. 
Anticipated operating costs for the train station that will be the 
responsibility of the NPS are limited to utility costs; the remaining 
costs will be paid by the Gettysburg CVB. In the event that the 
Gettysburg CVB is unable to provide staffing and funding for 
operations, the NPS would seek another park partner to cover these 
costs and requirements.
    Question 11c. S. 3159 would add 45 acres of land near Big Round Top 
along Plum Run in Cumberland Township, Pennsylvania to the boundary of 
the Park. How does the National Park service plan to use this land?
    Answer. The land abuts a portion of the current park boundary and 
will be undeveloped.
    Question 11d. Does the land near Big Round Top along Plum Run have 
any specific interpretive value or is it needed to protect the park 
from encroachment?
    Answer. There were cavalry skirmishers in this area during the 
Battle of Gettysburg, July 1863, but the real significance is 
environmental. The tract has critical wetlands and wildlife habitat 
related to Plum Run.
 acquire land for inclusion in fort necessity national battlefield (s. 
                                 3168)
    Question 12a. Upon acquisition of 157 acres in Farmington, PA, S. 
3168 further authorizes a boundary adjustment for Fort Necessity 
National Battlefield. What is the total amount of land that could be 
added to Fort Necessity National Battlefield?
    Answer. The 157 acres of ``non-Federal land'' to be acquired is 
identical to the land to be included in the boundary adjustment to Fort 
Necessity National Battlefield. The land is comprised of an 18.84-acre 
parcel, at the southeastern boundary of the park's main unit, along 
Scott Hollow Road, and a 137.78-acre parcel, at the southern boundary 
of the park's main unit, along Rankin Road.
    Question 12b. Is all the land being proposed to addition to Fort 
Necessity National Battlefield privately owned? Are all owners willing 
sellers?
    Answer. The owner of the two parcels in question is a willing 
seller.
    Question 12c. How will the National Park Service use the property 
that is proposed for acquisition?
    Answer. The property contains historical and landscape resources 
relating to the purpose of Fort Necessity National Battlefield, 
including traces of the Braddock Road that was built in 1755 as part of 
British Major General Edward Braddock's unsuccessful and bloody 
campaign to take Fort Duquesne at the Forks of the Ohio. A trailhead 
for a park trail, linking traces of the Braddock Road within the parcel 
to those within the current boundary of the park, will be located on 
the property. The NPS also intends to interpret archeological resources 
along the road trace, and may expand the park trail system through the 
remainder of the property.
    Question 12d. Please provide a list of all the costs associated 
with the land acquisitions and boundary adjustments in S. 3168.
    Answer. The property has not been appraised, and actual acquisition 
costs would be dependent upon an appraisal.
    Question 12e. How is the proposed land currently being utilized? 
How will the acquisition of the land by the NPS change the use of the 
land?
    Answer. The current land owner uses the property for recreational 
purposes. Acquisition of the land by the NPS will maintain recreational 
use, although hunting will no longer be permitted.
    Question 12f. Will there be a net loss of hunting land as a result 
of this land acquisition by the National Park Service?
    Answer. Hunting, which is permitted on private land by the 
Commonwealth of Pennsylvania and regulated by the Pennsylvania Game 
Commission, with the permission of the owner, will no longer be 
permitted on the acquired property.
    Question 12g. What is the estimated value of the land identified 
for addition to Fort Necessity National Battlefield?
    Answer. The property has not been appraised yet.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                                    April 26, 2010.
Hon. Jeff Bingaman,
Chairman, Energy & Natural Resources Committee, 304 Dirksen Senate 
        Building, Washington, DC.
    Dear Senator Bingaman: The Northern California-Western Nevada-
Pacific (NCWNP) District of the Japanese American Citizens League 
(JACL) supports S. 1596, the Gold Hill-Wakamatsu Preservation Act of 
2009.
    The Gold Hill-Wakamatsu Preservation Act would authorize the Bureau 
of Land Management acquisition of the Wakamatsu Tea and Silk Farm 
Colony near Gold Hill, California. This site marks the destination of 
more than 20 colonists who, in 1869, fled Aizu-Wakamatsu, Japan for 
California and established the Wakamatsu Tea and Silk Farm Colony. This 
is widely believed by prominent historians to be the first Japanese 
``Jamestown'' settlement in North America. It is here where Okei, a 19-
year-old-girl who was the first Japanese to die in America, is buried. 
Our community members know it as ``Okei's Grave,'' and each year, 
Japanese Americans visit the site to remember and pay tribute to this 
adventurous and pioneering spirit.
    Today the property is up for sale and its history, along with its 
open space, hiking trails and pastureland could be lost. We hope you 
will co-sponsor and actively support this legislation. Further, as 
chair of the Senate Interior Appropriations Subcommittee, your efforts 
are critical to helping the Wakamatsu Foundation and the American River 
Conservancy preserve this marvelous site so that future generations can 
learn more of our nation's immigrant history and enjoy another rich 
example of what makes America great.
    The JACL is the largest and oldest civil rights and educational 
organization in the country that serves the Asian Pacific Islander 
population. We have 113 chapters and 15,000 members nationwide, with 
over 60 of those chapters located in the State of California. We 
support S. 1596 and request for your assistance in its passage.
            Sincerely,
                                                Patty Wada,
                            Regional Director, JACL NCWNP District.
                                 ______
                                 
                 Japanese American Citizens League,
                                          San Jose Chapter,
                                      San Jose, CA, April 21, 2010.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, 304 Dirksen Senate 
        Building, Washington, DC.
Re: Gold Hill--Wakamatsu Colony SB 1596 Support

    Dear Chairman Bingham: The Gold Hill Wakamatsu Tea and Silk Farm 
Colony site is now listed on the National Register of Historic Places 
at a ``level of national significance''. We need your support to help 
orient the American people to the Gold Hill site so that it can become 
recognized as its own ``Plymouth Rock'' for Japanese Americans. Your 
leadership is critical to the preservation of this First Colony site.
    Senator Barbara Boxer has requested a hearing on Senate Bill 1596, 
the Gold Hill Wakamatsu Preservation Act, before the Energy and Natural 
Resources Committee and expects this hearing will be held in early May.
    The San Jose JACL, as part of the Nation's oldest and largest Asian 
American Civil and Human Rights organization, asks for your aid in 
preserving Japanese American heritage by supporting SB 1596!
            Sincerely,
                                               Leon Kimura,
                                                         President.
                                 ______
                                 
             National Japanese American Historical Society,
                                 San Francisco, CA, April 20, 2010.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, 304 Dirksen Senate 
        Building, Washington, DC.
    Dear Senator Bingaman, On behalf of the National Japanese American 
Historical Society, I wish to convey my strongest support for S. 1596, 
the Gold Hill-Wakamatsu Preservation Act of 2009 and ask that you 
support it as well. This legislation holds historic significance not 
only to Japanese Americans, Californians, but for Americans nation-
wide, and our partners internationally.
    The Gold Hill-Wakamatsu Preservation Act authorizes the Bureau of 
Land Management acquisition of the Wakamatsu Tea and Silk Farm Colony 
near Gold Hill, California. This site marks the destination of more 
than 20 colonists who in 1869 fled Aizu-Wakamatsu, Japan for California 
and established the Wakamatsu Tea and Silk Farm Colony widely believed 
by prominent historians to be the first Japanese ``Jamestown'' 
settlement in North America. This cultural landmark still holds the 
gravesite of Okei, a 19-year-old girl who was the first Japanese to die 
in America along with the original house used by the Japanese 
colonists.
    This year, the National Japanese American Historical Society is 
participating in the Kanrin Maru Commemoration which is celebrating the 
150th anniversary of the arrival of the first official Japanese escort 
and delegation to the United States of 1860 (Edo to San Francisco to 
Washington DC). Wakamatsu was established only 9 years after the 
signing of Treaty of Amity and Commerce, and is recognized as the first 
settlement from Japan. Today, bilateral relations between the US and 
Japan remains as strong as ever with sister-city programs blossoming.
    Today the property is up for sale and its history along with its 
open space, hiking trails, and pasturelands could be lost. The story of 
these first pioneers to the Pacific Coast must be preserved. Your 
sponsorship of this legislation would take a significantly important 
step toward preserving this landmark site so that future generations 
can learn from and enjoy.
            Very sincerely yours,
                                             Rosalyn Tonai,
                                                Executive Director.
                                 ______
                                 
Statement of Shigeki J. Sugiyama, MPA, MJS, Lt. Colonel, United States 
Army (Retired), and Past President, Japanese American Citizens League, 
                              Richmond, CA
    I am writing to thank you for your support of the Gold Hill-
Wakamatsu Colony Project and to encourage your efforts to obtain 
federal funding for preserving the historically significant Wakamatsu 
Colony site at Gold Hill.
    Although I learned about of the existence of the Wakamatsu Colony 
years ago when I was still active in the Japanese American Citizens 
League, the historical significance of the so-called Wakamatsu Colony 
did not occur to me until I learned more about the immigrant group that 
came from Aizu-Wakamatsu when I visited Okei's grave site at Gold Hill 
earlier this year. While it is important for the descendants of the 
early Japanese settlers such as myself to have the site of the first 
settlers that came before our parents and grandparents marked for 
posterity's remembrance, I believe there is an even more important 
reason to mark the site.
    While I do not know what motivated Sir Matsudaira Katamori, the 
lord of the Aizu clan, to allow his vassals to emigrate to America, it 
appears that he did so at a time when his government, the Tokugawa 
Shogunate that he had so loyally served, was disintegrating. Katamori's 
Matsudaira family descended from Tokugawa Iyeyasu, the founder of the 
Tokugawa dynasty. Moreover, Katamori had been charged with protecting 
the shogunate's interests in Kyoto, the Imperial Capital, against the 
insurgents that were bent on bringing down the shogunate However, he 
was driven out of Kyoto by the insurgents shortly before his clansmen 
emigrated to America. In the final struggle to preserve the Tokugawa 
shogunate, many of Katamori's vassals fought to the bitter end, finally 
committing seppuku rather than submitting to the insurgents.
    The so-called Meiji Restoration is usually credited with Japan's 
opening to the West following the initial cracks opened by Commodore 
Perry and Ambassador Townsend Harris. However, that Katamori allowed 
and supported his vassals' emigration to the United States at a most 
critical time in Japan's history suggests to me that he and others 
closely associated with the Tokugawa shogunate looked to the United 
States as the one nation that could best help Japan maintain its 
integrity against the encroaching European powers (England, France, 
Russia.) Thus, Katamori allowing his vassals to come to America seems 
to be evidence of his effort to help assure the future of Japan.
    My thought that insiders of the Tokugawa shogunate looked to the 
United States to gain the knowledge and skills needed to defend itself 
against European encroachment is further supported by there being a 
number of headstones (seven or more) for Japanese samurai in a grave 
yard in New Brunswick, New Jersey. The samurai died in 1871 and the 
early 1870s in New York City or its vicinity. My understanding is that 
the Japanese samurai whose tombstones are in New Jersey were sent to 
America by Sir Matsudaira Shungaku, the lord of Echizen (now Fukui) at 
about the same time as the Aizu clansmen were sent to the California. 
As the Matsudaira name suggests, Shungaku was also of the Tokugawa 
family line and was a prominent member of the inner circle of the 
Tokugawa regime. There are also indications that the vassals Shungaku 
sent to America from Echizen-Fukui were routed through Satsuma, one of 
the clans that led the effort to topple the Tokugawa regime, thus 
suggesting that even the insurgents looked favorably toward the United 
States
    I am not aware of any scholarly studies into the background of the 
Wakamatsu Tea Colony or of members of the Tokugawa regime's inner 
circle looking to the United States as the source of the knowledge and 
skills needed to preserve Japan's national integrity. However, the loss 
of the Gold Hill site to development would erase the only tangible 
evidence that elements of the Japanese government under the Tokugawa 
shogunate were reaching to the United States to develop the human 
resources needed to move Japan into the modern world and to defend 
against European encroachment.
    I am not a scholar and do not have time left to pursue my own study 
into this aspect of the history of the friendly relations between Japan 
and the United States. In a way, the story of the Wakamatsu Colony may 
be somewhat akin the Jamestown and Roanoke Colony stories. So I 
earnestly hope that the Graner House and the Gold Hill site of Okei's 
grave be preserved so that they may someday peak someone's interest 
into looking into what I believe is a significant aspect of the 
historical relationship between Japan and the United States.
                                 ______
                                 
                                American River Conservancy,
                                        Coloma, CA, April 20, 2010.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, 304 Dirksen Senate 
        Building, Washington DC.
 RE: Support for S. 1596--Gold Hill Wakamatsu Colony Preservation Act

    Dear Senator Bingaman: Over the past three years the American River 
Conservancy, a non-profit conservation organization, has assisted the 
Japanese-American community, local historians, businesses and farmers 
achieve national recognition for the Wakamatsu Tea and Silk Farm 
Colony. To the best of our research, the Wakamatsu Colony site is:

  <bullet> the first Japanese colony in North America;
  <bullet> contains the gravesite of Okei Ito, the first Japanese woman 
        buried on American soil;
  <bullet> the birthplace of the first naturalized Japanese-American; 
        and
  <bullet> the site where many traditional Japanese crops were first 
        grown and introduced to California and the United States.

    Recently, the National Park Service placed this site on the 
National Register of Historic Places at a level of national 
significance. Now, the property is up for sale and its history along 
with its open space, hiking trails and productive agricultural soils 
could be lost. To date, we have raised $2 million of the $3.3 million 
necessary to acquire the property as well as $480,000 to restore the 
original farmhouse occupied by the Wakamatsu Colonists beginning in 
1869.
    We believe that the Bureau of Land Management, with its strong 
local presence and management of thousands of acres of public lands 
nearby is best positioned to acquire the property and work with the 
local community to preserve and interpret the story of these first 
pioneers. There is no opposition to this project. To date, we have 
received over $530,000 in private donations from over one thousand 
local residents, local businesses, Japanese-Americans and Japanese 
supporters overseas towards the acquisition and protection of the 
property. We believe this project will attract international attention 
and help sustain the strong bilateral relations that exist between the 
United States and Japan.
    On behalf of the American River Conservancy and the project's many 
supporters, I respectfully request your support for S. 1596, the Gold 
Hill Wakamatsu Preservation Act of 2009. This legislation is a vital 
step in preserving this first colony site for the enjoyment and 
education of future generations.
            Sincerely,
                                              Alan Ehrgott,
                                                Executive Director.
                                 ______
                                 
                                 California State Assembly,
                                      Sacramento, CA, July 9, 2009.
Hon. Tom McClintock,
U.S. House of Representatives, 508 Cannon House Office Building, 
        Washington, DC.
    Dear Representative McClintock: I support federal legislation 
authorizing the Bureau of Land Management (BLM) acquisition of the 
Wakamatsu Tea and Silk Farm Colony site located in my district near 
Gold Hill, California. l support it because I believe firmly that it is 
a cultural and historic site of national significance to the United 
States, the Japanese community and to the state of California.
    Then-Governor Ronald Reagan designated the site as a state historic 
site in 1969; an event that was memorialized by Representative Harold 
Johnson in a floor statement to the U.S. House of Representatives on 
May 7, 1969. Like many of his decisions, Governor Reagan was right to 
bestow such a commemoration of the sacrifices made by more than 20 
colonists who fled war in Japan to start a new life of promise and 
freedom, like so many others, in the United States.
    I have visited the site and am amazed at the preservation of the 
original 1854 Graner House occupied by the colonists and the gravesite 
and memorial of Okei Ito, the first Japanese person buried on American 
soil. Along with countless Samurai artifacts brought by the colonists, 
these treasured historical artifacts should not be lost permanently at 
the expense of development pressure. The current owners, the Veerkamp 
family, have willingly and patiently worked with the Wakamatsu Colony 
Foundation to ensure the land is protected. I believe we should do 
everything we can do to help and I ask that you sponsor legislation 
authorizing this BLM project.
    With kind regards, I hope you will consider my views.
            Sincerely,
                                                Ted Gaines,
                                         Assemblyman, 4th District.
                                 ______
                                 
                                California Rice Commission,
                                    Sacramento, CA, April 20, 2010.
Hon. Jeff Bingaman,
U.S. Senate, 703 Hart Senate Office Building, Washington, DC.
RE: Support for S. 1596--Gold Hill--Wakamatsu Preservation Act

    Dear Senator Bingaman: The California Rice Commission, representing 
the state's 2,500 rice farmers and over 40 milling and marketing 
organizations, unanimously supports S. 1596. Our industry owes its 
start to early Japanese immigration into California. For over 50 years 
following the Gold Rush, farmers attempted to grow rice across 
California's fertile valleys and delta to no avail. It was not until 
the first Japanese variety Kiushu was planted that our industry took 
root. Today these ricelands provide reliable food for a nation, 
thousands of jobs for rural communities and unparalleled habitat for 
230 species of wildlife.
    There is no doubt that word of the successes of the early Wakamatsu 
settlers sparked interest in the agricultural riches that could be 
found in California. S. 1596 would authorize the Bureau of Land 
Management to acquire and manage the site of the first Japanese colony 
in North America, the Wakamatsu Tea and Silk Colony. These 22 settlers 
planted many important crops, including rice in the Sierra Foothills 
community of Gold Hill, just above the site where James Marshall first 
discovered gold in California. The 270 acre ranch where the Wakamatsu 
Colony settled is now available for the first time since its purchase 
by the Veercamp Family over 100 years ago.
    This legislation is vital to ensure that an important piece of 
history is not lost. We respectfully and with the greatest emphasis 
request your support of S. 1596.
            Sincerely,
                                               Tim Johnson,
                                                   President & CEO.
                                 ______
                                 
                            People to People International,
                                   Kansas City, MO, April 20, 2010.
Hon. Barbara Boxer,
U.S. Senate, Hart Senate Office Building, Suite 112, Washington, DC.
    Dear Senator Boxer: It is mypleasure to lend support to you and the 
many individuals dedicated to S. 1596, the Gold Hal-Wakamatsu 
Preservation Act. Your efforts are critical to this important site and 
will mean so much to Japanese-Americans, as well as Japanese culture 
worldwide.
    As the President and CEO of People to People International (PTPI), 
an organization established by my grandfather, U.S. President Dwight D. 
Eisenhower, to enhance Peace through Understanding, I believe it is 
essential to retain the historical significance of this site. People to 
People International celebrates diverse cultures at the grassroots 
level. Our dedicated members work to enhance friendship and 
understanding locally and globally. We recognize the importance of 
preserving this cultural gem.
    Many thanks, Senator Boxer, for your dedication to this important 
issue. I believe it is culturally, educationally and environmentally 
prudent to ensure the passage of S. 1596 and wish you every continuing 
success. California's rich history of welcoming immigrants to the 
United States is uniquely represented through this historic site, and I 
believe it would be such a tragedy for all if this were lost for future 
generations.
            Best regards,
                                      Mary Jean Eisenhower,
                             President and Chief Executive Officer.
                                 ______
                                 
                  National Trust for Historic Preservation,
                                   Washington, DC, January 8, 2010.
Hon. Mark Udall,
Chairman, Committee on Energy and Natural Resources, Subcommittee on 
        National Parks, 304 Dirksen Senate Building, Washington, DC.
    Dear Mark: I am writing in support of a bill that is of great 
importance to the National Trust for Historic Preservation and I urge 
you to schedule a hearing on it as early as possible when the Senate 
returns for the second session.
    The United States Civil Rights Trail bill--S. 1802 introduced by 
Senator Burris--would direct the Secretary of the Interior to conduct a 
special resource study for the protection and interpretation of 
American civil rights sites across the county. These sites are of 
tremendous value to our history as a nation, and the first step in 
assessing this inventory's importance as a collection is for the 
National Park Service to conduct this study. The National Trust is 
particularly interested in the potential addition of some or all of the 
sites to a National Civil Right Trail System and the study would 
provide Congress with recommendations regarding the route.
    There are a large number of places associated with historic events 
of the civil rights movement in the United States scattered across many 
states. At least 49 of these sites have been nominated for listing in 
the National Register of Historic Places. Many are already managed by 
state or local agencies and organizations committed to their 
preservation and interpretation.
    The bill would direct the Secretary to identify the resources and 
historic themes associated with the fight to secure equal rights for 
African-Americans and focus on the period from 1954 through 1968. The 
Interior Department would review existing studies and reports, such as 
the Civil Rights Framework Study, to produce a report to complement, 
not duplicate, other research in this field. The Secretary would also 
make alternative recommendations, with cost estimates, for their 
preservation by the National Park Service, other federal, state, or 
local governmental entities, or private and nonprofit organizations. 
This bill would help establish needed connections with agencies, 
organizations, and partnerships already engaged in civil rights site 
preservation and the protection of historically significant landscapes, 
districts and structures.
    In addition to Senator Burris' legislation, a companion measure, 
H.R. 685, sponsored by Rep. Clay from Missouri passed the House on 
September 29th and has been received in the Senate as well. It was 
referred to your full committee.
    Establishing a National Civil Rights Trail System to link sites 
with common signage, maps, and educational materials; improve public 
awareness; and facilitate the study of their importance in history 
would be an invaluable asset in chronicling the movement's watershed 
role in the American story. I urge your support for S. 1802 and ask 
that you begin to move this measure by scheduling a hearing when the 
Senate reconvenes.
            Warmest regards,
                                               Richard Moe,
                                                         President.
                                 ______
                                 
                             The Conservation Fund,
                                      Government Relations,
                                       Arlington, VA, May 19, 2010.
Hon. Mark Udall,
Chairman, Subcommittee on National Parks, Senate Committee on Energy 
        and Natural Resources, 304 Dirksen Senate Office Building, 
        Washington, DC.
Hon. Richard Burr,
Ranking Member, Subcommittee on National Parks, Senate Committee on 
        Energy and Natural Resources, 304 Dirksen Senate Office 
        Building, Washington, DC.
    Dear Chairman Udall and Senator Burr: As the Subcommittee meets 
today to receive testimony on national parks legislation, we write in 
strong support of S. 2953 and H.R. 3388, the Petersburg National 
Battlefield Boundary Modification Act.
    The 292-day siege of Petersburg took its toll on soldiers and 
civilians alike as 70,000 combatants became casualties while some 
civilians were driven from their homes. Almost a quarter of the entire 
Civil War was fought around the city of Petersburg as Generals Ulysses 
S. Grant and Robert E. Lee came head-to-head in their effort to control 
the rails and other supply lines which the Confederacy so desperately 
needed for its survival. Over the course of the nine-and-a-half months 
and 108 separate engagements covering more than 176 square miles, the 
conflicts at Petersburg were the most extensive and complex battles of 
the entire war. The outcome of the longest siege in American history 
proved pivotal as well and set the stage for the surrender of the 
Confederacy only seven days after the fall of Petersburg.
    The Petersburg National Battlefield has experienced threats to 
physical resources and to the visitor experience from incompatible 
residential, commercial and industrial development along park borders 
due to the impact of high growth in its surrounding counties. Several 
important portions of nationally significant battlefields related to 
the Petersburg Campaign have already been lost with development of an 
industrial park, a steel recycling plant and residential housing. 
Concerned about these losses, National Park Service staff developed an 
Assessment of Integrity Report that identified nationally significant 
battlefield lands critical to the park's mission that lie outside its 
boundaries. Twelve nationally significant battlefields totaling 
approximately 7,238 acres met National Park Service criteria for 
integrity, interpretability, suitability and feasibility for 
protection. These battlefield areas were included in the Final General 
Management Plan and within the recommended boundary expansion for the 
park.
    If enacted, S. 2953 and H.R. 3388 would further the Petersburg 
National Battlefield General Management Plan by:

  <bullet> Providing Congressional authority to the National Park 
        Service for a 7,238-acre boundary expansion of Petersburg 
        National Battlefield as recommended by the National Park 
        Service's 2005 Final General Management Plan.
  <bullet> Authorizing the Secretary of Interior and the Secretary of 
        the Army to move forward with a small exchange of land 
        (approximately 1. 17 acres/each) between the Petersburg 
        National Battlefield and the Fort Lee Military Reservation 
        adjacent to the Park to be managed in accordance with all 
        department and agency laws.
  <bullet> Providing authority to the Secretary of Interior to acquire 
        and receive donations of land from willing sellers as 
        authorized by the new 7,238-acre boundary expansion.

    We wish to commend Senator Jim Webb and Senator Mark Warner for 
their outstanding leadership in the preservation of unprotected 
hallowed ground on the battlefields in the Petersburg, Virginia, area 
by introducing this legislation to expand the boundary of the 
Petersburg National Battlefield. Our organizations strongly support the 
recommendations listed above, and we urge the Subcommittee and full 
Committee to create a positive, long-term legacy of the 
sesquicentennial of the Civil War by approving S. 2953 and H.R. 3388 
this Congress. In addition to honoring those brave men who fought and 
died on these fields, this legislation would increase heritage tourism 
in Virginia and would enable Americans to learn more about Virginia's 
critical role in the final year of the Civil War.
    With the Civil War's sesquicentennial in 2011, Congressional 
approval and enactment of this boundary expansion legislation during 
the 111th Congress would appropriately commemorate this chapter of 
America's history. Thank you for your leadership on this important 
initiative.
            Sincerely,
                                                Dan Sakura,
                                                    Vice President.
                                 ______
                                 
     Statement of the Society for American Archaeology, on S. 3303
    The Society for American Archaeology (SAA) appreciates this 
opportunity to testify in support of S. 3303, the Chimney Rock National 
Monument Act of 2010. This legislation would provide enhanced 
protections for the unique and priceless Chimney Rock Archaeological 
Area in the San Juan National Forest, Colorado.
    SAA is an international organization that, since its founding in 
1934, has been dedicated to the research about and interpretation and 
protection of the archaeological heritage of the Americas. With more 
than 7,000 members, SAA represents professional archaeologists in 
colleges and universities, museums, government agencies, and the 
private sector. SAA has members in all 50 states as well as many other 
nations around the world.
    Chimney Rock Archaeological Area is a 4,726-acre plot in 
southwestern Colorado's San Juan National Forest, and it was designated 
a National Historic Landmark in 1970. The archaeological resources of 
this area are the physical record of the ancestors of modern Pueblo 
Indian tribes. The ancient peoples who occupied Chimney Rock and the 
surrounding area left behind significant architecture as well as 
hundreds of smaller archaeological sites. The importance of these 
resources in our efforts to understand the past and the peoples who 
came before us cannot be overstated.
    Though the Forest Service works hard to protect Chimney Rock and 
other cultural heritage sites located on its land for present and 
future generations, the current level of oversight afforded to the area 
through its present designation is inadequate. Chimney Rock needs a 
clearer, more concise cultural resource protection mandate, one that 
will enable more staff and financial resources to be dedicated to 
surveying, inventorying, maintaining, and interpreting the site. 
Designation of the Chimney Rock Archaeological Area as a National 
Monument under S. 3303 will allow the federal government to provide 
support needed for the public to enjoy and learn about the significant 
natural, cultural, and scientific resources of this area.
    The legislation would also set forth a number of other steps to 
support the designation and future viability of the Monument. The 
Department of Agriculture, in consultation with Indian tribes and other 
stakeholders, would develop a management plan setting forth uses of the 
Monument as authorized by the Act, including use of the land by Indian 
tribes for cultural and religious purposes, scientific and 
archaeological research, and the construction of a visitor's center and 
curatorial facilities. Lands contained in the Monument would be 
withdrawn from mining and mineral leasing activities. Importantly, S. 
3303 would also authorize the Department to include public lands 
adjacent to the park in the Monument if those lands contained 
significant archaeological resources.
    Chimney Rock is one of the most significant archaeological sites in 
the nation. It's designation as a National Monument will expand our 
knowledge of the continent's past and ensure the preservation of its 
cultural resources for future generations of Americans. SAA strongly 
urges that the committee and full Senate consider and pass this 
important legislation as quickly as possible.
                                 ______
                                 
   Statement of David J. Brown, Acting President, National Trust for 
                   Historic Preservation, on S. 3303
    On behalf of the National Trust for Historic Preservation (National 
Trust), I applaud the Committee on Energy and Natural Resources' 
leadership in considering S. 3303, the Chimney Rock National Monument 
Act of 2010. Chimney Rock, located in southwestern Colorado, is 
possibly the most important cultural site managed by the U.S. Forest 
Service. It is the northernmost and highest Chacoan site known to 
exist, and yet it lacks a designation equal to its cultural 
significance. The National Trust believes that a national monument 
designation would bring Chimney Rock the recognition and permanent 
protection it so clearly deserves.
    Chartered by Congress in 1949, the National Trust for Historic 
Preservation is the largest nonprofit, membership organization 
dedicated to helping people protect, enhance and enjoy the places that 
matter to them. With headquarters in Washington, D.C., eight regional 
and field offices, 29 historic sites, and partner organizations in 50 
states, territories, and the District of Columbia, the National Trust 
provides leadership, education, advocacy and resources to a national 
network of people, organizations and local communities committed to 
saving places, connecting people to our history and collectively 
shaping the future of America's stories. For over 20 years, the 
National Trust has advocated for the preservation and enhancement of 
historic and cultural resources on federal public lands.
    Chimney Rock exhibits many of the features that earned Chaco Canyon 
a World Heritage Site designation. Between A.D. 925 and 1125, the 
ancestors of modern Puebloan Indians occupied Chimney Rock, and the 
site remains of cultural significance to many descendant tribes. 
Hundreds of cultural elements surround Chimney Rock's soaring twin rock 
spires, including the Great House Pueblo, which archaeologists believe 
may have contained as many as thirty-five rooms. Located on a steeply 
sloped rock mesa approximately 1,000 feet above the Piedra River, 
Chimney Rock has a commanding view of the valley below and the nearby 
San Juan Mountains.
    The first excavations of Chimney Rock were led by Jean Allard 
Jeancon, the curator of archaeology and ethnology at the Colorado 
Historical Society in 1920. In 1970, archaeologist Frank Eddy, now an 
emeritus professor at University of Colorado-Boulder, first documented 
the stylistic connection between the architecture of Chaco Canyon and 
Chimney Rock. That same year, Chimney Rock was also listed in the 
National Register of Historic Places. In 1988, Dr. J. McKim Malville, 
now professor emeritus of Astrophysical and Planetary Sciences at the 
University of Colorado-Boulder, discovered that every 18.6 years, the 
moon, as seen from the Great House Pueblo, rises between the twin rock 
spires during an event known as the Major Lunar Standstill. The dates 
of Major Lunar Standstill cycles appear to match the construction 
chronology of the Great House. The last Major Lunar Standstill was in 
2006, and the next time Standstill will occur in the years 2024 and 
2025.
    In recognition of the foregoing cultural and archaeological values, 
S. 3303 would designate Chimney Rock as a national monument. The 4,726-
acre monument would consist of two units, the main unit surrounding the 
Great House and a second, smaller unit called Peterson Mesa to the 
west. All of the lands in the proposed monument are owned and managed 
by the U.S. Forest Service as part of the San Juan National Forest. If 
approved by Congress, Chimney Rock would become the U.S. Forest 
Service's seventh national monument, but the first designated chiefly 
for the recognition and protection of cultural and archaeological 
values.
    A national monument designation would be a win-win for this 
nationally important cultural site, the community, tribes and the 
public. A designation would attract public attention and increase 
heritage tourism to Archuleta County and the Four Corners area. 
Historically, national monument designations also have brought 
increased federal funding and resources, thereby providing for higher 
quality visitor facilities, more interpretation, better public 
education and improved site stabilization. Finally, the designation 
would provide the Forest Service with a clear mandate to identify and 
protect Chimney Rock's archaeological and cultural values.
    The National Trust supports the intent of S. 3303 and many of the 
provisions currently in the bill. In particular, we support the 
language requiring the development of a management plan within three 
years of the enactment of the bill and provisions allowing for the 
continued use of the monument by Native American tribes for traditional 
ceremonies and plant gathering activities. We also support the bill's 
provisions for the designation of a monument manager as soon as 
practicable after development of the management plan. The designation 
would not require additional staff to be hired, as a line manager could 
be designated for this role. The Forest Service assessment of staffing 
levels in the San Juan National Forest and any necessary amendments to 
the organizational structure can be completed as part of monument 
planning process.
    However, we believe that the bill should be amended by modifying 
the provision authorizing the creation of a public utility right of way 
within the monument. Specifically, we believe that the legislation 
should require that any transmission line, pipeline or any other 
legitimate use of the right of way should avoid negative effects on 
Chimney Rock's view shed. The small size of this designation and the 
importance of protecting the monument's view shed, which is largely 
free of modern-day intrusions, make it an inappropriate location for 
additional large scale transmission lines and pipelines. This minor 
change to the bill is narrow in scope, would not in any way limit the 
development of existing rights of way in the monument, and is, in our 
opinion, necessary in order to ensure that the Forest Service manages 
Chimney Rock in a manner consistent with its national monument 
designation.
    Additionally, the National Trust supports the Forest Service's 
position for a small-scale interpretation and educational center at the 
national monument instead of a full-fledged visitor's center. The 
National Trust also supports the Forest Service's recommendation to 
provide for the curation and exhibition of scientific and cultural 
resources from Chimney Rock at the nearby BLM Anasazi Heritage Center.
    Americans are fortunate to have so many of the nation's historic 
and cultural treasures under federal stewardship. The National Trust 
strongly supports the designation of Chimney Rock as a national 
monument, but recommend the amendments discussed above.
    We appreciate the opportunity to provide written testimony to the 
Subcommittee on National Parks, and would welcome the opportunity to 
further assist the Committee should it have any questions about our 
testimony.
                                 ______
                                 
 Statement of Jeannette A. Feeheley, President, Citizens for Access to 
            the Lakeshore (CAL), Citizen, Benzie County, MI
    Chairman Udall, Ranking Member Burr, and Members of the 
Subcommittee,
    Thank you for allowing me to submit this testimony to express our 
organization's support of S. 2976. Its introduction represents the 
result of over eight years of work by the National Park Service (NPS) 
and input by us and hundreds of other organizations and individuals 
into NPS proceedings to establish a new General Management Plan and 
Wilderness Study for Sleeping Bear Dunes National Lakeshore (SLBE), 
which runs for seventy gorgeous miles along prime Lake Michigan 
shoreline in Benzie and Leelanau Counties in Northwest Michigan. The 
NPS in 2009 finalized and adopted its new General Management Plan for 
this Lakeshore, but significant parts of it cannot be implemented 
unless and until its accompanying Wilderness proposal is adopted by 
Congress and signed into law.
    We are extremely grateful to the Senate sponsor of this bill, the 
Honorable Carl Levin, who has been of immense aid to us and others in 
our negotiations over the years with the NPS, and to the Senate co-
sponsor, the Honorable Debbie Stabenow. We are likewise grateful to our 
Congressmen for Benzie and Leelanau Counties, who also have long been 
highly engaged in this bi-chamber, bipartisan effort. A similar bill to 
S. 2976 has been introduced in the U.S. House of Representatives by the 
Honorable Pete Hoekstra and co-sponsored by nine Michigan House 
Members, including the Honorable Dave Camp, whose district includes a 
portion of SLBE.
    In 2002, a public outcry erupted in Benzie and Leelanau Counties 
where the Lakeshore is located over the then current General Management 
Plan (GMP) proposals that were nearing their final stage and well on 
their way to adoption by the NPS. Until the 2002 NPS Newsletter had 
been released that gave details of Four Alternatives the NPS was 
considering at that time, along with their Preferred Alternative, most 
of the general public in the area were unaware of its implications. A 
few members of the public began publicizing those implications, and 
many in the area became incensed. After studying the matter and 
attending NPS hearings on such, some of my neighbors and I realized 
that there was no public nor local governmental body nor volunteer 
organization sufficiently manned to mount the sustained effort it would 
take to get the NPS to listen and respond to our concerns, so we formed 
Citizens for Access to the Lakeshore (CAL) as a nonprofit, citizen 
advocacy group to do so. We recruited membership, elected a Board of 
Directors and collected dues and donations sufficient to support our 
newsletters, public presentations, educational outreach and the 
development and maintenance of a CAL Web Site.
    At our founding, CAL never expected it would take eight years for 
the issues to get addressed, nor had we any idea that it would require 
new legislation to be passed by Congress, but the tedious and 
painstaking efforts by all concerned will be worth it if the 
legislation before you is passed. The bill is needed in order to allow 
the Park Service to implement the 2009 outcome of NPS proceedings and 
negotiations with the public which became, over eight years time, a 
true collaboration, in our view, among the Park Service and all its 
stakeholders.
    We are very grateful to SLBE Superintendent Dusty Shultz for the 
new GMP and Wilderness Study subsequently developed and approved at the 
agency level in 2009. Superintendent Shultz had not been a part of the 
development of the former GMP proposals in the early 2000's, having 
arrived at the Park as its new Superintendent after they had already 
reached their final stage. When the Secretary of Interior, in response 
to public outrage, requested withdrawal in October 2002 of that 
previous GMP, Superintendent Shultz responded by thenceforth devoting 
much staff time and resources to learning why the community was so 
alarmed and why the NPS had been so taken by surprise by the outrage.
    Those early years also saw the appointment of a new Director of the 
NPS Midwest Region, Mr. Ernie Quintana, who came to SLBE to view the 
Lakeshore, which had become one of his new responsibilities. During 
that visit, he was kind enough to meet with CAL Board members in the 
presence of Superintendent Shultz. After listening to us, he expressed 
his view that we seemed to have legitimate concerns, that the NPS could 
address them, and that he would be supportive in that effort. He has, 
indeed, been supportive at all crucial, NPS/internal review and 
approval stages over the many years on these efforts, and we are very 
grateful to Director Quintana and his Midwest Region Staff in Omaha.
    One of the first steps taken by the NPS during that contentious 
time was to send new personnel to SLBE who had expertise in public 
relations. CAL and others wondered at the time if Mr. Tom Ulrich had 
been sent simply to tell the local population that we didn't know or 
understand anything and to admonish us for having dared to question the 
federal bureaucracy. However, we soon learned that Mr. Ulrich was not 
sent for window dressing or simply to smooth ruffled feathers. Instead, 
we found him to be a dedicated public servant who was committed to 
listening to the concerns of the agency's stakeholders and who adeptly 
helped establish a working relationship among what had become, by that 
time, two distinct adversaries: the National Park Service vs. the 
SLBE's surrounding local communities.
    CAL strongly believes that, from 2002-2009, these two sides learned 
to listen and talk with each other as never before, and that the NPS 
adopted a new view that it is better to aggressively publicize its 
processes and actively and genuinely solicit input up front rather than 
assume all is well only to learn late in the game that its stakeholders 
had not understood the implications of what it planned to do. The 
materials developed by the NPS in this particular effort are a vast 
improvement over what was available to the public before. For instance, 
after the GMP process was resumed in 2006, inter-active communication 
tools were newly available to the public on an improved NPS Web Site 
that made it much easier for the general public to access, read and 
submit formal comment on each NPS proposal. It also appeared that the 
NPS liberalized, or, at least, publicized better, that any citizen who 
so desired could be put onto their mailing list to receive NPS 
proposals each step along the way where there was opportunity for 
public input.
    In addition, ever since 2002, CAL had been speaking at local and 
county government meetings, road commission hearings, Chamber of 
Commerce meetings, Rotary Clubs, etc., in an attempt to inform as many 
people as possible about our discoveries of the implications of the NPS 
proposals. So the NPS spent the time and resources necessary to do the 
same and more: Superintendent Shultz and Deputy Superintendent Ulrich 
and other NPS staff began to attend meetings of their stakeholders/
customers' organizations to make themselves available for questioning 
at their stakeholders' convenience and on their stakeholders' own 
territory. And, once the new GMP process was restarted in 2006, the NPS 
developed a Power Point Presentation they took ``on the road'' rather 
than relying on the few standard NPS Open Hearing dates which the 
public may or may not be able to attend.
    As for the substance of the problem, it was, in a nutshell, that in 
1981 the NPS had concluded a Wilderness Study and made a wilderness 
recommendation at a very young Park still deep in a contentious 
acquisition phase, its enabling legislation having only been passed in 
1970. The full impact of that Study would not become apparent to the 
public until much later, after most of the land had come under Park 
Service ownership. Two and a half decades passed with issues simmering 
in seemingly piecemeal NPS actions that the public only saw as 
separate, isolated irritants. However, the full implications of the 
1981 Wilderness Study and its inherent incompatibility with reality 
surfaced explosively in the 2002 GMP.
    Complicating matters was that this Park had not originated with 
vast amounts of never-used or never-privately-owned land, but of land 
that had been mostly held and used by small, private landowners for two 
centuries, along with two small areas of state park land. In order for 
the Park to become a reality, most of those private owners had to be 
removed from their land after the 1970 enabling legislation was passed. 
Many of the land parcels had been in the owners' families' possession 
for generations. Some were very willing to sell, some were not, and 
some were taken by eminent domain or its perceived threat. Another 
acquisition method was a sale in which the owners were allowed to 
reside for a specified time, usually through a twenty-five year lease.
    Although generally beloved by the most of the local populace now, 
the Park's very creation had been wrenching and painful. Indeed, it had 
taken the whole decade of the nineteen sixties for proponents of a new 
federalized Park to win sufficient support inside the State of Michigan 
for the 1970 enabling legislation to pass. The promise held out to all 
at the time was that, by taking the land and making it a federal 
Lakeshore, its woods and dunes and beautiful beaches would forever more 
be saved for the recreational uses of the general public rather than 
swallowed up and transformed by large-scale private developers.
    So, in 1981, the general public had little idea that 
``wilderness'', if applied where roads already existed, would require 
the removal of those roads. The Wilderness acreage recommended in 1981 
did, indeed, include many county roads in both Benzie and Leelanau 
Counties, roads which have provided the historical access to the 
beaches. The general public also had little idea that the 1981 
``wilderness'' would be interpreted by the NPS as a call for the 
destruction of many historical features throughout the Park. Indeed, it 
took two other citizens' groups, with the help of Senator Levin, to get 
the NPS to recognize that there were historical resources and cultural 
viewscapes worth saving within a Park where acquisition and a return-
to-nature agenda were on full throttle. Never-the-less, enough was 
understood about the 1981 Wilderness Recommendation that it was 
politically highly contentious from its inception: the Secretary of 
Interior would not approve it nor move it along for further approval. 
The Congress at that time reacted to the Secretary's inaction by 
inserting a few sentences about the 1981 Wilderness Study in a 1982 
amendment to the Park's 1970 enabling legislation. The purposes of the 
1982 amendment had mostly to do with making the acquisition process 
fairer to all property owners and with removing certain areas of land 
around Glen Lake from the Park boundaries. Even though the 1982 
legislation's intent and purposes had nothing to do with wilderness, 
Congress inserted language into that bill that instructed the NPS to 
manage all the land within the 1981 Wilderness Study as if it was 
``wilderness'' unless and until Congress said otherwise. The effect, as 
noted in the Congressional Record at the time, was a wilderness 
designation imposed by the back door, a de facto wilderness where none 
had been formally designated by Congress according to the procedures of 
the Wilderness Act.
    Over the years, the NPS attempted, from time to time, to acquire 
the county roads within those de facto wilderness areas, per the 1982 
Congressional action. However, for thirty years, the Counties have 
adamantly resisted federal acquisition of their roads, having no wish 
for their residents and tourists to lose public access to the beaches. 
The Park Service was never successful in eliminating the historical 
vehicular access on the mainland, but was successful on the Park's two 
islands, North and South Manitou, by disallowing use of the landing 
piers by cars and by a 1987 letter to South Manitou residents.
    The building tension over the NPS's repeated attempts to acquire 
the counties' roads came to a head in the 2002 GMP proposals. Having 
little familiarity with the long forgotten 1981 Wilderness Study and 
having little acquaintance with the fact that the Study's effects had 
become federal law in 1982, most local people were completely 
dumbfounded in 2002 on a number of levels:

  <bullet> Why did the 2002 GMP call for the acquisition and 
        demolishment of the county roads, which provide the only 
        vehicular access of the general public to the beaches?
  <bullet> Why did the 2002 GMP propose ``mouldering'' many of the 
        area's historical resources?
  <bullet> Why did the 2002 GMP proposals portray half the Lakeshore as 
        a place where the human foot had left no mark and where only 
        ``wilderness'' had existed?

    In this aspect, the GMP's tone, as well as the content, was highly 
        offensive to local people who themselves or their parents had 
        been uprooted from the very land now called a ``wilderness'' 
        where, allegedly, no one had ever settled. In reality, the 
        local populace had first hand knowledge that said lands had 
        been farmed, settled and lumbered for generations, and that 
        Native Americans and lumbering companies had worn trails that 
        still exist and are used to this day. South Manitou Island, 
        with its great natural harbor and nautical refuge in Lake 
        Michigan, had been settled, farmed and lumbered even before the 
        City of Detroit was developed. The 2002 GMP proposals were not 
        only offensive for proposing that the general public lose its 
        access to the beaches, the very purpose of the enabling 
        legislation, but added insult to injury by attempting to wipe 
        out the magnificent human history of the area's forebears.

  <bullet> And why did Park Service staff, in attempting to explain 
        these matters to an outraged citizenry, keep saying that it had 
        all been ``mandated'' by Congress?

    It took CAL much study of past legislation and NPS documents to 
track down all the historical events leading to the disastrous 2002 
collision between the Park Service and SLBE's local communities.
    Once CAL identified the 1981 Wilderness Study and the 1982 law as 
the cause of much of the problem, CAL sought to have the offending 
lines in the 1982 legislation removed, which would have freed the Park 
Service from any wilderness ``mandate'' and would have allowed them to 
begin afresh a new GMP unencumbered with de facto wilderness. However, 
we ascertained, to our initial disappointment, that there was no 
Congressional, political or agency will for such. It appeared that 
doing so might be interpreted and maybe contested by wilderness 
proponents as a removal of ``wilderness'' from the Lakeshore, even 
though such had never been officially designated.
    However, our Senators and Congressmen actively supported the 
public's desire to be heard, and, at the same time, they actively 
supported the Park Service's desire to allow for a cooling off period 
and to give the NPS time to look anew at the problems and situation. 
Our Senators and Congressmen supported the NPS' entering into a long, 
multi-year, continuing dialogue with the local communities. Our elected 
officials also supported CAL whenever it appeared to us that the NPS 
was not listening nor understanding us. Thanks to our Senators and 
Congressmen, we learned to read and speak Park Service-ese, and the NPS 
learned to understand us, even though we weren't always conversant or 
familiar with the multitudinous NPS procedures, policies and technical 
terms.
    It worked! The 2009 GMP/Wilderness Study addresses and corrects all 
the unresolved issues of the previous Wilderness Study. Now the areas 
proposed for wilderness make sense, and will provide that the 
primitive, natural areas can remain as much of the local population 
wishes--in their natural state--without cutting off public access where 
it is needed.
    The bill before you, if adopted, will finally, finally throw out 
the flawed 1981 Wilderness Study that has had our Lakeshore tied up for 
so long in administratively applied wilderness sanctions where they 
were inappropriate and unenforceable, and will replace it with the new 
2009 Wilderness recommendation that puts the Lakeshore's counties' 
roads, beaches, fundamental historical resources and all remaining 
private inholdings outside wilderness jurisdiction. At the same time, 
the bill would give a true, Congressionally approved wilderness 
designation to those areas of the Park, a good half of its acreage, 
where a wilderness designation is appropriate and can be easily 
enforced by the Park Service and supported by its stakeholders.
    The bill is a win/win for proponents of wilderness and conservation 
as well as proponents of public access and varied recreation usage. It 
is not a bill where the proponents give grudging, reluctant support, 
feeling compromised and unhappy about something. Rather, this is a bill 
wherein almost everyone involved has emerged quite satisfied.
    CAL highly supports this bill and respectfully asks your 
consideration for its passage.
                                 ______
                                 
     Statement of James E. Spurr, President, Great Lakes Shipwreck 
                     Historical Society, on S. 1651
                               background
    Senate Bill 1651 amends a land Patent (deed) granted the United 
States 1n 1996 to a non-profit corporation, the Great Lakes Shipwreck 
Historical Society (``GLSHS'').
    The land is located in Michigan's Upper Peninsula, at Whitefish 
Point, on Lake Superior.
    The 8.2 acres of land is a former United States Coast Guard 
(``USCG'') and U.S. Lifesaving Service Station and contains historic 
buildings on the National Register. In fact, the 1861 lighthouse was 
enabled by Abraham Lincoln and was important at the time so to assist 
in delivering northern ore to foundries in support of the war effort.
    Whitefish Point is also an important migratory bird way. Each 
spring and fall, many migratory birds use Whitefish Point so to rest, 
feed and minimize the distance in crossing Lake Superior. The historic 
buildings and now a shipwreck museum are by and large visited in the 
summer and the thus do not much or directly conflict with the needs of 
migratory birds, when properly managed.
    Senate Bill 1651 updates the restrictions upon the 8.2 acres of 
GLSHS property, reflecting conditions more restrictive than those 
Congress first imposed in 1998 and in keeping with an agreement reached 
between the landowners at Whitefish Point with respect to the manner in 
which development should be limited and the surrounding land utilized 
in the future.
                              introduction
    Whitefish Point, Michigan, on Lake Superior, is occupied by three 
parties:

          a.) The United States Fish and Wildlife Service (``USFWS'')--
        33 acres
          b.) The Great Lakes Shipwreck Historical Society 
        (``GLSHS'')--8.2 acres
          c.) The Michigan Audubon Society (``MAS'')--2.6 acres

    GLSHS and MAS hold title by 1998 Congressional Patents, which for 
MAS has been amended in the past, in particular to update the grant and 
address inconsistencies as circumstances change. (Ex.1) Thus, Amending 
land Patents with respect to Whitefish Point, such as would S.B. 1651 
accomplish and as supported by GLSHS, is not without precedent. 
Modifying land patents on this particular site has been done before.
    In 1998, when Congress conveyed 8.2 acres to GLSHS, it conditioned 
the conveyance upon the continued use and ``interpretation and 
preservation of maritime history.'' (Ex. 2)
    Congress further conditioned the 1996 Patent by allowing that no 
development, with the exception of a gift shop and museum wings, should 
occur. A 1992 plan, depicting the museum wings that Congress allowed, 
is specifically referenced in the 1996 Patent. The reference to the 
1992 plan now needs to be modified and updated to reflect changing 
circumstances.
    The museum wings were intended to allow GLSHS to offer a mariner's 
memorial, video theatre and changing exhibit gallery. (Ex. 3, Page 23) 
That goal remains, but the landowners and neighbors have agreed and 
signed a thorough land use plan reducing the size of the museum wings 
and requiring further improvements to the site.
    In 2002, GLSHS, the USFWS and MAS negotiated, drafted and signed 
the Human Use and Natural Resource Management Plan (``2002 Plan''), 
allowing for habitat restoration and improvement, limited development 
and controlled human use in accordance with its terms and provisions. 
(Ex. 4)
    The problem is the Patent continues to reference what is now by the 
agreement of the parties an outmoded plan and model. Senate Bill 1651 
simply inserts the 2002 Plan, replete with additional conditions for 
the use and management of the surrounding land, for the less 
restrictive plan of the decade before. The 2002 Plan is far more 
comprehensive and improves Whitefish Point in many respects not 
addressed by the earlier 1992 plan.
                                timeline
    1983--The USCG executed a 25 year lease with the GLSHS for its land 
at Whitefish Point.

    1985--GLSHS opened a museum on site and began to restore historic 
buildings on the National Register, interpret maritime history and 
expand underwater archeology programs.

    1998--Congress transferred title to 8.2 acres to GLSHS. At the same 
time, MAS was granted 2.6 adjacent acres by a similar patent.

    2001--MAS filed suit against GLSHS over concern for the popularity 
of the museum and the resulting use of the land.

    2002--MLUI served as the consultant and its efforts led to the 
parties signing and agreeing to implement the 2002 Plan. (Ex. 5, 
highlighted pages taken from the 2002 Plan) The case was settled, in 
part allowing for that which is highlighted on Ex. 6. The highlighted 
page is taken from the 2002 Plan, agreed to by all parties.

    2003--GLSHS seeks to resolve the inconsistency in its Patent, which 
still references the 1992 plan, an earlier document that the 2002 Plan 
later replaced, with the agreement of all Whitefish Point landowners.
                    reason for the patent amendment
    S.B. 1651 would substitute the 2002 Plan for the 1992 plan 
currently referenced in the 1996 Patent.
    The 2002 Plan reflects the agreement of the surrounding landowners. 
The 2002 Plan was approved by a Federal Court as the resolution of then 
pending issues between the parties. Amending the GLSHS Patent removes 
the risk of it violating the current Patent, containing a reversionary 
clause, the conditions of which are outdated and which by the agreement 
among the parties, can be improved for a unique site of historical and 
ecological significance.
    Should S.B. 1651 be enacted (the mirror image of S.B. 1651, H.B. 
2121 has already passed the House unanimously), GLSHS would do nothing 
more than continue to fulfill the conditions and purposes of its Patent 
and implement the numerous improvements to the site agreed to by all in 
the 2002 Plan.
          comparisons between the 1992 plan and the 2002 plan
    Presently, the GLSHS Patent, due to its reference to the 1992 plan, 
allows for larger museum wings than are agreed to and found within the 
2002 Plan. (Ex. 7) Thus, S.B. 1651 would, by the inclusion of the 2002 
Plan, scale back the size of the museum wings.
    The parking lot, shared by GLSHS, MAS and Whitefish Township 
residents, will also be reduced in size and cars will park further from 
the historic site. (Ex. 8)
    Habitat would be created so to improve the property and make a more 
hospitable environment for migratory birds. (Ex. 9)
    The video theatre and changing exhibit gallery would enhance 
education and GLSHS would share the theatre with environmental groups 
such as MAS and others so to assist in educating about the natural 
history and significance of Whitefish Point.
                               conclusion
    If S.B. 1651 is passed the GLSHS land patent would be amended to 
replace the outdated 1992 plan, by way of restrictive conditions, with 
the more thorough, more restrictive, more recent 2002 Plan, agreed to 
by all surrounding landowners.
    The Amended Patent, referencing the 2002 Plan, will:

          A. Create natural habitat beneficial and important to 
        migratory birds,
          B. Restrict human activities on site that would benefit 
        migratory birds and native vegetation,
          C. Reduce the size of the museum wings,
          D. Reduce the size of the parking lot closest to historic 
        buildings,
          E. Allow for the continued healthy operation of a non-profit 
        corporation which maintains historic buildings and researches 
        and documents off shore archeological shipwreck sites,
          F. Protect existing jobs in tough economic climate in a 
        remote location,
          G. Allow, by the video theatre and changing exhibit gallery, 
        for more effective education of our maritime past and natural 
        resources.

    Senate Bill 1651 does not spend a dime of taxpayer money. Rather, 
it allows a private non-profit to continue to do good work, as was 
agreed as acceptable and beneficial in several respects by its adjacent 
landowners.
    The above testimony is sworn to be true and accurate.
                                 ______
                                 
                              Civil War Preservation Trust,
                                      Washington, DC, May 18, 2010.
Hon. Mark Udall,
Chairman, Subcommittee on National Parks, Senate Energy and Natural 
        Resources Committee, 304 Senate Dirksen Office Building, 
        Washington, DC.
    Dear Chairman Udall and Members of the Subcommittee: On behalf of 
the national nonprofit Civil War Preservation Trust, I am writing in 
strong support of H.R. 3388 and S. 2953, to modify the boundary of the 
Petersburg National Battlefield in the Commonwealth of Virginia, and 
for other purposes. The Civil War Preservation Trust has preserved more 
than 29,000 acres of hallowed ground throughout the United States, 
including more than 1,858 acres at Petersburg National Battlefield and 
the associated battlefields.
    Almost a quarter of the entire Civil War was fought around the city 
of Petersburg, as Generals Ulysses S. Grant and Robert E. Lee came 
head-to-head in their effort to control the vital but vulnerable supply 
lines into the Confederate capital at Richmond. Over the course of 
nine-and-a-half months from June 1864 to April 1865, 108 separate 
engagements covering more than 176 square miles were fought in and 
around Petersburg. The outcome of the longest siege in American history 
proved pivotal as well and set the stage for the surrender of the 
Confederacy's largest and most successful army only seven days after 
the fall of Petersburg.
    The Petersburg National Battlefield has experienced threats to 
physical resources and to the visitor experience from incompatible 
residential, commercial and industrial development along park 
boundaries due to the impact of high growth in surrounding counties. 
Significant battlefield lands related to the Petersburg Campaign have 
already been lost through development of an industrial park, a steel 
recycling plant and residential housing.
    Concerned about these losses, National Park Service staff developed 
an Assessment of Integrity Report that identified nationally 
significant battlefield lands critical to the park's mission that lie 
outside its current boundaries. Twelve nationally significant 
battlefields totaling approximately 7,238 acres met National Park 
Service criteria for integrity, interpretability, suitability and 
feasibility for protection. These battlefield areas were included in 
the Final General Management Plan (GMP) and within the recommended 
boundary expansion for the park. The twelve associated battlefields 
are: Boydton Plank Road, the Crater, Five Forks, Fort Stedman/Picket 
Line Attack, Globe Tavern, Hatcher's Run, Jerusalem Plank Road, 
Peebles' Farm, Petersburg-Assault, Petersburg-Breakthrough, Reams' 
Station and White Oak Road. Please note that the Civil War Preservation 
Trust has itself protected land outside park boundaries at six of these 
sites.
    H.R. 3388 and S. 2953 would further the Petersburg National 
Battlefield GMP by providing authority to the Secretary of Interior to 
acquire and receive donations of land from willing sellers within the 
7,238-acre expanded boundary, allowing for the preservation and 
interpretation of vulnerable and unprotected hallowed ground. 
Incorporation of the twelve battlefields associated with the Petersburg 
Campaign into the Petersburg National Battlefield will create 
opportunities for visitors to access these significant Civil War 
landscapes and resources, allowing the Park to convey a more 
comprehensive Civil War story.
    It is also worth noting that the Petersburg Battlefield, as well as 
each of the battlefields associated with the siege of Petersburg, was 
recognized as a nationally significant historic resource in a 1993 
Congressional study on the status of the nation's Civil War 
battlefields conducted by the Civil War Sites Advisory Commission.
    In conclusion, the Civil War Preservation Trust fully supports the 
passage of H.R. 3388 and S. 2953 to modify the boundary of the 
Petersburg National Battlefield. With the Civil War's sesquicentennial 
beginning in 2011, Congressional approval and enactment of this 
boundary expansion legislation during the 111th Congress would 
appropriately commemorate this chapter of America's history.
    Thank you for the opportunity to provide written testimony on these 
important pieces of legislation.
            Sincerely,
                                       O. James Lighthizer,
                                                         President.
                                 ______
                                 
                               Civil War Preservation Trust
                                      Washington, DC, May 18, 2010.
Hon. Mark Udall,
Chairman, Subcommittee on National Parks, Senate Energy and Natural 
        Resources Committee, 304 Senate Dirksen Office Building, 
        Washington, DC.
    Dear Chairman Udall and Members of the Subcommittee: On behalf of 
the national nonprofit Civil War Preservation Trust, I am writing in 
strong support of H.R. 4395 and S. 3159, to revise the boundaries of 
the Gettysburg National Military Park to include the Gettysburg Train 
Station, and for other purposes. The Civil War Preservation Trust has 
protected more than 29,000 acres of hallowed ground throughout the 
United States, including nearly 700 acres at Gettysburg.
    The Battle of Gettysburg, the largest battle ever fought on 
American soil, has become enshrined as part of our nation's history. 
For three days in July 1863, Confederate General Robert E. Lee 
concentrated his full strength against Union Major General George G. 
Meade's Army of the Potomac at the crossroads county seat of 
Gettysburg. Approximately 1/3 of the 158,000 soldiers in blue and gray 
who fought at Gettysburg became casualties of the titanic battle.
    H.R. 4395 and S. 3159 would allow for the incorporation of two 
historically significant properties into the boundary of the Gettysburg 
National Military Park. The two properties include the Lincoln Train 
Station, the site at which President Abraham Lincoln arrived before 
delivering the Gettysburg Address, and 45 acres of land at the southern 
end of the battlefield adjacent to current NPS-owned property, the site 
of cavalry skirmishes during the battle. Incorporation of these sites 
into the Gettysburg National Military Park will create opportunities 
for visitors to access these significant Civil War landscapes and 
resources, allowing the Park to convey a more comprehensive story of 
the Battle of Gettysburg. In addition, this boundary expansion is 
consistent with the Gettysburg National Military Park's 1999 General 
Management Plan (GMP).
    It is also worth noting that the Gettysburg Battlefield was 
recognized as a nationally significant historic resource in a 1993 
Congressional study on the status of the nation's Civil War 
battlefields conducted by the Civil War Sites Advisory Commission. In 
that report, the Civil War Sites Advisory Commission identified 
Gettysburg as a Priority I site, its highest designation.
    In conclusion, the Civil War Preservation Trust fully supports the 
passage of H.R. 4395 and S. 3159 to modify the boundary of the 
Gettysburg National Military Park. With the Civil War's 
sesquicentennial beginning in 2011, Congressional approval and 
enactment of this boundary expansion legislation during the 111th 
Congress would appropriately commemorate this chapter of America's 
history.
    Thank you for the opportunity to provide written testimony on these 
important pieces of legislation.
            Sincerely,
                                       O. James Lighthizer,
                                                         President.
                                 ______
                                 
                                      Dodona Manor,
               The George C. Marshall International Center,
                                        Leesburg, VA, May 17, 2010.
Hon. Mark Udall,
Senator,
Hon. Richard Burr,
Senator, National Parks Subcommittee, Energy and Natural Resources 
        Committee, U.S. Senate, Washington, DC.
Re: S.1750

    Dear Chairman Udall and Ranking Member Burr: I am pleased that you 
included S.1750 as you consider a comprehensive National Parks bill for 
the 111th Congress. Today's agenda is full, so I will be concise.
    My name is Stephen C. Price. I am President of the George C. 
Marshall International Center Board of Directors. We own and operate 
General Marshall's home in Leesburg, Virginia.
    Marshall's home--known as ``Dodona Manor''--is fully restored and 
financially viable. Built in the 1820's it was designated a National 
Historic Landmark in 1996. We opened our doors to the public in 2005 
after a multi-million dollar restoration funded by private donations, 
federal aid, including a prestigious ``Save America's Treasures'' grant 
from the Department of the Interior, and appropriations from The 
Commonwealth of Virginia and local government. Recognizing the 
significance of the Marshall home, Senator Webb and Congressman Wolf 
have introduced bills--S.1750 and HR.3757--in their respective chambers 
that direct the National Park Service to study the fitness of Dodona 
Manor to be granted Affiliate Status within the NPS system.
    As you know, conferring Affiliate Status on an historic property 
does not mean that the Department of Interior will either acquire or 
operate the property. Affiliate Status is a prime example of a public-
private partnership that allows a privately owned and operated historic 
property of international significance to benefit from the power of the 
media umbrella and promotional actions of the National Park Service. 
Should such a study conclude that Dodona Manor is a fit property to be 
granted Affiliate Status, and Congress concurs, Marshall's home would 
benefit from an association with the National Park Service that would 
include its placement on the NPS website and the installation of 
special NPS road directional signs.
    Senator Webb's bill ( S.1750) which is before you is 
straightforward: it merely directs the NPS study the appropriateness of 
Affiliate Status for General Marshall's home. I hope that you and the 
rest of the National Parks Subcommittee will support this legislative 
action.
    General Marshall was Army Chief of Staff and President Roosevelt's 
principal military adviser during World War II. Retiring at the end of 
the war, President Truman immediately appointed him as his special 
envoy to China to attempt the negotiation of a ceasefire between the 
Nationalists and Communists. Upon return, Truman turned to him again 
and selected him in 1947 to be Secretary of State. Confronted with a 
devastated Europe that augured poorly for the creation of a peaceful 
continent, he was responsible for the Marshall Plan that stimulated 
economic recovery. It is not an exaggeration to credit this program 
with the creation of the prosperous and peaceful Europe that has 
evolved into the European Union.
    Recognizing his immense achievement he was awarded the Nobel Peace 
Prize in 1953. It was most appropriate that President Obama, in his 
acceptance speech for the same prize, noted the lasting contributions 
of the Marshall Plan.
    When the Korean War erupted and began going badly for the United 
States and its allies, President Truman turned to Marshall once again 
and appointed him as Secretary of Defense. To this job he brought his 
immense organizational skills to bear in the ongoing work of 
consolidation of what had formerly been the War and Navy Departments.
    After stepping down from this second cabinet position, retirement 
eluded him as he served as president of the American Red Cross.
    In describing Marshall, Winston Churchill said:

          In war he was as wise and understanding in counsel as he was 
        resolute in action. In peace he was the architect who planned 
        the restoration of our battered European economy and, at the 
        same time, laboured tirelessly to establish a system of Western 
        Defence. He has always fought victoriously against defeatism, 
        discouragement and disillusion. Succeeding generations must not 
        be allowed to forget his achievements and his example.

    His Leesburg, Virginia home, Dodona Manor, stands as a monument to 
this great American to insure that he is not forgotten.
    Thank you Chairman Udall and Ranking Member Burr for the 
opportunity to ask your support for our effort to tell the story of 
General Marshall. Please know that you and any members of the 
subcommittee, including their staff, would be most welcome to come for 
a visit--Leesburg is just an hour away.
            Yours sincerely,
                                          Stephen C. Price,
                                                         President.


</pre></body></html>
